<html>
<title> - HEARING ON THE FILIPINO VETERANS EQUITY ACT OF 2007</title>
<body><pre>[Senate Hearing 110-70]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-70
 
                   HEARING ON THE FILIPINO VETERANS 
                           EQUITY ACT OF 2007

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2007

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-645                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                   Daniel K. Akaka, Hawaii, Chairman
John D. Rockefeller IV, West         Larry E. Craig, Idaho, Ranking 
    Virginia                             Member
Patty Murray, Washington             Arlen Specter, Pennsylvania
Barack Obama, Illinois               Richard M. Burr, North Carolina
Bernard Sanders, (I) Vermont         Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Lindsey O. Graham, South Carolina
Jim Webb, Virginia                   Kay Bailey Hutchison, Texas
Jon Tester, Montana                  John Ensign, Nevada
                    William E. Brew, Staff Director
                 Lupe Wissel, Republican Staff Director


                            C O N T E N T S

                              ----------                              

                             April 11, 2007
                                SENATORS

                                                                   Page
Akaka, Hon. Daniel K., Chairman, U.S. Senator from Hawaii........     1
    Prepared statement...........................................     5
Inouye, Hon. Daniel K., U.S. Senator from Hawaii.................     1
Craig, Hon. Larry E., Ranking Member, U.S. Senator from Idaho....     5
Murray, Hon. Patty, U.S. Senator from Washington.................    18

                               WITNESSES

Gaa, Hon. H.E. Willy C., Philippine Ambassador to the United 
  States.........................................................     7
    Prepared statement...........................................     8
    Legal, Moral and Historical Basis for Filipino Veterans Full 
      Equity, attachment.........................................     9
Aument, Ronald R., Deputy Under Secretary for Benefits, 
  Department of Veterans Affairs.................................    12
    Prepared statement...........................................    14
Panangala, Sidath Viranga, Analyst, Social Legislation, 
  Congressional 
  Research Service...............................................    20
    Prepared statement...........................................    22
    CRS Report for Congress--Overview of Filipino Veterans' 
      Benefits, 
      attachment.................................................    25
Antonio, Luisa, Executive Director, San Francisco Veterans Equity 
  Center.........................................................    39
    Prepared statement...........................................    40
Yangwas, Jenah Mari Paloy, SAVE Member, and Granddaughter of a 
  Filipino WWII Veteran..........................................    41
    Prepared statement...........................................    42
Manuel B. Braga, Commander, Filipino World War II Veterans 
  Federation, San Diego County...................................    46
    Prepared statement...........................................    48
Caleda, Art A., President of WWII Fil-AM Veterans and Ladies 
  Auxiliary Hawaii Chapter.......................................    49
    Prepared statement...........................................    50
Ganio, Patrick G., Sr., National President, American Coalition 
  for Filipino Veterans, Inc.....................................    52
    Prepared statement...........................................    54
Valdez, Benito, Filipino World War II Veteran....................    55
    Prepared statement...........................................    56
Ramsey, Lieutenant Colonel Edwin Price (Ret.), World War II 
  Veteran........................................................    57
    Prepared statement...........................................    58

                                APPENDIX

Reid, Hon. Harry, U.S. Senator from Nevada, prepared statement...    65
Brown, Hon. Sherrod, U.S. Senator from Ohio, prepared statement..    65
Filner, Hon. Bob, U.S. Representative from California, prepared 
  statement......................................................    66
Magaoay, Hon. Michael, Y., State Representative from Hawaii, 
  prepared statement.............................................    67
Agbayani, Amy, Ph.D., Vice Chair, National Federation of Filipino 
  American Associations Region 12 (Hawaii, Guam, and Commonwealth 
  of Northern Marianas Islands), prepared statement..............    67
Andaya, Bryan, Esq., United Filipino Community Council (UFCH), 
  prepared statement.............................................    68
Batongmalaque, Jenny L., M.D., Executive Director, Filipino 
  Veterans, 
  prepared statement.............................................    68
Cabot, Cynthia C., Board Member, Guam Liaison, National 
  Federation of Filipino American Associations Region 12, 
  prepared statement.............................................    69
Calabas, Arcadio, President, Illinois Veterans Equity Center and 
  the American Legion Filipino American Post 509, prepared 
  statement......................................................    70
Cuaresma, Charlene, President, Filipino Coalition for Solidarity, 
  prepared statement.............................................    71
Dilkes, Susan Espiritu, Member, National Alliance for Filipino 
  Veterans 
  Equity and the American Coalition for Filipino Veterans, 
  prepared 
  statement......................................................    71
Florentino, Max C., President, Filipino WWII Pensioners 
  Association, Inc., and Defender of WWII Filipino Veterans, 
  prepared statement.............................................    72
Gutierrez, Lynne, President, Oahu Filipino Community Council, 
  prepared statement.............................................    74
de Guzman, Ben, National Campaign Coordinator, National Alliance 
  for Filipino Veterans Equity (NAFVE), prepared statement.......    74
    Letter in support of the Filipino Veterans Equity bill, 
      attachment.................................................    75
    List of events commemorating April 9 as Day of Valor, 
      attachment.................................................    79
Hopkins, Margarita, President, and Colmenares, Serafin, Jr., Vice 
  President, Congress of Visayan Organizations, prepared 
  statement......................................................    81
Musico, Nic G., Adviser, WWII Fil-Am Veterans and Ladies 
  Auxiliary Hawaii Chapter, prepared statement...................    82
de Ocampo, Emmanuel V., President, Veterans Federation of the 
  Philippines, prepared statement................................    83
Oculto, Tessie, President, Philippine Nurses Association-Hawaii, 
  prepared statement.............................................    83
Ramos-Razon, Beatrice, President, Nursing Advocates and Mentors, 
  Inc., 
  prepared statement.............................................    83
Letters in support of the Filipino Veterans Equity Act of 2007:
  Lingle, Hon. Linda, Governor from Hawaii.......................    84
  Garcetti, Hon. Eric, Councilman, Thirteenth Council District, 
  City of Los Angeles............................................    84
  Wilfredo, Lieutenant Colonel Tungkol (Ret.), U.S. Army.........    85
  Stewart, Kwoh, President and Executive Director, and Huang, 
  Daniel, Policy Advocate, Immigration and Citizenship Project, 
  Asian Pacific American Legal Center of Southern California, Los 
  Angeles, California............................................    85


          HEARING ON THE FILIPINO VETERANS EQUITY ACT OF 2007

                              ----------                              


                       WEDNESDAY, APRIL 11, 2007

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:01 a.m., in 
room 418, Russell Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Committee, presiding.
    Present: Senators Akaka, Murray, and Craig.

     OPENING STATEMENT OF HON. DANIEL K. AKAKA, CHAIRMAN, 
                    U.S. SENATOR FROM HAWAII

    Chairman Akaka. The Committee on Veterans' Affairs of the 
U.S. Senate will come to order.
    This hearing will be on the Filipino Veterans Equity Act of 
2007. Aloha. I am very pleased to welcome all of the witnesses 
to this long-awaited hearing on the veterans' status of 
Filipinos who fought along the United States military during 
World War II. I thank especially those of you who have traveled 
so far, over long distances, to be with us today.
    I would like to begin by calling my close friend, my 
colleague from Hawaii, United States Senator Dan Inouye, who is 
the sponsor of S. 57. Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much for your invitation to 
come before your Committee to speak in strong support of the 
measure before us. I wish to commend you and the Members for 
holding this hearing on the Filipino Veterans Equity bill. I 
think the title should be Filipino Veterans Justice bill. It is 
to do justice. It is my sincere hope that we will be successful 
in the passage of this bill during this Congress.
    Many of you know of my continued advocacy on the importance 
of addressing the plight of the Filipino World War II veterans, 
all of whom are in their twilight years. As an American, I 
believe the treatment of Filipino World War II veterans is 
bleak and shameful. It is time that we as a Nation recognize 
our longstanding history and friendship with the Filipinos.
    Of the 120,000 that served in the Commonwealth Army during 
World War II, there are approximately 60,000 Filipino veterans 
recently residing in the United States and the Philippines. 
According to the Department of Veterans Affairs, the Filipino 
veteran population is expected to decrease to approximately 
20,000, or roughly one-third of the current population, by 
2010.
    Historically, the Philippines became a United States 
possession in 1898 when it was ceded by Spain following the 
Spanish-American War. In 1934, the Congress enacted the 
Philippines Independence Act, which provided a 10-year time 
frame for the independence of the Philippines. Between 1934 and 
the final independence in 1946, the United States retained 
certain powers over the Philippines, including the right to 
call military forces organized by the newly formed Commonwealth 
Government into the service of the United States Armed Forces.
    The Commonwealth Army of the Philippines was called to 
serve with the United States Armed Forces in the Far East 
during World War II under President Roosevelt's July 26, 1941 
military order, which was the law of the land. The Filipinos 
who served were entitled to full veterans' benefits by reason 
of their active service in our armed forces. Hundreds were 
wounded in battle and many more hundreds died in battle.
    Shortly after Japan's surrender, the Congress enacted the 
Armed Forces Voluntary Recruitment Act of 1945 for the purpose 
of sending Filipino troops to occupy enemy lands and to oversee 
military installations at various overseas bastions. These 
troops were authorized to receive pay and allowances for 
services performed throughout the Western Pacific. Although 
hostilities had ceased, wartime service of these troops 
continued as a matter of law until the end of 1946.
    Despite all of their sacrifices, on February 18, 1946, a 
dark day, the Congress passed the Rescission Act of 1946, now 
codified as Section 107 of Title 38 of the United States Code. 
The 1946 Act deemed that the service performed by these 
Filipino veterans would not be recognized as active service for 
the purpose of any U.S. law conferring rights, privileges, or 
benefits. Accordingly, Section 107 denied Filipino veterans 
access to health care, particularly for their armed service-
connected disabilities, and pension benefits. Section 107 also 
limited service-connected disability and death compensation for 
Filipino veterans to 50 percent of what their American 
counterparts received.
    On May 27, 1946, the Congress enacted the Second 
Supplemental Surplus Appropriation Rescission Act, which 
duplicated the language that eliminated Filipino veterans' 
benefits under the First Rescission Act. Thus, Filipino 
veterans who fought in the service of the United States during 
World War II have been precluded from receiving most of the 
veterans' benefits that had been available to them before 1946 
and that are available to all other veterans of our armed 
forces, regardless of race, national origin, or citizenship 
status.
    Throughout the years, I have sponsored several measures to 
rectify the lack of appreciation America has shown to these 
gallant men and women who stood in harm's way with our American 
soldiers and fought the common enemy during World War II. These 
benefits include veterans' health care, service-connected 
disability compensation, non-service-connected disability 
compensation, dependent indemnity compensation, death pension, 
and full burial benefits.
    As a result of a citizenship statute enacted by the 
Congress in 1990, some Filipino veterans who were able to 
travel came to the United States to become U.S. citizens. At 
the same time, many other Filipino World War II veterans were 
unable to travel to the U.S. and take advantage of the 
naturalization benefit because of their advanced age.
    The law was subsequently amended under the Fiscal Year 1993 
Departments of State, Justice, Commerce, and the Judiciary 
Appropriations Act to allow the naturalization process for 
these veterans to occur in the Philippines. Since then, a 
distinction has been made to provide benefits to only those 
Filipino veterans residing in the United States.
    I believe it is unfair to make a distinction between those 
residing in the U.S. versus those residing in the Philippines. 
Under President Roosevelt's July 26, 1941 military order, the 
Commonwealth Army of the Philippines served with the United 
States Armed Forces in the Far East.
    Together, these gallant men and women stood in harm's way 
with our American soldiers to fight our common enemies in World 
War II. I strongly urge the Committee not to make a distinction 
between the Filipino veterans in the U.S. and the Filipino 
veterans residing in the Philippines. After all, an injury is 
just as painful in the Philippines as it is in the United 
States.
    Because all Filipino veterans stood in equal jeopardy 
during World War II, I do not believe we should have a 
distinction drawn based on the current residency in the U.S. or 
in the Philippines. All of them were at equal risk and so all 
should receive equal benefits.
    Heroes should never be forgotten or ignored. Let us not 
turn our backs on those who sacrificed so much. Let us instead 
work to repay all of those brave men for their sacrifices by 
providing them the veterans' benefits they deserve.
    Thank you very much for your consideration on this matter, 
and Mr. Chairman and Members of the Committee, I stand ready to 
work with you toward the passage of this much-deserved and 
much-needed legislation for the Filipino veterans of World War 
II.
    I thank you very much, sir.
    [Applause.]
    Chairman Akaka. Senator Daniel K. Inouye, recipient of the 
Medal of Honor of the United States, one who is ranked number 
three in the U.S. Senate, one who has introduced the Filipino 
Veterans Equity Act of 2007 that would constitute the granting 
of veterans' benefits and status to the Filipino veterans who 
served under U.S. command during the Second World War.
    Senator Inouye, thank you very much for your testimony and 
your bill that we will be talking about today. Thank you very 
much, and with much Aloha.
    Senator Inouye. Sir, I thank you very much, and Senator 
Craig, I thank you, sir.
    Chairman Akaka. Thank you. I know you are busy and we will 
go on with the hearing now, but again----
    Senator Inouye. Chairman, if you will excuse me, we have an 
Armed Services Committee meeting.
    Chairman Akaka. Thank you. Thank you very much, Senator 
Inouye.
    [Applause.]
    Chairman Akaka. I want you to know that we have many who 
are attending this hearing today and we have an overflow room--
that is Room 432 on this floor--that has room for you in case 
you want to sit down. There is a screen there so that you can 
watch what is happening in this room. It is Room 432.
    In the 62 years since the end of the Second World War, 
Filipino veterans have worked tirelessly to secure the 
veterans' status they were promised when they agreed to fight 
under U.S. command in defense of their homeland and to protect 
U.S. interests in the region. Today, I am happy to say many 
Filipino veterans enjoy eligibility for benefits and health 
care services as U.S. veterans.
    However, as our distinguished witnesses here today will 
remind us, there is still work to be done in order to extend 
these eligibilities to all of those who served alongside the 
United States military during World War II. There remains a 
distinction in law between those Filipino veterans who served 
in the old Philippine Scouts and those who served in the 
Filipino Commonwealth Army, the recognized guerilla forces or 
the New Philippine Scouts.
    Unlike those who served as old Philippine Scouts, those in 
the other three groups are not eligible for all VA benefits 
under the same criteria that applies to veterans of U.S. 
military service, and perhaps more importantly, this means they 
are not officially acknowledged by the U.S. Government as true 
veterans.
    My colleague and good friend from Hawaii, Senator Daniel 
Inouye, has introduced legislation which will end this 
distinction and, at long last, recognize these honorable and 
brave men as U.S. veterans of World War II. Senator Inouye's 
bill, the Filipino Veterans Equity Act of 2007, would 
constitute the final gesture in granting full veteran status to 
the brave Filipinos who served under U.S. command during the 
Second World War.
    There is a long and amiable history between the United 
States and the Filipinos dating back to 1898, when the 
Philippine Islands were ceded from Spain following the Spanish-
American War. When called upon by President Franklin D. 
Roosevelt to fight under U.S. command against the Japanese 
invasion, the organized Armed Forces of the Philippines fought 
bravely and honorably. They fought for the cause of freedom, 
their own independence, and out of loyalty to the United 
States.
    In the decades since the end of World War II and the 
establishment of the Independent Republic of the Philippines, 
the tradition of goodwill between the people of the United 
States and the Philippines has continued. In my home State of 
Hawaii, I have seen firsthand the invaluable contributions that 
Filipino Americans have made to the rich cultural texture of 
this country.
    The Filipino Veterans Equity Act of 2007 would honor the 
service of all Filipino veterans of World War II by formally 
recognizing the contribution of our Filipino veteran brethren 
from, ``the greatest generation.'' This hearing is an important 
first step toward that recognition.
    I again thank our witnesses for joining us and look forward 
to today's hearing. I want to thank you, all of those of you 
here of Philippine ancestry. Mabuhay.
    [Applause.]
    [The prepared statement of Chairman Akaka follows:]

         Prepared Statement of Hon. Daniel K. Akaka, Chairman, 
                        U.S. Senator from Hawaii

    Aloha. In the sixty-two years since the end of the Second World 
War, Filipino veterans have worked tirelessly to secure the veterans 
status they were promised when they agreed to fight under U.S. command 
in defense of their homeland and to protect U.S. interests in the 
region. Today, I am happy to say, many Filipino veterans enjoy 
eligibility to benefits and health care services as U.S. veterans. 
However, as our distinguished witnesses here today will remind us, 
there is still work to be done in order to extend these eligibilities 
to all of those who served alongside the United States military during 
the World War II.
    There remains a distinction in law between those Filipino veterans 
who served in the Old Philippine Scouts and those who served in the 
Filipino Commonwealth Army, the Recognized Guerilla forces, or the New 
Philippine Scouts. Unlike those who served as Old Philippine Scouts, 
those in the other three groups are not eligible for all VA benefits 
under the same criteria that applies to veterans of U.S. military 
service. And, perhaps more importantly, this means they are not 
officially acknowledged by the United States government as true 
veterans.
    My colleague and good friend from Hawaii, Senator Daniel Inouye, 
has introduced legislation which will end this distinction and, at long 
last, recognize and honor these brave men as U.S. veterans of World War 
II. Senator Inouye's bill, the ``Filipino Veterans Equity Act of 2007'' 
would constitute the final gesture in granting full veteran status to 
the brave Filipinos who served under U.S. command during the Second 
World War.
    There is a long and amiable history between the United States and 
the Philippines dating back to 1898, when the Philippine Islands were 
ceded from Spain following the Spanish American War. When called upon 
by President Franklin D. Roosevelt to fight under U.S. command against 
the Japanese occupation, the organized armed forces of the Philippines 
fought bravely and honorably. They fought for the cause of freedom, 
their own independence, and out of loyalty to the United States.
    In the decades since the end of World War II and the establishment 
of the independent Republic of the Philippines, the tradition of 
goodwill between the people of the United States and the Philippines 
has continued. In my home state of Hawaii, I have seen first hand the 
invaluable contributions that Filipino Americans have made to the rich 
cultural texture of this country.
    The Filipino Veterans Equity Act of 2007 would honor the service of 
all Filipino veterans of World War II by formally recognizing the 
contributions of our Filipino brethren from the ``Greatest 
Generation.'' This hearing is an important first step in that 
recognition coming to fruition.

    Chairman Akaka. Senator Craig?

       STATEMENT OF HON. LARRY E. CRAIG, RANKING MEMBER, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Thank you very much, Mr. Chairman, and 
welcome to all of our witnesses this morning and all who are in 
attendance, both here and, I understand, as Danny has just 
expressed, remotely.
    Mr. Chairman, you have already described the great services 
rendered by our friends from the Philippine Islands during 
World War II. That service is undeniable, and the legal record 
and the obligations from that record are also undeniable. That 
service is a fact. It is a historic fact that victory in the 
Pacific would not have been assured without the help of our 
Filipino friends and our Filipino- American citizens.
    I will not attempt to expand on what you have already said 
and what we will later hear from our guests this morning. The 
ultimate question we must grapple with in this Committee is 62 
years after World War II, has the U.S. Government met its 
obligation to Filipino veterans who fought under U.S. command 
during that war?
    When distinguished veterans of this Senate and of that war, 
Senator Inouye and Senator Akaka, put their name on legislation 
which suggests we have not met that obligation, that is an 
alert to all of us here that something is amiss. That, in fact, 
we should strive to do better for our Filipino veterans. That 
is, I believe, a responsibility and an obligation, and that is 
my position, Mr. Chairman. We should strive to do better for 
the Filipino veterans and I will work with you to that end.
    Let me turn, then, to the issue of whether S. 57 represents 
the best way to accomplish our collective goal. As you know, S. 
57 would grant full VA benefits to Filipino veterans. There are 
several issues that prevent me from endorsing the legislation 
at this time.
    First, while Filipino veterans were certainly U.S. 
nationals at the time of the war, a fact which heightens our 
obligation to them, they were also on a path to full 
independence as members of a sovereign nation. Yes, they fought 
for the U.S. interest against a common enemy, but they also 
fought for their own homeland. As such, I believe the 
governments of the Philippines and the United States 
collectively share responsibility for the care of these 
veterans.
    As I understand it, the Filipino Government pays $100 a 
month to Filipino veterans. I have also learned that should 
V.A. benefits be expanded on their behalf, that the Filipino 
Government would offset their $100 monthly payment. Mr. 
Chairman, I find that unacceptable. I am interested in 
improving benefits to Filipino veterans, not in merely shifting 
funding obligations from one nation's taxpayers to another.
    Second, it is a fact that the standard of living of our two 
countries is vastly different. VA pension benefits paid to 
veterans residing in the United States barely gets household 
income above the poverty level. The same benefit paid to 
veterans residing in the Philippines would provide income that 
is almost four times the average household income of that 
country. I am very concerned about creating a situation where 
the relative value of the same benefits is so vastly different.
    Third, the price tag of S. 57 is large, almost $1 billion 
over 10 years by some estimates. The Congress's budget rules 
require us to find offsets for that new spending. During a time 
of war and fiscal restraint, how will the costs of S. 57 be 
met?
    And finally, we have several bills pending before this 
Committee that seek to expand benefits to veterans of the War 
on Terror. Our country has no higher priority than to assure 
that those returning from war with traumatic brain injuries, 
severe burns, and amputations have the best benefits and care 
available. These bills also have tremendous costs. I want to 
make sure that in our goal to expand benefits for Filipino 
veterans within our existing resources, we also give 
appropriate priority to others in need.
    So, Mr. Chairman, I see that as our collective challenge in 
meeting an obligation and a responsibility that is represented 
in S. 57 and I will work with you to resolve this issue. Thank 
you very much.
    [Applause.]
    Chairman Akaka. Thank you very much, Senator Craig. I want 
you to know that Senator Craig and I have worked well together 
on this Committee and we will continue to do our best. We look 
forward to continuing this friendship and the kind of work that 
we do.
    We are fortunate to have with us today the Ambassador from 
the Philippines, Ambassador Gaa. He is accompanied by retired 
Major General Delfin N. Lorenzana, head of the Office of 
Veterans' Affairs for the Philippine Embassy. We are pleased 
that you can join us today to share your perspective, 
Ambassador Gaa, on the role of the Filipino military personnel 
during World War II.
    Ambassador Gaa, your complete statement will appear in the 
Committee's hearing record. Ambassador Gaa?

 STATEMENT OF HON. H.E. WILLY C. GAA, PHILIPPINE AMBASSADOR TO 
   THE UNITED STATES; ACCOMPANIED BY MAJOR GENERAL DELFIN N. 
LORENZANA (RET.), HEAD, OFFICE OF VETERANS' AFFAIRS, PHILIPPINE 
                            EMBASSY

    Ambassador Gaa. Thank you, Mr. Chairman and Members of the 
Senate Veterans' Affairs Committee. Thank you for your kind 
invitation for us to appear before the Committee. We deeply 
appreciate the opportunity to share with you the views of the 
Philippine Government on an issue of great importance to my 
country and to the Filipino people.
    Victory for allied forces marked the end of the war in the 
Pacific. At war's end, though battered by years of fighting and 
with the memories of their fallen comrades etched in their 
hearts, our veterans rejoiced and savored the sweet taste of 
victory. Little did they know that while the carnage and 
destruction of war had ended, they would be facing a new 
battle, one where victory would be far more elusive.
    It would be a battle where time, not bullets, would ravage 
their ranks. It would be a fight where the pain of inequity, 
not the bayonet charges of the enemy, would force them to once 
again witness their comrades fall one by one. This would be a 
quest for victory that would once more demand that they give 
the full measure of courage and sacrifice they had unselfishly 
shown in the trenches of Bataan and Corregidor, in the jungles 
and mountains throughout the archipelago, and on the crimson 
roads of the Death March.
    Today, few of these living symbols of the very freedoms and 
liberties that we now enjoy remain. By the end of this month, 
many more would have fallen. But they have not been alone in 
this quest for a final victory.
    Many in the U.S. Congress have stood boldly by our brave 
soldiers. Their profound sense of history and commitment to the 
common values that both our countries share and have fought for 
have given all of us renewed hope for justice, fairness, and 
equity.
    In this quest, Filipino American groups, U.S. veterans' 
organizations like the American Legion, the Veterans of Foreign 
Wars, the Vietnam Veterans of America, and as well as 
individuals have also marched unflinchingly side-by-side with 
our veterans. Many of these groups and individuals are with us 
today and we thank them for their invaluable and tireless work 
and for their commitment and dedication.
    Mr. Chairman, the Philippine Government and the Filipino 
people continue to maintain that the Filipino soldiers who 
fought and served under the U.S. Army during World War II, 
specifically during the period between July 1941 to October 
1945, are U.S. veterans under then-existing U.S. laws and are 
entitled to all benefits due a U.S. veteran.
    We therefore welcome the filing and urge the passage of S. 
57 and its companion bill in the House, H.R. 716, into law, to 
amend Section 107 of Title 38, United States Code, to deem 
certain service in the organized military forces of the 
Government of the Commonwealth of the Philippines and the 
Philippine Scouts to have been active service for purposes of 
benefits under programs administered by the Secretary of 
Veterans Affairs. We make this call based on assertions that 
are supported by clear facts and historical records. I have 
attached to this statement a reiteration of our arguments and I 
respectfully request that this be made part of the record.
    Mr. Chairman and Members of the Committee, Filipino World 
War II veterans were treated unfairly by the 79th Congress and 
the U.S. Government in 1946 by the enactment of P.L. 79-301, 
otherwise known as the Rescission Act of 1946.
    At a critical juncture in both our countries' history, 
Filipino veterans had willingly responded to the urgent call 
and order of President Franklin Delano Roosevelt. They readily 
left their families and homes for an uncertain fate. They 
fought valiantly, bravely, and with uncommon courage. They went 
into combat against great odds and often lacking the support 
that they had been promised.
    Out of the 470,000 reported by the VA in 1946, less than 
20,000 remain by 2010, as mentioned by Senator Inouye earlier, 
13,000 in the Philippines and 7,000 in the United States. Those 
who remain have very little time left. Many are sick and 
infirm.
    Two days ago, we marked the 65th anniversary of the Fall of 
Bataan with even more vacant spaces among the ranks of the 
veterans. We commemorate that fateful date not in the spirit of 
defeat but as a symbol of immense courage in the face of great 
odds and as a day that held for us the promise of a victory.
    Mr. Chairman, I ask on behalf of a nation that has stood by 
yours in the name of freedom, liberty, and democracy in World 
War II, in the decades of uncertainty after, and in facing 
today's new and great challenges, to let these old soldiers 
have their final victory. We ask that they be allowed to end 
this last chapter of a war they had fought so hard to win with 
their dignity intact and with the honor that they so truly 
deserve. Thank you.
    [The prepared statement of Ambassador Gaa follows:]

             Prepared Statement of Hon. H.E. Willy C. Gaa, 
               Philippine Ambassador to the United States

    Mr. Chairman and Members of the Senate Veterans' Affairs Committee.
    Thank you for your kind invitation for us to appear before the 
Committee.
    We deeply appreciate the opportunity to share with you the views of 
the Philippine Government on an issue of great importance to my country 
and to the Filipino people.
    Victory for allied forces marked the end of the war in the Pacific.
    At war's end, though battered by years of fighting and with the 
memories of their fallen comrades etched in their hearts, our veterans 
rejoiced and savored the sweet taste of victory.
    Little did they know that while the carnage and destruction of war 
had ended, they would be facing a new battle--one where victory would 
be far more elusive.
    It would be battle where time, not bullets would ravage their 
ranks.
    It would be a fight where the pain of inequity, not the bayonet 
charges of the enemy, would force them to once again witness their 
comrades fall, one by one.
    This would be a quest for victory that would once more demand that 
they give the full measure of courage and sacrifice they had 
unselfishly shown in the trenches of Bataan and Corregidor, in the 
jungles and mountains throughout the archipelago and on the crimson 
roads of the Death March.
    Today, few of these living symbols of the very freedoms and 
liberties that we now enjoy, remain. By the end of this month, many 
more would have fallen.
    But they have not been alone in this quest for a final victory.
    Many in the U.S. Congress have stood boldly by our brave soldiers. 
Their profound sense of history and commitment to the common values 
that both our countries share and have fought for, have given all of us 
renewed hope for justice, fairness and equity.
    In this quest, Filipino American groups, U.S. veterans 
organizations like the American Legion, the Veterans of Foreign Wars, 
the Vietnam Veterans of America, as well as individuals have also 
marched unflinchingly, side-by-side with our 
veterans.
    Many of these groups and individuals are with us today, and we 
thank them for their invaluable and tireless work and for their 
commitment and dedication.
    Mr. Chairman, the Philippine Government and the Filipino people 
continue to maintain that the Filipino soldiers who fought and served 
under the U.S. Army during WWII, specifically during the period between 
July 1941 to October 1945, are U.S. veterans under then existing U.S. 
laws and are entitled to all benefits due a U.S. veteran.
    We therefore welcome the filing and urge the passage of S. 57 and 
its companion bill in the House, H.R. 760 into law, ``to amend Section 
107 of title 38, United States Code to deem certain service in the 
organized military forces of the Government of the Commonwealth of the 
Philippines and the Philippine Scouts to have been active service for 
purposes of benefits under programs administered by the Secretary of 
Veterans Affairs.''
    We make this call based on assertions that are supported by clear 
facts and historical records.
    I have attached to this statement a reiteration of our arguments 
and respectfully request that these be made part of the record.
    Mr. Chairman and Members of the Committee, Filipino WWII veterans 
were treated unfairly by the 79th Congress and the U.S. Government in 
1946 by the enactment of P.L. 79-301, otherwise known as the Rescission 
Act of 1946.
    At a critical juncture in both our countries' history, Filipino 
veterans had willingly responded to the urgent call of President 
Franklin Delano Roosevelt.
    They readily left their families and homes for an uncertain fate.
    They fought valiantly, bravely and with uncommon courage. They went 
into combat against great odds and often lacking the support that they 
had been promised.
    Out of the 470,000 reported by the VA in 1946 less than 20,000 
remain--13,000 in the Philippines and 7,000 in the United States.
    Those who remain have very little time left. Many are sick and 
infirm.
    I ask, on behalf of a nation that has stood by yours in the name of 
freedom, liberty and democracy in World War II, in the decades of 
uncertainty after, and in facing today's new and grave challenges, to 
let these old soldiers have their final 
victory.
    We ask that they be allowed to end this last chapter of a war they 
had fought so hard to win--with their dignity intact and with the honor 
that they so truly 
deserve.
    Thank you.
                                 ______
                                 
                 Legal, Moral and Historical Basis for 
                     Filipino Veterans Full Equity

    We have based our arguments on the following facts verifiable from 
U.S. Congress archives:
    1. The Philippines was then a Colony of the U.S.--The Philippines 
was then a colony of the U.S. and the U.S. President, under the 
Tydings-McDuffie Act of 1934 (also known as the Philippine Independence 
Act of 1934) was vested with the authority to call the Philippine 
Commonwealth Army and other forces so organized to serve under the U.S. 
Army. This power was exercised by President Franklin Roosevelt on July 
26, 1941.
    2. The U.S. Assumed Command of All Forces--Shortly thereafter, 
General MacArthur having been designated the Commander of the newly 
organized United States Army Forces in the Far East, with Headquarters 
in Manila, issued an order assuming command of all U.S. Army Forces in 
the Philippines including the Commonwealth Army of the Philippines.
    3. Public Law 79-301 was Grossly Unfair--On February 18, 1946, 
barely 5 months before the scheduled independence of the Philippines, 
Public Law 79-301, now famously known as the Rescission Act of 1946, 
was enacted into law. Included in this rider was the appropriation of 
$200M to the Philippine Army with the proviso that ``service in the 
organized military forces of the Government of the Commonwealth of the 
Philippines while such forces were in the service of the armed forces 
of the United States pursuant to the military order of the President of 
the United States dated July 26, 1941, shall not be deemed to be or to 
have been service in the military or naval forces of the U.S. or any 
component thereof for any law of the U.S. conferring rights, privileges 
or benefits upon any such person by reason of service of such person or 
any other person in the military or naval forces of the U.S. or any 
component thereof.''
    4. Key U.S. Officials Admitted Eligibility for Equity--During the 
hearing for Public Law 79-301 the head of the U.S. Veterans' 
Administration was called to testify. His testimony included the 
following: there were 472,000 Filipino WWII veterans in 1946, they were 
eligible to VA benefits (THE SERVICE OF THE FILIPINO COMMONWEALTH ARMY 
INTO THE U.S. ARMED SERVICES DURING WWII HAVE MET THE STATUTORY 
DEFINITION OF A U.S. VETERAN), and it would cost the U.S. $3.2B to 
cover Filipino WWII Veterans on equal basis with their American 
counterparts.
    5. Statement of President Harry S. Truman Clearly Recognized that 
Filipino Veterans Deserved Equity--Before signing P.L. 79-301 into law, 
President Harry S. Truman stated:
    a. The effect of this rider is to bar Philippine Army veterans from 
all benefits under the GI Bill of Rights with the exception of 
disability and death benefits.
    b. The passage and approval of this legislation does not release 
the U.S. from its moral obligation to provide for the heroic Philippine 
veterans who sacrificed so much for the common cause during the war.
    c. Philippine Army veterans are nationals of the U.S. and will 
continue in that status until July 4, 1946. They fought as American 
nationals, under the American flag, and under the direction of our 
military leaders.
    d. He considers it a moral obligation of the United States to look 
after the welfare of the Philippine Army veterans.

    Chairman Akaka. Thank you very much, Ambassador Gaa, for 
your testimony.
    I have some questions for you, Ambassador. My first 
question is, what benefits does your government currently 
provide to World War II Filipino veterans?
    Ambassador Gaa. As mentioned by Senator Craig, the 
Philippine Government is extending old-age pension in the 
amount of approximately $100. They have also access to the 
Veterans' Memorial Medical Center in the Philippines.
    Chairman Akaka. Ambassador Gaa, if the United States were 
to pay non-service-connected pension to all eligible Filipino 
veterans who served with the U.S. forces during World War II, 
would your government offset this benefit against any benefits 
that are already paid to these veterans?
    Ambassador Gaa. Mr. Chairman, I have to be frank with you. 
We have legislation which states that a veteran who is at least 
65 years old shall be paid an old-age pension of 500 pesos 
monthly, or it is now 5,000 pesos, unless he is actually 
receiving a similar pension for the same consideration from 
other government funds or from the U.S. Government. Now, unless 
this is repealed, then there will be an offset. But let me 
assure you, Mr. Chairman, that my predecessor as well as myself 
have written our government that this grant be continued even 
after this government has extended benefits to these veterans.
    Chairman Akaka. I thank you very much for your responses.
    Senator Craig?
    Senator Craig. Thank you very much, Mr. Chairman.
    Mr. Ambassador, welcome before the Committee and thank you 
for your testimony. You have already responded to one of my 
questions that I broached in my opening comments that I think 
would be a concern, because I view the responsibility here as 
somewhat equal amongst nations, because while, as I said in my 
opening statement, yes, you fought as U.S. troops, I think 
there was a joint obligation and understanding and sense that 
you were also fighting to free a homeland. As a result of that, 
of course, you became independent. That was well underway at 
the time, from the 1930s on. So I am pleased with your response 
and I would hope that that is something that we could see 
moving in the form of legislation in the Philippines.
    One other question. I also commented on the difference in 
the cost of living in both the Philippines and the United 
States, and while I understand obligation no matter where the 
person resides, because we are talking about individuals who 
have been lifelong residents within the Philippines themselves, 
if the Committee were to extend benefits for the Filipino 
veteran residing in the Philippines, would you support our 
taking into account at least the differences in the cost of 
living of the two countries involved?
    Ambassador Gaa. Well, Mr. Chairman, Senator Craig, that is 
something I would have to consult with the veterans. But 
personally, I would support legislation that would recognize 
the different economic conditions but also the legislation that 
would recognize the long historical friendship between the 
Philippines and the United States as well as the sacrifices of 
our Filipino veterans. That has to be taken comprehensively, 
Mr. Chairman.
    Senator Craig. And last, Mr. Chairman, Ambassador, you said 
that the veteran currently in the Philippines receives $100 a 
month and access to health care or a health care system?
    Ambassador Gaa. It is access to the Veterans Memorial 
Medical Center, Mr. Chairman, Senator Craig, but that is only 
access.
    Senator Craig. Access----
    Ambassador Gaa. They have to pay their own medicines and 
all that.
    Senator Craig. So it is not full benefits----
    Ambassador Gaa. That is not full benefits----
    Senator Craig [continuing].--delivered from that system?
    Ambassador Gaa. Yes.
    Senator Craig. Thank you. That helps me.
    Ambassador Gaa. Thank you.
    Senator Craig. Thank you both very much.
    Chairman Akaka. Thank you, Senator Craig.
    I want to thank you, Ambassador, for your presence here. We 
really appreciate your statement and want to wish you well. 
Also, I want to mention that on April 9, the Philippines had a 
national holiday where they commemorated Corregidor and Bataan 
and also the Death March during World War II. You had a 
celebration there in the Philippines and I wanted to note that 
at this time.
    Again, Mr. Ambassador, thank you so much. I want to wish 
you and your country well in the 21st century. We look forward 
to considering Senator Inouye's bill. Again, thank you very 
much.
    Ambassador Gaa. Thank you very much, Mr. Chairman, for your 
kind remarks.
    Chairman Akaka. Aloha.
    Ambassador Gaa. Aloha.
    [Applause.]
    Chairman Akaka. On behalf of the Committee, I welcome our 
witnesses from the VA to the second panel: Mr. Ronald Aument, 
Deputy Under Secretary for Benefits; Mr. Jack Thompson, Deputy 
General Counsel; and Dr. Robert Wiebe, the Director of VA's 
Health Care Network that includes Hawaii.
    Good to see you again.
    I want to thank each of you for being here today. I also 
want to place in the record that Senator Reid has cosponsored 
S. 57 and has submitted a statement for the record.
    Chairman Akaka. Again, it is good to have you here and I 
want you to know that your full statement will appear in the 
record of the hearing.
    Mr. Aument?

          STATEMENT OF RONALD R. AUMENT, DEPUTY UNDER 
    SECRETARY FOR BENEFITS, DEPARTMENT OF VETERANS AFFAIRS; 
  ACCOMPANIED BY ROBERT WIEBE, DIRECTOR, VETERANS INTEGRATED 
SERVICE NETWORK 21, DEPARTMENT OF VETERANS AFFAIRS; AND JOHN H. 
     THOMPSON, DEPUTY GENERAL COUNSEL, DEPARTMENT VETERANS 
                            AFFAIRS

    Mr. Aument. Thank you, Mr. Chairman, Senator Craig, and 
thank you for the opportunity to testify today on S. 57, a bill 
that would deem certain service in the organized military 
forces of the Government of the Commonwealth of the Philippines 
and the Philippine Scouts to have been active service for the 
purpose of benefits under programs administered by VA.
    I am accompanied today by Dr. Robert Wiebe and Mr. Jack 
Thompson.
    The VA has great respect for the bravery and service of 
Philippine soldiers and for their partnership with the U.S. 
military in defending freedom. I am personally privileged to 
have met some of the Filipino veterans present here today for 
this hearing, Mr. Chairman, and I thank them for their service.
    We are pleased that our office in Manila works tirelessly 
to provide benefits to those eligible, with the result that an 
average of $12.5 million is paid each month to veterans 
resident in the Philippines. These funds not only benefit the 
veterans themselves, but also contribute to the economic growth 
of the Philippines.
    For purposes of VA benefits and services, members of the 
Philippine Armed Forces can be categorized into four separate 
groups: Regular Philippine Scouts, Commonwealth Army of the 
Philippines, recognized guerilla units, and New Philippine 
Scouts. Veterans who served in the regular Philippine Scouts 
have always qualified for the full range of VA benefits and 
services as veterans of the United States Armed Forces and they 
are not affected by this bill. For the other categories of 
Filipino veterans, S. 57 would extend full eligibility for VA 
benefits.
    Congress limited the rates of disability and death 
compensation to the equivalent of 50 cents on the U.S. dollar 
and did not authorize eligibility for VA needs-based pension, 
health care, or readjustment of benefits for veterans of the 
Commonwealth Army, recognized guerilla units, and the New 
Philippine Scouts. Legislative history indicates that benefits 
were limited to 50 cents on the dollar in recognition of the 
different standards of living in the United States and the 
Philippines, and Congress also anticipated that the newly 
independent Republic of the Philippines would rightly assume 
additional responsibilities for its veterans.
    We are very pleased that Congress has in recent years 
improved the benefits for those facing living expenses 
comparable to United States veterans. We believe these 
improvements were extremely important, as they allowed the VA 
to maintain parity in the provision of veterans' benefits among 
similarly situated Filipino beneficiaries.
    Filipino veterans who lawfully reside in the United States 
and are United States citizens or aliens lawfully admitted for 
permanent residency in the United States now qualify for 
disability compensation at the full U.S. dollar rate. They also 
have eligibility for VA health care and burial benefits similar 
to other veterans of the U.S. Armed Forces.
    Service-connected World War II Filipino veterans residing 
in the United States can obtain hospital and outpatient medical 
services for any condition on the same basis as veterans of the 
U.S. forces. The United States has also provided assistance to 
the Philippines in a number of different ways to facilitate the 
provision of medical care to World War II Filipino veterans.
    While we are grateful for the military service and the 
sacrifices these Filipino veterans made during World War II, VA 
does not support enactment of this bill because it would 
disproportionately favor Filipino veterans over U.S. veterans.
    In 2003, the average annual family income in the 
Philippines in U.S. dollars was approximately $2,864. In 
contrast, the maximum annual pension rate in 2006 for a veteran 
with no dependents was $10,928 per year. The annual rate for a 
veteran with one dependent was $14,313, and the annual rate for 
a surviving spouse with no dependents was $7,329.
    Thus, Filipino veterans and their survivors receiving full-
rate VA pensions while living in the Philippines would enjoy a 
much higher standard of living relative to the general 
population in the Philippines. At the same time, VA benefits 
paid to beneficiaries living in the United States, such as U.S. 
veterans, do not enable those beneficiaries to enjoy a standard 
of living higher than the general U.S. population.
    Assuming that the amendments that S. 57 would make would 
become effective on January 1, 2007, we estimate additional 
benefits cost, including medical benefits and memorial 
benefits, of approximately $510 million in the first year and 
more than $4 billion over 10 years. Administrative costs are 
estimated at around $8.8 million in the first year and $27 
million over 10 years. These estimates of administrative costs 
do not include the capital security cost sharing cost or 
administrative costs related to the provision of health care. 
Both the benefit and administrative costs include costs related 
to the three most financially significant benefits that would 
be afforded by this bill, which are disability compensation, 
pension, and DIC benefits. At this time, we do not have 
estimates that include costs related to any other benefits.
    This concludes my statement, Mr. Chairman, and I would be 
happy to entertain any questions from you or other Members of 
the Committee.
    [The prepared statement of Mr. Aument follows:]

    Prepared Statement of Ronald R. Aument, Deputy Under Secretary 
              for Benefits, Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on S. 57, a bill that would deem certain 
service in the organized military forces of the Government of the 
Commonwealth of the Philippines and the Philippine Scouts to have been 
active service for purposes of benefits under programs administered by 
the Department of Veterans Affairs (VA). VA does not support enactment 
of the bill.
    Regular, or ``Old,'' Philippine Scouts are currently eligible for 
VA benefits in the same manner as veterans of the U.S. Army. Therefore, 
the bill would not affect this group. However, S. 57 would extend full 
eligibility for VA benefits to veterans of the Philippine Commonwealth 
Army, including those with recognized guerrilla service, and to 
veterans of the New Philippine Scouts. In my testimony today, I refer 
only to the groups affected by the proposed bill as ``Filipino 
veterans'' and do not refer to Regular Philippine Scouts.
    Section 107 of title 38, United States Code, generally limits the 
VA benefits to which Filipino veterans and their survivors are eligible 
to certain contracts of National Service Life Insurance, disability 
compensation, dependency and indemnity compensation (DIC), and monetary 
burial benefits. Furthermore, unless those veterans or survivors live 
in the United States and are U.S. citizens or are lawfully admitted for 
permanent residence in the United States, those veterans or survivors 
receive their disability compensation or DIC at the rate of fifty cents 
per U.S. dollar, which is commonly referred to as payment at a ``half-
dollar rate.'' Payment of monetary burial benefits at more than the 
half-dollar rate requires, in addition to the legal residency 
requirement, that the veteran at the time of death be receiving 
disability compensation or be entitled to receive a disability pension 
but for the active-service requirement. Eligibility for burial in a 
national cemetery and for hospital and nursing home care and medical 
services is limited to Filipino veterans living here in the United 
States who are either U.S. citizens or lawful residents. Filipino 
veterans and their survivors are not eligible for any other VA benefit 
with the exception of education benefits available under chapter 35 of 
title 38 to certain children of these veterans.
    We do not support the bill because it would disproportionately 
favor Filipino veterans over U.S. veterans. Mr. Chairman, in 2003 the 
average annual family income in the Philippines in U.S. dollars was 
approximately $2,864. In contrast, in 2006 the maximum annual pension 
rate for a veteran with no dependent was $10,929 U.S. dollars per year; 
the annual rate for a veteran with one dependent was $14,313; and the 
annual rate for a surviving spouse with no dependent was $7,329. Thus, 
Filipino veterans and their survivors receiving full-rate VA pensions 
while living in the Philippines would enjoy a much higher standard of 
living relative to the general population in the Philippines. At the 
same time, VA benefits paid to beneficiaries living in the United 
States, such as U.S. veterans, do not enable those beneficiaries to 
enjoy a standard of living higher than the general U.S. population. In 
fact, even when paid at the half-dollar rate, Filipino veterans and 
their survivors are receiving relatively higher rates of disability 
compensation, DIC, and burial benefits compared to beneficiaries 
receiving the full-dollar rate in the United States.
    As a direct result of S. 57, VA would have to double the monthly 
payments currently provided to the more than 7,000 Filipino veterans 
and their survivors who now receive disability compensation or DIC at 
the half-dollar rate. In addition, we expect newly eligible veterans or 
their survivors to apply for pension benefits. Although precise numbers 
are not available, we have based our cost estimates on an estimate that 
more than 20,000 Filipino veterans reside outside the United States. We 
derived this figure by applying mortality rates for World War II 
veterans to an estimate of the Filipino veteran population that was 
calculated in 2000. The resulting 20,000 figure is in line with an 
estimate used by the Congressional Research Service in 2006. Since it 
is very difficult to develop a firm estimate for the size of this 
population, we believe that 20,000 figure is as reliable as we can 
establish at this date. Based on this figure, we estimate compensation, 
pension, and DIC costs in the first year will exceed $491 million. 
Enactment of S. 57 may also likely require VA to provide to Filipino 
veterans memorial benefits such as interment, perpetual care of 
gravesites, government-furnished headstones or markers, and 
Presidential Memorial Certificates.
    S. 57 also would significantly affect VA's health care system. 
Currently, the VA Outpatient Clinic in Manila, Philippines, provides a 
wide range of ambulatory care services for U.S. veterans living in the 
Philippines as well as Compensation-and-Pension examinations for both 
U.S. and Filipino veterans. The Clinic has an annual operating budget 
of approximately $6.3 million and, in Fiscal Year 2006, served 3,799 
U.S. veterans. Under S. 57, all Filipino veterans in the Philippines 
with VA-adjudicated service-connected disabilities would become 
eligible for VA health care in the Philippines. As of February 2007, 
the VA Manila Regional Office provided compensation for service-
connected disabilities to 3,441 Philippine Service veterans, of which 
2,726 resided in the Philippines. Based on the expected increase in the 
number of veterans eligible for care and an increase in the number of 
Compensation-and-Pension examination requests, we estimate an almost 
100 percent increase in overall operating costs in the Philippines if 
the bill is enacted. We estimate a total additional expense of over $5 
million in the first year. Moreover, this cost estimate does not fully 
account for the expected impact of S. 57. It is expected that the newly 
eligible Filipino veterans also would require a significant increase in 
the costs at the Manila Clinic for pharmacy, beneficiary travel, 
specialty exams, and fee 
basis costs.
    The bill would also impact VA's construction costs in the 
Philippines. Public Law 106-113 requires the Department of State 
(State) to locate diplomatic and other U.S. Government offices to 
secure embassy grounds when it builds a new or replaces an existing 
embassy. State is replacing its embassy in Manila. In December 2006, 
Secretary Nicholson approved a recommendation to relocate the Manila VA 
Outpatient Clinic from its current leased site to U.S. Embassy 
property. State is planning to co-locate the Manila regional office and 
the Outpatient Clinic on embassy property at its Seafront compound. The 
facilities will be built and funded through a State major construction 
appropriation, and the new VA facilities are planned to be completed in 
2010. VA will reimburse State for this project through Capital Security 
Cost-Sharing (CSCS) charges over a period of several years. VA's costs 
under that program are based on staffing levels. Any additional space 
and staffing required for this project due to the enactment of S. 57 
will significantly increase 
VA's costs.
    Additional health-care costs would have to be paid with existing 
health-care funds. Filipino veterans now residing outside the United 
States would be eligible for and could obtain health care in the United 
States by traveling to the United States to receive it. They would not, 
as now, have to reside in the United States and become U.S. citizens or 
permanent residents. We estimate that, if 10 percent of these newly 
eligible veterans (i.e., approximately 2,000 of the estimated 20,000 
population of veterans) obtain health care in the United States, it 
will cost over $13 million in the first year.
    We estimate additional benefit costs (including medical benefits 
and memorial benefits) of approximately $510 million in the first year 
and more than $4 billion over 10 years. Our cost estimate includes only 
expenses related to the three most significant monetary benefits, which 
are disability compensation, pension, and DIC, in our total estimate of 
benefit costs.
    Administrative costs are estimated at $8.8 million in the first 
year and $27 million over 10 years. These estimates of administrative 
costs do not include the CSCS costs or administrative costs related to 
the provision of health care, and, as with the benefit costs, include 
administrative costs related to disability compensation, pension, and 
DIC, and not costs related to the administration of other monetary 
benefits.
    This concludes my statement, Mr. Chairman. I would be happy to 
entertain any questions you or the other Members of the Committee may 
have.

    Chairman Akaka. Thank you very much, Mr. Aument.
    I want you to know that we are glad to have also 
accompanying you Dr. Wiebe and Mr. Thompson.
    Mr. Aument, for U.S. veterans residing in other countries, 
is there an adjustment made to reflect the average income in 
the country where the veteran is living?
    Mr. Aument. No, there is not, Mr. Chairman. I believe today 
we have around 46,000 veterans who reside abroa. Many reside in 
countries where the cost of living is less than the United 
States, and many reside in countries where the cost of living 
is greater than the United States. We have considered this in 
the past and did not really consider that to be analogous to 
the situation that we have with Filipino veterans because the 
Congress has recognized a specific distinction with respect to 
the Philippine veterans as it is embodied in law today. We had 
certainly taken that into account, but did not consider it to 
be an analogous situation.
    Chairman Akaka. Mr. Aument, would VA support establishing 
veterans' status for Filipino veterans in each group if there 
were provisions for an adjusted level of pension that takes 
into account where the veterans live?
    Mr. Aument. Mr. Chairman, today we were asked to appear 
before you to testify on S. 57 and we really have no other 
alternative legislative proposals to offer. Certainly, that 
would address one of the most significant hurdles and barriers 
to this bill but, at this point, I am not prepared to state 
what the Administration could support.
    Chairman Akaka. Mr. Aument, will you please explain the 
process that VA uses to evaluate claims for compensation made 
by Filipino veterans living in the Philippines?
    Mr. Aument. Certainly, Mr. Chairman. It does not look that 
different than the process involved in evaluating any veteran's 
claim for disability compensation today. One difference, 
though, is that, for new claimants, those claiming disability 
compensation for the first time, we have to establish that the 
veteran filing the application was not a collaborator with the 
Japanese occupying forces at that time. There is a list called 
the Collaborators' List that is maintained by the Yokohama Bank 
in Japan that we must initially inquire against to confirm that 
the applicant was not a collaborator during World War II.
    After that, the process follows the pathway that any 
disability compensation claim would follow, requiring proof of 
honorable service and that the medical conditions indeed are 
present that the veteran is claiming as disabilities.
    Chairman Akaka. There is concern about the possible impact 
on workload at the Manila Regional Office should Congress 
extend full veterans' benefits to all eligible Filipino 
veterans of World War II. What would be the impact on the 
workload at the Manila Regional Office?
    Mr. Aument. It would certainly be impacted. There would be 
a rather dramatic increase in claims filed. We could as much as 
double the workload there. On the one hand, though, the 
disability pension claims for these veterans would likely not 
be that difficult to process inasmuch as these veterans are 
already over age 65, so that would be a threshold that would be 
relatively easy to manage. But certainly there would be impact 
and we would have to be prepared to adjust staffing accordingly 
or assist them in some other fashion.
    Chairman Akaka. Mr. Aument, please describe the process for 
medical examinations in connection with claims for compensation 
in the Philippines. Have any problems arisen using local 
doctors for these examinations?
    Mr. Aument. First of all, most of the disability 
compensation and pension exams conducted today are conducted by 
the clinic in Manila that is under Dr. Wiebe's jurisdiction. 
What we do have occasional problems with, and quite frankly, it 
is not that rampant, are what they call claims fixers, would be 
individuals who have helped the veterans on occasion obtain 
falsified, fraudulent medical evidence. That is not a rampant 
problem, though, and I think in some cases it is overstated.
    Chairman Akaka. Senator Craig?
    Senator Craig. Thank you very much, Mr. Chairman.
    Ron, let me kind of take off from where the Chairman has 
gone with a couple of questions. If the Committee were to 
structure a pension benefit for veterans residing in the 
Philippines that had the same purchasing power that a pension 
recipient in the United States had, what would be the 
equivalent maximum monthly benefit? Have you done any 
calculations based on S. 57?
    Mr. Aument. Yes, we have, Senator Craig. It has not been a 
simple calculation because some of the economic statistics that 
we would be turning to are not as readily available to us. 
Having said that, if we take a look at what today's pension 
rate for an American veteran is with one dependent, we 
mentioned it was around $14,000 annually, and contrast that to 
the average household income for the most recent census 
statistics we had of around $46,000 annually, it is around 30 
percent of the average household income. If we were to compare 
that to the average household income in the Philippines of 
around $2,800, you are speaking around $820 annually.
    Senator Craig. OK. An $820 annualized pension, then?
    Mr. Aument. That is correct.
    Senator Craig. I see.
    Mr. Aument. That is strictly doing the math on that, 
Senator Craig.
    Senator Craig. Yes. How would the VA verify income in the 
Philippines if the Committee created a new means-tested 
benefit?
    Mr. Aument. We would employ at least some of the same 
procedures that we do today for veterans in the United States. 
We would require them annually to submit what we call the EVRs, 
the Eligibility Verification Review information, where they 
would be reporting any income that they had received during the 
preceding one-year period. I would presume that we would 
probably also take into account unusual medical expenses that 
they may incur.
    We would have to explore whether there were comparable 
opportunities with the Philippine Government to use some of the 
other mechanisms that we have available. For example, we do 
annual matching against Social Security and IRS information to 
help verify pension recipients' income in the United States. I 
don't know what would be available, if anything, for similar 
support purposes in the Philippines.
    We would have to look into that.
    Senator Craig. But these are calculations that you 
currently make given the circumstance of the eligible veteran 
anywhere, is that correct?
    Mr. Aument. That is correct, sir.
    Senator Craig. How would S. 57 affect eligibility for 
access to VA's Manila Outpatient Clinic? Would timely medical 
care for U.S. veterans at the outpatient clinic be affected if 
all 13,000 Filipino veterans in the Philippines were given 
access to that care?
    Mr. Aument. I would have to defer to my colleague, Dr. 
Wiebe.
    Senator Craig. Dr. Wiebe?
    Dr. Wiebe. Thank you, Senator Craig. If I could just pause 
for a moment and express my profound respect for the bravery 
and service of the Philippine soldiers and for their 
partnership with the U.S. military in the defense of freedom. I 
had the pleasure of traveling to the Philippines last month to 
conduct a site visit of our VA clinic in Manila and it 
reinforced and increased my admiration for the Philippines and 
its people.
    We estimate that if this legislation were to be enacted, 
approximately 2,700 Filipino veterans would now have access to 
the VA clinic in Manila, and that is based on the number of 
those that are currently service-connected and receiving VA 
support. Currently, the clinic sees approximately 3,700 
patients a year. The clinic is relatively small. It is about 
20,000 square feet and has a limited number of examination 
rooms. With the current workload, the VA clinic staff estimate 
they are at approximately 70 to 80 percent of capacity based on 
the size of the building.
    So if there were a relatively quick infusion of another 
2,700 patients to the clinic, we would have a difficult time 
absorbing that workload immediately and maintaining both the 
current access and current quality of care. We could look at 
options of increasing staff, extending hours into the evening, 
or going to weekends, but that would pose some other additional 
logistical and operational issues, including security.
    In a few years, as you may know, the VA is planning to 
replace its clinic and move to a much larger structure. At that 
time, some of the physical capacity constraints would be 
eliminated and then there would be some resource implications, 
and I could discuss those if you would like.
    Senator Craig. Thank you very much, Doctor, Ron.
    Thank you, Mr. Chairman. Thank you very much.
    Chairman Akaka. I want to welcome Senator Murray to the 
Committee this morning and I want to call on her for any 
statement and questions she may have.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Mr. Chairman. I wanted 
to come by today and especially thank you for holding this 
really important hearing on Filipino veterans. It has been just 
too long that America has not shown its full appreciation for 
these really honorable men and women who stood in harm's way 
with our American soldiers and fought our common enemy during a 
war many, many decades ago. As you so well have put it, they 
have been denied full benefits and care that American 
counterparts receive and I really hope that today's hearing 
will mark a turning point in our Nation's treatment of these 
heroes.
    I want to thank all of the Filipino veterans who are here 
testifying today. You are speaking out for so many people who 
can't be here and we truly appreciate it.
    Mr. Chairman, I especially want to thank a constituent of 
mine who is here, Benito Valdez. If you could just stand, 
Benito. He is here with his daughter. You will hear his 
testimony in just a few minutes. He has an amazing, compelling 
story and has been forgotten by America for too long. I hope 
that, we, in this Committee, can right that wrong and move 
forward this year to make sure that Mr. Valdez, as well as many 
other aging soldiers, get the benefits they deserve before it 
is too late.
    I am a cosponsor of the Filipino Veterans Equity Act and 
the Filipino Veterans Family Reunification Act. I believe that 
those bills will help reverse the inequity that we have seen 
for too long.
    Mr. Chairman, I have a defense appropriations hearing at 
the same time as we are having this, but I wanted to come by 
today to let you know that I want to work with you, Mr. 
Chairman, and whoever else to make sure that we right this 
wrong that for too long has been forgotten and ignored in this 
country, and I want to thank all of the Filipino veterans who 
were there by our side more than 50 years ago and who deserve 
now for us finally to be at your side.
    Thank you very much.
    [Applause.]
    Chairman Akaka. Thank you very much. Senator Murray, from 
the State of Washington, has been a stalwart Member of this 
Committee and has taken leadership here and also in 
appropriations for veterans. She is very important to us.
    Again, I want to thank you, Mr. Aument, for your testimony. 
As I said before, your full statement will be placed in the 
record. We look forward to continuing to work with you, and 
again, thank you for being here. I personally want to say aloha 
to Dr. Wiebe because we work together. We had a series of 
hearings in Hawaii that he attended and we really appreciated 
that, Dr. Wiebe. Thank you very much.
    Mr. Aument. Thank you, Mr. Chairman.
    Chairman Akaka. Now I would like to call on panel three. I 
want to welcome our third panel of witnesses.
    Mr. Sidath Panangala, representing the Congressional 
Research Service, is accompanied by Ms. Christine Scott, also 
of CRS. They have been asked to present a historical 
perspective on benefits for Filipino veterans. Also on the 
third panel are Ms. Maria Luisa Antonio, Executive Director of 
the Veterans Equity Center, and Ms. Jenah Yangwas from Student 
Action for Veterans Equity, the granddaughter of a Filipino 
World War II veteran.
    I want to thank all of you for being here today. Your full 
statement will be in the record and appear there in the record 
of this hearing. Thank you very much. You may begin.

   STATEMENT OF SIDATH VIRANGA PANANGALA, ANALYST IN SOCIAL 
              LEGISLATION, CONGRESSIONAL RESEARCH 
  SERVICE; ACCOMPANIED BY CHRISTINE SCOTT, SPECIALIST IN TAX 
           ECONOMICS, CONGRESSIONAL RESEARCH SERVICE

    Mr. Panangala. Thank you, Chairman Akaka. Before I
    begin, I want to introduce Christine Scott, who is here 
with me today. She and I both work together on veterans' 
benefits issues and we will be happy to answer any questions 
you may have at the end of this hearing. Having said that, let 
me begin my statement.
    Chairman Akaka and Members of the Committee, my name is 
Sidath Panangala. I am from the Congressional Research Service 
and am accompanied by Christine Scott, also from CRS. We are 
honored to appear before the Committee today.
    As requested by the Committee, my testimony will first 
provide a brief overview of the two Rescission Acts of 1946, 
followed by information from the record that sheds light on the 
intent of Congress in passing these Acts, and finally, other 
relevant information from that period to help place this 
legislation--the passage of this 1946 legislation--in context. 
In addition to my oral testimony, I would like to include the 
``Overview of Filipino Veterans' Benefits,'' this report, for 
the record, as well.
    Just to make it clear, CRS takes no position on the 
Rescission Acts or on the current legislative proposals to 
eliminate the distinction between various categories of World 
War II Philippine veterans.
    It appears that the 79th Congress, in passing the 
Rescission Acts, sought to strike a balance by providing 
certain benefits to veterans of the Commonwealth Army of the 
Philippines, recognized guerilla forces which later became a 
recognized part of the Commonwealth Army of the Philippines, 
and the New Philippine Scouts, but not the full benefits 
available to veterans of the U.S. Armed Forces. Those full 
benefits included education, unemployment compensation, medical 
care, domiciliary care, and other benefits provided by the laws 
administered by the then Veterans' Administration.
    Until the passage of these special provisions in the First 
Rescission Act, VA officials believed that these Filipino 
veterans met the definition of active service in the U.S. Armed 
Forces and were, therefore, eligible for full VA benefits. For 
example, on May 5, 1942, VA Director Frank T. Hines approved an 
opinion of the Solicitor of the VA holding that members of the 
Philippine Commonwealth Army were in active service of the land 
or naval forces of the United States within the meaning of the 
National Service Life Insurance Act of 1940.
    As the Committee is aware, the United States has had a long 
relationship with the Philippine Islands since they were 
acquired by the United States in 1898 as a result of the 
Spanish-American War. Filipinos have served in and with the 
U.S. Armed Forces during a number of conflicts, including World 
War II.
    In 1946, Congress passed the First Supplemental Surplus 
Appropriation Rescission Act and the Second Supplemental 
Surplus Appropriation Rescission Act, which became collectively 
and commonly known as the Rescission Acts of 1946.
    The First Supplemental Act, enacted on February 18, 1946, 
authorized a $200 million appropriation to the Commonwealth 
Army of the Philippines with a provision limiting benefits for 
these veterans to, one, the compensation for service-connected 
disability or death, and the National Service Life Insurance 
contracts already in force at the time. Furthermore, the Act 
included a provision currently codified at Title 38 of the 
United States Code that limited service in the organized forces 
of the Government of the Commonwealth of the Philippines that 
were not deemed to be active service in the military or naval 
or air service.
    This Act further provided that any benefit paid to the 
Commonwealth Army veterans would be paid at the rate of one 
Philippine peso to each dollar for a veteran who was a member 
of the U.S. Armed Forces. This was based on the assumption that 
one peso would obtain for Philippine veterans in the Philippine 
economy the equivalent of one dollar of goods and services for 
U.S. veterans in the American economy. Because of the 
differences between economic conditions and living standards in 
the United States and the Philippines, benefits were later 
limited to 50 cents on the dollar.
    The Second Rescission Act, enacted on May 27, 1946, 
provided that service in the Philippine Scouts, under Section 
14 of the Armed Forces Voluntary Recruitment Act of 1945, often 
referred to as the New Philippine Scouts, shall not have been 
deemed active service for the laws administered by the VA.
    CRS has examined the Congressional Record and certain 
hearing records from this period. There is little background 
information on the intent of Congress in passing the First 
Rescission Act, as it affects veterans of the Commonwealth 
Army. However, statements made by Senator Carl Hayden during 
the hearings on the Second Rescission Act, which affected the 
New Philippine Scouts, provide some indication on the 
legislative intent in passing both these Acts, and furthermore, 
the events at the time may be of interest to the Committee in 
understanding the context in which these laws were passed.
    Examining the hearing record leading up to the passage of 
the Rescission Act, it seems clear from Senator Hayden's 
statement that the passage of the first Rescission Act was 
meant to balance the competing financial interests by providing 
some benefits, such as pensions for service-connected 
disability or death, while at the same time limiting it to 
members of the Commonwealth Army that was not considered part 
of the active service.
    The Second Rescission Act clearly states that wartime 
benefits do not apply to the New Philippine Scouts, and to 
quote from these hearings, ``Because hostilities have actually 
ceased, the amendment makes it perfectly clear that these 
wartime benefits do not apply and the 50,000 men now authorized 
to be enlisted in the New Philippine Scouts will be only 
entitled to pensions resulting from service- connected 
disability or death.''
    In addition, the passage of the Rescission Acts may have 
been influenced by other bills under consideration of Congress 
at the time. In 1946, Congress passed the Philippine 
Rehabilitation Act and the Philippine Trade Act. The terms of 
the Rehabilitation Act required the United States to pay claims 
for rehabilitation of the Philippines and war damage claims up 
to $620 million. The Philippine Trade Act provided for free 
trade between the United States and the Philippines until July 
1954. These bills under consideration at that time would have 
provided economic stability to the newly emerging nation.
    According to Senator Hayden from the hearing record, I 
would like to quote. ``As I see it, the best thing the American 
Government can do is to help the Filipino people help 
themselves. Where there was a choice between expenditures for 
the rehabilitation of the economy of the Philippine Islands and 
payments in cash to Filipino veterans, I am sure it is better 
to spend an equal amount of money, for example, on improving 
the roads and port facilities. What the Filipino veteran needs 
is steady employment rather than to depend for his living upon 
a monthly payment sent from the United States.''
    Therefore, it seems clear that Congress considered the 
Rescission Acts in the context of providing for the 
comprehensive economic development of the soon-to-be-sovereign 
Republic of the Philippines.
    In closing, the Rescission Acts of 1946 limited veterans' 
benefits to certain Filipino veterans while providing some 
benefits, such as pensions for service-connected disability or 
death. At the same time, Congress passed other legislation to 
provide for the economic well-being of the newly emerging 
nation.
    This concludes my statement, Mr. Chairman. We will be happy 
to take any questions you may have. Thank you.
    [The prepared statement of Mr. Panangala follows:]

            Prepared Statement of Sidath Viranga Panangala, 
      Analyst, Social Legislation, Congressional Research Service

                              INTRODUCTION

    Chairman Akaka, Ranking Member Senator Craig, and Members of the 
Committee, my name is Sidath Panangala from the Congressional Research 
Service (CRS). I am accompanied by Christine Scott, also from CRS. We 
are honored to appear before the Committee today. As requested by the 
Committee, my testimony will first provide a brief overview of the two 
Rescission Acts of 1946, followed by information from the record that 
sheds light on the intent of Congress in passing these Acts, and, 
finally, other relevant information from that period, to help place the 
passage of this 1946 legislation in context. In addition to my oral 
testimony, I have included the CRS Report RL33876, Overview of Filipino 
Veterans' Benefits, for the record. CRS takes no position on the 
Rescission Acts or on current legislative proposals to eliminate the 
distinction between various categories of World War II Filipino 
veterans.
    It appears that the 79th Congress, in passing the Rescission Acts, 
sought to strike a balance, by providing certain benefits to veterans 
of the Commonwealth Army of the Philippines, Recognized Guerrilla 
Forces (that later became a recognized part of the Commonwealth Army of 
the Philippines), and the New Philippine Scouts, but not the full 
benefits available to veterans of the U.S. Armed Forces. Those full 
benefits included education, unemployment compensation, medical care, 
domiciliary care, and other benefits provided by the laws administered 
by the then Veterans' Administration (VA). Until the passage of these 
special provisions in the first and second Rescission Acts, VA 
officials believed that these Filipino veterans met the definition of 
active service in the U.S. Armed Forces and were therefore eligible for 
full VA benefits. For example, on May 5, 1942, the VA Director Frank T. 
Hines, approved an opinion of the Solicitor of the VA holding that 
members of the Philippine Commonwealth Army were in ``active service'' 
of the land or naval forces of the United States within the meaning of 
the National Service Life Insurance Act of 1940 
(P.L. 76-801).

                        RESCISSION ACTS OF 1946

    As the Committee is aware, the United States has had a long 
relationship with the Philippines Islands since they were acquired by 
the United States in 1898 as a result of the Spanish-American War. 
Filipinos have served in, and with, the U.S. Armed Forces during a 
number of conflicts, including World War II. In 1946, Congress passed 
the first Supplemental Surplus Appropriation Rescission Act 
(P.L 79-301) and the second Supplemental Surplus Appropriation 
Rescission Act (P.L. 79-391), which came to be collectively and 
commonly known as the ``Rescission Acts of 1946.''
    The first Supplemental Rescission Act, enacted on February 18, 
1946, authorized a $200 million appropriation to the Commonwealth Army 
of the Philippines with a provision limiting benefits for these 
veterans to (1) compensation for service-connected disabilities or 
death, and (2) National Service Life Insurance contracts already in 
force. Furthermore, the Act included a provision currently codified at 
38 U.S.C. Sec. 107(a) stating that (and I quote):

        Service before July 1, 1946, in the organized military forces 
        of the government of the Commonwealth of the Philippines, while 
        such forces were in the service of the Armed Forces of the 
        United States pursuant to the military order of the President, 
        dated July 26, 1941 . . . shall not be deemed to have been 
        active military, naval, or air service for the purposes of any 
        law of the United States conferring rights, privileges, or 
        benefits upon any person by reason of the service of such 
        person or the service of any other person in the Armed Forces . 
        . .

    This Act further provided that any benefits paid to Commonwealth 
Army veterans would be paid at the rate of 1 Philippine peso to each 
dollar for a veteran who was a member of the U.S. Armed Forces. This 
was based on the assumption that one peso would obtain for Philippine 
veterans in the Philippine economy the equivalent of $1 of goods and 
services for U.S. veterans in the American economy. Because of 
differences between economic conditions and living standards in the 
United States and the Philippines, benefits were later limited to 50 
cents on the dollar.
    The second Rescission Act, enacted on May 27, 1946, provided that 
service in the Philippine Scouts under Section 14 of the Armed Forces 
Voluntary Recruitment Act of 1945 (P.L. 79-190) (often referred to as 
New Philippine Scouts) shall not be deemed to have been active military 
or air service for the purpose of any laws administered by the VA.

                     LEGISLATIVE INTENT AND CONTEXT

    CRS has examined the Congressional Record and certain hearing 
records from this period (1946). There is little background information 
on the intent of Congress in passing the first Rescission Act, as it 
affects veterans of the Commonwealth Army. However, statements made by 
Senator Carl Hayden during hearings on the second Rescission Act, which 
affected New Philippine Scouts, provides some indication of the 
legislative intent in passing both Rescission Acts. Furthermore, other 
events at the time may be of interest to the Committee, in 
understanding the context in which the Rescission Acts were considered.
    Examining the hearing record leading up to the passage of the 
second Rescission Act, it seems clear from Senator Hayden's statements 
that the passage of the first Rescission Act was meant to balance 
competing financial interests by providing some benefits, such as 
pensions for service-connected disability or death, and also an 
appropriation of $200 million for the Commonwealth Army of the 
Philippines. However, to reduce the U.S. liability for future benefits, 
language was included stating that service by members of the 
Commonwealth Army was not considered active military, naval or air 
service in the U.S. Armed Forces.
    The hearings (on the second Rescission Act) also clearly indicate 
that most wartime benefits do not apply to New Philippine Scouts. To 
quote from these hearings:

         . . . Because hostilities have actually ceased, the amendment 
        makes it perfectly clear that these wartime benefits do not 
        apply and the 50,000 men now authorized to be enlisted in the 
        [New] Philippine Scouts will be entitled only to pensions 
        resulting from service-connected disability or service-
        connected death.

    In addition, the passage of the Rescission Acts may have been 
influenced by other bills under consideration by Congress at that time. 
In 1946, Congress passed the Philippine Rehabilitation Act (P.L. 79-
370) and the Philippine Trade Act (P.L. 79-371). The terms of the 
Rehabilitation Act required the United States to pay claims for 
rehabilitation of the Philippines and war damage claims up to $620 
million. Of this sum, $220 million was allocated for repair of public 
property. The remaining $400 million was allocated for war damage 
claims of individuals and associations. The Philippine Trade Act 
provided for free trade between the United States and the Philippines 
until July 3, 1954. These bills under consideration at the time would 
have provided economic stability to the newly emerging nation. 
According to Senator Hayden in the hearing record, (and I quote):

        As I see it, the best thing the American government can do is 
        to help the Filipino people to help themselves. Where there was 
        a choice between expenditures for the rehabilitation of the 
        economy of the Philippine Islands and payments in cash to 
        Filipino veterans, I am sure it is better to spend any equal 
        sum of money, for example, on improving the roads and port 
        facilities. What the Filipino veteran needs is steady 
        employment rather than to depend for his living upon a monthly 
        payment sent from the United States.

    Therefore, it seems clear that Congress considered the Rescission 
Acts in the context of providing for the comprehensive economic 
development of the soon to be sovereign Republic of the Philippines.
    In closing, the Rescission Acts of 1946 limited veterans' benefits 
to certain Filipino veterans, while providing some benefits such as 
pensions for a service-connected disability or death to veterans of the 
Commonwealth Army and New Philippine Scouts. At the same time Congress 
passed other legislation to provide for the economic well being of the 
newly emerging nation.
    This concludes my statement, Mr. Chairman. We would be happy to 
answer any questions you may have.
                                 ______
                                 
    [The CRS Report for Congress on the Overview of Filipino Veterans' 
Benefits follows:]

[GRAPHIC] [TIFF OMITTED] T5645.001

[GRAPHIC] [TIFF OMITTED] T5645.002

[GRAPHIC] [TIFF OMITTED] T5645.003

[GRAPHIC] [TIFF OMITTED] T5645.004

[GRAPHIC] [TIFF OMITTED] T5645.005

[GRAPHIC] [TIFF OMITTED] T5645.006

[GRAPHIC] [TIFF OMITTED] T5645.007

[GRAPHIC] [TIFF OMITTED] T5645.008

[GRAPHIC] [TIFF OMITTED] T5645.009

[GRAPHIC] [TIFF OMITTED] T5645.010

[GRAPHIC] [TIFF OMITTED] T5645.011

[GRAPHIC] [TIFF OMITTED] T5645.012

[GRAPHIC] [TIFF OMITTED] T5645.013

[GRAPHIC] [TIFF OMITTED] T5645.014

    Chairman Akaka. Thank you very much.
    And now, Ms. Maria Luisa Antonio, Executive Director of the 
Veterans Equity Center.

               STATEMENT OF MARIA LUISA ANTONIO, 
           EXECUTIVE DIRECTOR, VETERANS EQUITY CENTER

    Ms. Antonio. Chairman Akaka and distinguished Members of 
the Committee, good morning. Thank you for giving me the 
opportunity to speak before you on the Filipino veterans issue. 
My name is Luisa Antonio. I am the Executive Director of the 
San Francisco Veterans Equity Center, a 7-year-old agency in 
San Francisco providing direct services to Filipino World War 
II veterans and their families.
    I am also speaking on behalf of the National Network for 
Veterans Equity, a coalition of different organizations 
advocating justice and equity for Filipino veterans. For the 
last 7 years, both NNVE and VEC have been advocating for the 
passage of the Filipino Veterans Equity Act.
    Mr. Chairman, I have both the honor and the pleasure of 
serving the Filipino World War II veterans in my capacity as 
the staff of the Filipino Veterans Equity Center. These war 
heroes' stories have contributed to my knowledge beyond history 
books and documentaries. I am grateful to those who can bear to 
remember the bitter and painful memories of the tragedies of 
war and the sacrifices made under the United States flag to 
preserve freedom and democracy. Indeed, their stories have 
driven me to commit myself to serve our war heroes, the 
Filipino World War II veterans.
    But I am also saddened by the fact that these heroes in 
their advanced age are forced to fight for the right to be 
recognized for the services they have rendered to this country. 
The face of struggle to pass the equity bill is in each and 
every veteran we serve at the Center. Every time a veteran 
receives a denial for his claim with the Department of Veterans 
Affairs, every time a staff hands a loaf of bread to a hungry 
veteran, and every time I console a widow who does not have 
enough money to bury her husband, I tend to wonder how the 
United States can forget the sacrifices made for this country 
and how this country can turn her back on its legal and moral 
obligation to those who made these sacrifices. I also ask 
myself how the Filipino veterans remain loyal to this country 
after all these years of injustice.
    Yes, Mr. Chairman, these veterans remain loyal to the 
United States. Their belief in the democratic process speaks of 
their commitment to fight and gives them hope that the same 
process can grant them the justice they deserve, the 
recognition for their 
services.
    A number of legislations have been passed since 1999 giving 
certain Filipino veterans certain benefits, such as the special 
veterans benefits also known as the SSI extension law, access 
to the VA Health Care System, and burial in national 
cemeteries. However, Filipino veterans are still not classified 
as U.S. veterans, making them ineligible to receive pension 
from the Department of Veterans Affairs. Consequently, these 
veterans are dependent on Supplemental Security Income, soup 
kitchens, and service agencies such as the Veterans Equity 
Center for support services.
    Based on a Department of Veterans Affairs study in January 
2001, the estimated total number of Filipino World War II 
veterans in the United States is 13,849, of which 50 percent 
live in California. Today, the estimated number of Filipino 
veterans drastically dropped to about 7,000 in the United 
States and 13,000 in the Philippines. That is the projected 
number of veterans in 2010, and we are in 2007.
    With very few Filipino veterans remaining, our community 
stands at the shoulders of our heroes and renewed our 
commitment to fight with them. We, the younger generation, have 
become soldiers with a mission and we will not stop until full 
equity is achieved.
    Honorable Members of the Committee, this is your only 
opportunity to impact the lives of the remaining veterans.
    Now is the time to act. Now is the time to put an end to 
this injustice. And now is the time to pass the Filipino 
Veterans Equity Act. Thank you.
    [Applause.]
    [The prepared statement of Ms. Antonio follows:]

            Statement of Luisa Antonio, Executive Director, 
                  San Francisco Veterans Equity Center

    Chairman Akaka, and distinguished Members of the Committee, good 
morning. Thank you for giving me the opportunity to speak before you on 
the Filipino World War II Veterans issue. My name is Luisa Antonio. I 
am the Executive Director of the San Francisco Veterans Equity Center--
a 7-year-old agency in San Francisco providing direct services to 
Filipino World War II veterans and their families. I am also speaking 
on behalf of the National Network for Veterans Equity--a coalition of 
different organizations advocating justice and equity for the Filipino 
Veterans. For the last 7 years NNVE has been advocating for the passage 
of the Filipino Veterans Equity Act.
    Ladies and gentlemen of the Committee, I have both the honor and 
the pleasure of serving the Filipino World War II Veterans in my 
capacity as a staff of the San Francisco Veterans Equity Center. These 
war heroes' stories contributed to my knowledge beyond what history 
books and documentaries have offered. And I am grateful to those who 
can bear to remember the bitter and painful memories of the atrocities 
of war and the sacrifices made under the United States Flag to preserve 
freedom and democracy. Indeed their stories have driven me to commit 
myself to serve our war heroes--the Filipino World War II veterans. But 
I am also saddened by the fact that these heroes, in their advanced 
age, are still forced to fight for their right to be recognized for the 
services they have rendered to this country.
    The face of the struggle to pass the equity bill is in each and 
every veteran we serve at the Center. Every single time a veteran 
receives a denial for his claim with the Department of Veterans 
Affairs, every single time a staff has to hand a loaf of bread to a 
hungry veteran, every time I hold a hand of a widow who does not have 
enough money to bury her husband, I tend to wonder how the United 
States can forget the sacrifices made for this country and how this 
country can turn her back on its legal and moral obligation to those 
who made those sacrifices. I also ask myself how the Filipino veterans 
remain loyal to this country after all these years of injustice. Yes, 
ladies and gentlemen of the Committee, these veterans remain loyal to 
the United States. Their belief in the democratic process speaks of 
their commitment to fight and gives them hope that the same process can 
grant them the justice they deserve--the recognition for their 
services.
    A number of legislations have been passed since 1999 giving 
Filipino Veterans certain benefits such as Special Veterans Benefits 
(a.k.a. SSI Extension law), access to the VA healthcare system, and 
burial in national cemeteries. However, Filipino Veterans are still not 
classified as U.S. Veterans making them ineligible to receive pension 
from the Department of Veterans Affairs. Consequently, these veterans 
are dependent on Supplemental Security Income (SSI), soup kitchens and 
service agencies such as the Veterans Equity Center for support 
services.
    Based on the Department of Veterans Affairs Study in January 2001, 
the estimated total number of Filipino World War II Veterans in the 
United States is 13,849 of which 50 percent live in California. Today 
the estimated number of Filipino Veterans drastically dropped to about 
7,000 in the United States and about 13,000 in the Philippines--the 
projected number of veterans in 2010. With very few Filipino Veterans 
remaining, our community stand on the shoulders of our heroes and we 
have made a renewed commitment to fight with them. We, the younger 
generation, have become soldiers with a mission. And we will not stop 
until full equity is achieved. Honorable Committee Members, now is your 
only opportunity to impact the lives of the remaining veterans. Now is 
the time to act, now is the time to put an end to this injustice, now 
is the time to pass the Filipino Veterans Equity Act.

    Chairman Akaka. Thank you very much, Ms. Maria Luisa 
Antonio.
    Now we will hear from Ms. Jenah Yangwas, who is the 
granddaughter of a World War II veteran, representing Student 
Action for Veterans Equity. Jenah?

   STATEMENT OF JENAH MARI PALOY YANGWAS, STUDENT ACTION FOR 
                        VETERANS EQUITY

    Ms. Yangwas. Thank you. Good morning, Chairman Akaka and 
distinguished Members of the Committee. My name is Jenah Marie 
Paloy Yangwas and I am here on behalf of S.A.V.E., Student 
Action for Veterans Equity, which has worked tirelessly on the 
Full Equity campaign. I am truly honored to be here today as I 
represent the youth and my generation's voice on this issue.
    The Brown Ribbon Campaign was started by SAVE in 2001 by a 
nationwide student-led and organized coalition made of students 
and youth advocates to signify the importance of equity for the 
heroes that have fought for us.
    My family's roots and loyalty to the American flag is 
undeniable. My father, still living, served under the U.S. Navy 
for 20 years. I am a granddaughter and niece of Filipino World 
War II veterans. My paternal grandfather, Santiago Yangwas, 
served as a captain for the U.S. Armed Forces in the Far East. 
My uncle, Benjamin Carrido, served as a guerilla. And my 
maternal grandfather, Dionisio Paloy, was a Bataan Death March 
survivor. Although all of them are now passed, I recognize the 
incredible strength of our heroes. Our fight here today was 
their fight yesterday.
    Before war had started in the Pacific, my grandfather 
Dionisio Paloy was employed as a mechanic in Baguio City. 
Shortly thereafter, he was called to duty and became a driver 
at the local American military base, Camp John Hay. His job was 
to transport ammunition from Baguio to Bataan.
    During the Fall of Bataan, he was caught and he became a 
prisoner of war. He was placed in a concentration camp, where 
he was enslaved, forced to work in the fields to care for 
carabao with little or no food. He and nine of his comrades 
were able to escape. It took them months to get back home to 
Baguio City, as the terrain was mountainous and steep. Only 
four of the ten men reached Baguio. They were all mere 
skeletons and bones. My grandfather was the only man to survive 
the escape, as the others perished from hunger and thirst 
shortly thereafter.
    We each hold a story, a story of struggle, a story of our 
soldiers witnessing the brutalities of war. Many of us come 
from points in history where our elders tell us about the great 
sacrifices and undoubted courage they have made in order for us 
all to be here today. We are here to attest to the heroic 
strength and sacrifices our soldiers have made.
    My grandfather's story is not isolated. He, like many 
others, had witnessed his countrymen fight bravely alongside 
American soldiers. He witnessed countless others die brutally 
in war. He joined forces with the United States to defend the 
homeland he loved. The sacrifices that our heroes have made are 
undeniable. As a community worker in San Francisco, I have been 
there to witness my heroes die at an alarmingly fast rate. I 
have been there to coordinate memorial services, to comfort the 
wives with their loss. We cannot wait any longer.
    I am so proud to see my generation believe in this fight. 
Equity is so very important. Passage of the 1946 Rescission Act 
stripped away full veterans' benefits for Filipinos who were 
entitled. This stripped away the dignity of all the men and 
women that have fought under U.S. command. We are here to say 
that our soldiers will never be alone in this battle.
    Passage of S. 57, the Filipino Veterans Equity Act of 2007, 
is important to us all and it has been long overdue. Sixty-one 
years is 61 years too late. Our heroes deserve full equity now. 
The courage, perseverance, and sacrifices made by these brave 
men and women who took it upon themselves to defend the islands 
against violent occupation are truly remarkable.
    Lastly, we are here to stand up for them for what is right 
and for what is just. We are here to demand justice and full 
equity. We are proud of our soldiers, our history, our fight. 
Our heroes will truly never be forgotten. Thank you.
    [Applause.]
    [The prepared statement of Ms. Yangwas follows:]

     Prepared Statement of Jenah Mari Paloy Yangwas, SAVE Member, 
              and Granddaughter of a Filipino WWII Veteran

    I am here on behalf of S.A.V.E., Student Action for Veterans 
Equity, which has worked tirelessly on the Full Equity campaign.
    Today marks the 65th anniversary of the Fall of Bataan. During this 
time, the Philippine Islands was also U.S. soil. Tens of thousands of 
American and Filipino soldiers were captured by Japanese forces and 
were forced to endure the Bataan Death March. Those captured were 
confined in concentration camps and pressed into forced labor. 
Thousands died along the way, while some were killed brutally. For 
months prior, these soldier who saw no difference if they were Filipino 
soldiers, American soldiers were heroically able to hold off the 
Imperial forces but on April 9, 1942, they were all forced to 
surrender.
    My family's roots and loyalty to the American flag is undeniable. 
My father, still living, served under the U.S. Navy for twenty years. I 
am a granddaughter and niece of Filipino WWII Veterans. My paternal 
grandfather, Santiago Yangwas served as a Captain for the U.S. Army, my 
uncle Benjamin Carrido served as a guerilla, and my maternal 
grandfather, Dionisio Paloy was a Bataan Death March survivor. Although 
all of them are now passed, I recognize the incredible strength of our 
heroes. Our fight here today was their fight yesterday!
    Before war had started in the Pacific, my grandfather, Dionisio 
Paloy, was employed as a mechanic in Baguio City. Shortly thereafter, 
he was called to duty and became a driver at the local American 
military base, Camp John Hay. His job was to transport ammunition from 
Baguio to Bataan.
    During the Fall of Bataan, he was caught and he became a prisoner 
of war (POW). He was placed in a concentration camp where he was 
enslaved, forced to work in the fields to care for the carabao (water 
buffalo) with little or no food. He and nine of his comrades were able 
to escape. It took them months to get back home to Baguio City, as the 
terrain was mountainous and steep. Only four of the ten men reached 
Baguio. They were all mere skeletons and bones.
    My grandfather was the only man to survive the escape as the others 
perished from hunger and thirst shortly thereafter.
    We each hold a story, a story of struggle, a story of our soldiers 
witnessing the brutalities of war. Many of us come from points in 
history where our elders tell us of the great sacrifices and undoubted 
courage they have made in order for us all to be here today. We are 
here to ``Remember Bataan,'' to attest to the heroic strength and 
sacrifices our soldiers have made.
    My grandfather's story is not isolated. He, like many others, had 
witnessed his countrymen fight bravely alongside American soldiers. He 
witnessed countless others die brutally in war. He joined forces with 
the U.S. to defend the homeland he loved.
    On this day, we are here to remember the sacrifices that OUR heroes 
have made! As a community worker in San Francisco, I have been there to 
witness my heroes die at an alarmingly fast rate. I have been there to 
coordinate memorial services and to comfort their wives with their 
loss. We cannot wait any longer!
    I am so proud to see my generation believe in this fight. EQUITY is 
so very important. Passage of the 1946 Rescission Act stripped away 
``full veteran's benefits'' for Filipinos who were entitled. This 
stripped away the dignity of all the men and women that fought under 
U.S. command. We are here to say that our soldiers will never be alone 
in this battle. Passage of H.R. 760 and S. 57 is important to us all 
and it's been long overdue. Sixty-one years is 61 years too late! Our 
heroes deserve FULL EQUITY now!
    The courage, perseverance and sacrifice made by these brave men and 
women who took it upon themselves to defend the islands against violent 
occupation are truly remarkable. We are here to standup for them, for 
what is right and just. We are here to demand justice and full equity! 
We are proud of them--our history, our fight, our heroes will TRULY 
never be forgotten!

    Chairman Akaka. Thank you very much, Ms. Yangwas.
    I want to thank all of you for your historical perspective 
on benefits of Filipino veterans, and now I have some questions 
for you.
    Mr. Panangala, from your review of the relevant history, is 
it your understanding that the Filipinos who fought alongside 
the United States military in the Philippines were under the 
authority of the Government of the United States?
    Mr. Panangala. The Presidential directive that was issued 
by President Roosevelt at that time was to give General Douglas 
MacArthur, who was the commanding general, authority over the 
forces in the Pacific. As part of that executive order, the 
Filipino nationals, as well, were incorporated into fighting 
alongside the U.S. forces.
    Now, there is a distinction between the different groups 
that we need to understand here. The old Philippine Scouts were 
there before the United States had started the process of 
getting them independence. Then by the time they were in the 
Second World War, we were also in the process of giving them 
independence because the Philippine Independence Act had 
passed. So at that time, we got caught in the middle where we 
had to--where everyone came to fight alongside the U.S. under 
General Douglas MacArthur, so therefore, there was authority. 
He went by the President to bring the forces together.
    But then eventually when we had to decide upon how would we 
draw the line between the benefits, then we distinguished 
between the Old Scouts, the Commonwealth Army of the 
Philippines, who were generally recruited at the time of the 
process of independence, and the New Philippine Scouts, who 
knew exactly when they were coming on board that they would be 
eventually returning back into the Sovereign Republic of the 
Philippines.
    Chairman Akaka. It seems that there was a time when 
Filipinos felt that they were being regarded as U.S. veterans. 
Based on your review, Mr. Panangala, of the history relating to 
those Filipinos who served with the U.S. forces during World 
War II, do you believe that these individuals were given an 
indication that they would be regarded as veterans of the U.S. 
military upon the completion of their service?
    Mr. Panangala. There was--in the record, there was a study 
done by the Judge Advocate General in 1973 that had looked at 
the history of this. In some instances, there were messages 
transmitted by General Douglas MacArthur saying that there were 
certain benefits that they would be regarded as veterans of the 
U.S. Armed Forces.
    But at the same time, there was confusion, I think, when 
the Committee discussed this legislation in 1946. They wanted 
to find out what was the current legal status of these veterans 
and that is when the VA, when Senator Hayden turned to the VA 
and asked the question and the VA's understanding was that 
these veterans would be considered U.S. veterans. But the 
Senate wanted to make it absolutely clear because of the 
confusion prevailing at that time that we would start somewhere 
and clear the slate, and I think that was one of the 
indications, at least from looking at the record, that 
legislative intent was to start somewhere, and that somewhere 
was to include and say, OK, we will give you these benefits but 
then we are going to deem you not active service because we 
would be making the commitment to long-term obligations of the 
U.S. Government on behalf of the Philippine veterans, 
especially for those new veterans who would be recruited at 
that time.
    Chairman Akaka. In 1946, there was the Rescission Act that 
was passed by Congress that changed the status of Filipino 
World War II veterans. Again, based on your understanding of 
what happened in 1946, is it accurate to say that the 
Rescission Acts of 1946 changed the existing relationship 
between some Filipino veterans and the U.S. Government so as to 
remove their status as U.S. veterans?
    Mr. Panangala. From the Congressional Record, or from the 
Congressional hearings at that time, there doesn't seem to be 
any indication of that. That would be something that we would 
have to defer to the DOD or the VA to make that distinction, if 
that was the case.
    Chairman Akaka. Ms. Antonio, how would the lives of the 
Filipino veterans you work with be affected by receiving a VA 
non-service-connected pension and other VA benefits?
    Ms. Antonio. Well, two things, Mr. Chairman. One, it would 
restore their pride. They are very patriotic. They are very 
proud of fighting under the United States flag. So that will 
restore that.
    The second one is more on getting them, if they were 
declassified as veterans, they will be declassified as welfare 
recipients, because right now, the United States is not 
providing anything because they are heroes. They are providing 
some kind of welfare because they are over 65, they are U.S. 
citizens, and they are indigents. So they will be removed from 
that classification.
    And third, the pension. It will give them an option, 
because right now because of the restrictive rules of SSI, they 
can only live here in the United States and a lot of them are 
separated from their families, making it very difficult for 
them, not having support 
services.
    So those are the three things that come to mind when it 
comes to the impact of having non-service-connected disability 
pension.
    Chairman Akaka. Thank you.
    Ms. Yangwas, as a community worker who serves the Filipino 
community and as the relative of one of the veterans who fought 
for the cause of freedom in World War II, please describe your 
understanding of the impact of the Rescission Acts on the 
Filipino community.
    Ms. Yangwas. Visibly, how can you fully address the impact 
of 61 years of lost time? Time has made veterans socially 
dependent on social services, for instance, the soup kitchens 
for nutritional meals, difficulties accessing housing, where 
many I have worked with lived in the most roughest 
neighborhoods in San Francisco. The Rescission Act granted no 
access to veterans' housing benefits. When veterans became 
sick, they were turned away from the VA.
    If the Rescission Act was never passed, veterans granted 
equity over 60 years ago, I would see my heroes not dependent 
on SSI to survive. Veterans would have been an active member of 
the working force.
    Lastly, how can I really capture the impact of being a non-
recognized veteran? For so many, the hardest part for us all is 
seeing so many veterans pass away, including my own family 
members, without equity. As each veteran passes, dignity can 
never be restored. We need to pass full equity now for all 
those who have fought for this country.
    Chairman Akaka. Well, I thank you very much and I want to 
thank this panel for your historical perspective of the 
Filipino veterans. Thank you so much for coming before this 
Committee with your testimony. Thank you.
    [Applause.]
    Chairman Akaka. Now, I would like to call on panel four.
    These panelists are all World War II veterans. Welcome to 
this Committee.
    [Applause.]
    Chairman Akaka. Mr. Manuel Braga, Commander, Filipino World 
War II Veterans Federation of San Diego County. Also, Mr. 
Artemio Caleda, President, World War II Filipino-American 
Veterans and Auxiliary of Hawaii. Welcome and aloha to you, Mr. 
Caleda. Mr. Avelino Asuncion, who is presenting testimony on 
behalf of Mr. Patrick Ganio, who is President of the American 
Coalition for Filipino veterans, and Benito Valdez, from the 
Filipino Community of Seattle. In addition, Lieutenant Colonel 
Edwin Ramsey, U.S. Army, Retired, will be testifying by video.
    I want to welcome all of you veterans to this hearing. I 
want to thank all of you for being here today. I want you to 
know that your full statement will appear in the record of the 
hearing and I would like to ask you to give your testimony in 
the order that I called you to the table. The first one will be 
Mr. Manuel Braga.

STATEMENT OF MANUEL B. BRAGA, COMMANDER, FILIPINO WORLD WAR II 
             VETERANS FEDERATION, SAN DIEGO COUNTY

    Mr. Braga. Good morning, Mr. Chairman and Members of the 
Committee. My name is Manuel B. Braga, former Staff Sergeant, 
Philippine Scouts, Army of the United States. I am currently 
the Commander of the Filipino World War II Veterans, Federation 
of San Diego County.
    In 1942, during the defense of the Philippines against the 
Japanese in the Battles of Bataan and Corregidor, President 
Franklin D. Roosevelt promised the Filipinos who were inducted 
into the United States Armed Forces in the Far East, or USAFFE, 
on July 26, 1941, that their loyalty to the United States shall 
be amply rewarded.
    We fought side-by-side with the American brothers-in-arms 
and remained loyal to America even after the defense of the 
islands was abandoned by the Joint Chiefs in favor of primarily 
defeating the Axis powers in Europe. Left to withstand the 
relentless and brutal onslaught of a far superior enemy, both 
in numbers and war materiel, Bataan finally surrendered, 
followed shortly by Corregidor. The sick and starved Filipino 
and American soldiers, not being made of impervious steel, 
reluctantly laid down their arms and sadly went into captivity.
    But even after going through the humiliation of defeat and 
surviving the hell that was the Death March and countless 
atrocities in Japanese concentration camps, we continued to 
resist the enemy. As guerrillas, some led by U.S. officers who 
refused to surrender, we relentlessly harassed the Japanese 
Imperial Army unmindful of the indescribable hardship of trying 
to survive in the jungles and mountains with not only the 
Japanese as enemies, but natural dangers, diseases, and 
starvation, as well. We fought on until General Douglas 
MacArthur made good on his promise to return in 1945.
    While in the thick of the fight against the forces of 
Japan, buying precious time for the U.S. to strike a 
counterblow, a very appreciative Congress enacted in 1944 what 
is now known as the GI Bill of Rights, thus paving the way for 
Roosevelt to fulfill his promise to us Filipinos of a just 
reward for our sacrifices. The Filipino soldiers, like all non-
Americans who were serving in the U.S. Armed Forces, were 
entitled under the GI Bill to full veterans' benefits and 
include naturalization as U.S. citizens.
    Victory finally came in September 1945. The guns fell 
silent. It was time to go home. We who survived shed our 
uniforms and turned in our arms and most of us went back to 
civilian life. But before the official end of that great 
conflict, some 50,000 Filipinos were recruited by the U.S. Army 
and were inducted into the Philippine Scouts. The Old Scouts 
organized in 1901, who made a name for themselves in Bataan, 
were integrated into the regular U.S. Army, and the New Scouts 
were used as occupation troops in Japan, its territories, and 
possessions which came under U.S. control.
    But suddenly, an ungrateful U.S. Congress introduced a 
rider to the GI Bill of Rights, the now infamous Rescission Act 
of 1946, unceremoniously taking away from the Filipino veterans 
and members of the New Philippine Scouts all benefits, rights, 
and privileges granted under the GI Bill and declaring the 
wartime of these veterans as not active service in the U.S. 
military. The Rescission Act of 1946 targeted only the 
Filipinos because other aliens, Europeans and Asians in World 
War II, were not affected. Thus began in 1946 the 61-year 
uphill struggle of the Filipino World War II veterans for 
recognition of their wartime services in the U.S. Army.
    In 1946, there were about 250,000 Filipino World War II 
veterans. There are no more than 20,000 of us at this time. 
About 7,000 who opted to become U.S. citizens are residents of 
the U.S. trying hard to survive on their meager Supplemental 
Security Income, while there remain in the Philippines about 
13,000 survivors receiving no benefits of any kind from the 
U.S. Government.
    Today, we Filipino World War II veterans after six long 
decades see the light at the end of the tunnel. That light used 
to be always an oncoming train. H.R. 760, the Filipino Veterans 
Equity bill, ha passed through a Committee in the House and on 
this very day this Committee is conducting this historic 
hearing on S. 57, the Senate version of H.R. 760.
    Thank you, Mr. Chairman and Members of this Committee, for 
inviting me here today. I plead with you, on behalf of all my 
fellow Filipino World War II, veterans to enact this bill into 
law and restore all the benefits previously granted to us under 
the GI Bill of Rights but taken away by the Rescission Act of 
1946, along with our dignity and honor. Please do not make a 
distinction between Filipino World War II veterans who opted 
for U.S. citizenship and are residing in America from those who 
remain Filipino citizens and stayed behind in the Philippines. 
All of us fought for America against a common enemy and all of 
us should be entitled to the same benefits irrespective of our 
citizenship and/or place of 
residence.
    Most of us are now advanced in age, sick and frail, living 
in abject poverty, but we share one thing in common.
    We all willingly laid our lives on the line of this country 
in World War II. Thank you for your effort to correct this 
historic wrong committed against us. Thank you for not waiting 
until all of us Filipino World War II veterans are gone before 
taking action on our pleas. There are only a few of us left and 
we are dying every day. Soon, there will be no more.
    Helping us now would not really entail a big expense for 
Uncle Sam because our number has been severely depleted. Any 
appropriation you may now approve to assist us in our twilight 
years would diminish on a year-to-year basis as our number 
continues to dissipate. Please do not think about this in terms 
of money. Think about restoring our dignity, honor, and self-
respect.
    As I conclude my testimony today, I thank you once again, 
Senator Akaka and all the Members of the Senate Veterans 
Affairs Committee for giving us the opportunity to be heard. 
Good bless you and God bless the United States of America. 
Thank you.
    [Applause.]
    [The prepared statement of Mr. Braga follows:]

           Prepared Statement of Manuel B. Braga, Commander, 
      Filipino World War II Veterans Federation, San Diego County

    Good morning, Mr. Chairman and Members of this Committee.
    My name is Manuel B. Braga, former SSgt Philippines Scouts, Army of 
the United States. I am currently the Commander of the Filipino WWII 
Veterans Federation of San Diego County.
    In 1942, during the defense of the Philippines against the 
Japanese, in the Battles of Bataan and Corregidor, President Franklin 
D. Roosevelt promised the Filipinos who were inducted into the United 
States Armed Forces in the Far East or USAFFE, on July 26, 1941, that 
their loyalty to the United States shall be amply rewarded.
    We fought side by side with our American brothers-in-arms and 
remained loyal to America even after the defense of the Islands was 
abandoned by the Joint Chiefs in favor of primarily defeating the Axis 
Powers in Europe.
    Left to withstand the relentless and brutal onslaught of a far 
superior enemy, both in numbers and war materiel, Bataan finally 
surrendered, followed shortly by Corregidor. The sick and starved 
Filipino and American soldiers, not being made of impervious steel, 
reluctantly laid down their arms, and sadly went into captivity.
    But even after going through the humiliation of defeat, and 
surviving the hell that was the Death March and countless atrocities in 
Japanese concentration camps, we continued to resist the enemy. As 
guerrillas, some led by U.S. officers who refused to surrender, we 
relentlessly harassed the Japanese Imperial Army unmindful of the 
indescribable hardships of trying to survive in the jungles and 
mountains, with not only the Japanese as enemies but natural dangers, 
diseases and starvation as well. We fought on until General Douglas 
MacArthur made good on his promise to return in 1945.
    While in the thick of the fight against the forces of Japan, buying 
precious time for the U.S. to strike a counterblow, a very appreciative 
Congress enacted in 1944, what is now known as the GI Bill of Rights 
thus paving the way for Roosevelt to fulfill his promise to us 
Filipinos of a just reward for our sacrifices. The Filipino soldiers, 
like all non-Americans who were serving in the U.S. Armed Forces were 
entitled, under the GI Bill, to full veterans' benefits to include 
naturalization as U.S. citizens.
    Victory finally came in September 1945. The guns fell silent. It 
was time to go home. We who survived shed our uniforms and turned in 
our arms and most of us went back to civilian life. But before the 
official end of that great conflict, some 50,000 Filipinos were 
recruited by the U.S. Army and were inducted into the New Philippine 
Scouts. The Old Scouts organized in 1901, who made a name for 
themselves in Bataan, were integrated into the regular U.S. Army, and 
the New Scouts were used as occupation troops in Japan, its territories 
and possessions which came under U.S. control.
    But a suddenly ungrateful U.S. Congress, introduced a rider to the 
GI Bill of Rights, the now infamous Rescission Act of 1946, 
unceremoniously taking away from the Filipino veterans and members of 
the New Philippines Scouts, all benefits, rights, and privileges 
granted under the GI Bill, and declaring the wartime service of these 
veterans as ``not active service in the U.S. military.''
    The Rescission Act of 1946 specifically targeted only the Filipinos 
because all other aliens (Europeans and Asians from 66 nations) who 
served in the U.S. Armed Forces in World War II were not affected. Thus 
began, in 1946, the 61-year uphill struggle of the Filipino WWII 
veterans for recognition of their wartime services in the U.S. Army.
    In 1946, there were about 250,000 Filipino WWII veterans. There are 
no more than 20,000 of us at this time. About 7,000, who opted to 
become U.S. citizens are residents of the U.S. trying hard to survive 
on their meager Supplemental Security Income, while there remain in the 
Philippines about 13,000 survivors receiving no benefits of any kind 
from the United States Government.
    Today, we, Filipino WWII veterans, after six long decades, see the 
light at the end of the tunnel. That light used to be, always, an 
oncoming train. H.R. 760 or the Filipino Veterans Equity Bill has 
passed through Committee in the House, and on this very day this 
Committee is conducting this historic hearing on S. 57, the Senate 
version of H.R. 760.
    Thank you, Mr. Chairman and Members of this Committee, for inviting 
me here today. I plead with you on behalf of all my fellow Filipino 
WWII veterans to enact this bill into law and restore all the benefits, 
previously granted to us under the GI Bill of Rights, but taken away by 
the Rescission Act of 1946, along with our dignity and honor. Please do 
not make a distinction between Filipino WWII veterans who opted for 
U.S. citizenship and are residing in America, from those who remained 
Filipino citizens and stayed behind in the Philippines. All of us 
fought for America against a common enemy, and of all us should be 
entitled to the same benefits irrespective of our citizenship and/or 
place of residence.
    Most of us are now advanced in age, sick and frail and living in 
abject poverty, but we share one thing in common: We all willingly laid 
our lives on the line for this country in WWII. Thank you for your 
effort to correct the historic wrong committed against us. Thank you 
for not waiting until all of us Filipino WWII veterans are gone before 
taking action on our pleas. There are only a few of us left and we are 
dying everyday. Soon there will be no more. Helping us now would not 
really entail a big expense for Uncle Sam because our number has been 
severely depleted. Any appropriations you may now approve to assist us 
in our twilight years would diminish on a year-to-year basis as our 
number continues to dissipate.
    Please do not think about this in terms of money. Think about 
restoring our dignity, honor and sell-respect!
    As I conclude my testimony today, I thank you once again, Senator 
Akaka and all of the Members of the Senate Veterans' Affairs Committee, 
for giving us the opportunity to be heard. God bless you and God bless 
the United States of America!

    Chairman Akaka. Thank you very much, Commander Braga from 
San Diego County.
    Now I would like to call on Artemio Caleda, President of 
the World War II Filipino-American Veterans and Auxiliary from 
Hawaii. Mr. Caleda?

    STATEMENT OF ARTEMIO A. CALEDA, PRESIDENT, WORLD WAR II 
             FILIPINO-AMERICAN VETERANS AND LADIES 
                      AUXILIARY OF HAWAII

    Mr. Caleda. Aloha.
    Chairman Akaka. Aloha.
    Mr. Caleda. Good morning.
    Chairman Akaka. Good morning.
    Mr. Caleda. This is the voice of the more than 2,000 
Filipino veterans residing in the State of Hawaii. Honorable 
Chairman and distinguished Members of the Committee, my name is 
Art Caleda. I am 83 years old. I was a guerilla during the war. 
I am a naturalized American citizen and I am the President of 
the World War II Filipino-American Veterans in Hawaii. I am 
greatly honored to be here and I thank you for giving this 
opportunity, and with my special thanks to my very own Senator 
from Hawaii, Senator Daniel Akaka, for inviting me to appear 
and testify before this Committee.
    I register my endorsement of the passage of S. 57 and I 
would like to also convey my thanks to our very own Senator 
Inouye for introducing the original bill, S. 68, and I thank 
him for his efforts for introducing today S. 57 mandating the 
U.S. Government to confer full recognition and benefits to the 
Filipino veterans.
    Today, we are already 65 years of sacrificing the injustice 
that has been treated to the Filipino veterans and it has been 
introduced for how many years. The bill was denied for reason 
that it has been closed by the U.S. Congress. Unfortunately, 
the Rescission Act, which was the main issue on S. 57 for 
amendment, the U.S. Government continued to deny, to delay the 
full recognition and benefits of the Filipino veterans.
    For 65 years that we have been waiting for the recognition, 
the veterans have been treated unjustly and they are fading 
away very fast. Many veterans have died and have taken ill. 
Records of the Department of Veterans Service in Hawaii reveal 
that between 15 and 20 veterans die every year. In December 
2006 and January 2007, for 2 months, eight veterans died in a 
short period. At present, we have now many veterans in the 
hospital, bedridden.
    What I want to emphasize here is that veterans are getting 
older and older and they are sacrificing and awaiting the 
equity bill. So the injustice has gone so far that a lot of 
veterans are fading away.
    I would like to cite the infamous Fall of Bataan, when 
75,000 soldiers of the USAFFE, the guerrillas, and the 
Philippine Scouts were lined marching over 100 kilometers along 
the Bataan Death March, and close to 10,000 veterans have 
sacrificed during that infamous Fall of Bataan. These events 
will remain in the pages of the American history symbolizing 
the sacrifice of the veterans that were serving the United 
States.
    Under the American standard, the veterans are living below 
the poverty level. As a matter of fact, veterans in Hawaii 
regularly go to food banks and they pick up some free food and 
free clothing. The veteran that is living alone in his room and 
he dies, he could only be noticed 2 or 3 days after when there 
is a bad odor going around. The worst thing to happen is that 
when a veteran dies, he remains in the morgue for two or 3 
months because the family cannot retrieve him because of no 
money. The veterans, therefore, are living below standard. They 
cannot afford it. We resort to voluntary contributions to help 
the veterans for services.
    What I am driving here is that we are suffering too much 
because of the injustice of the Rescission Act when it cannot 
be amended. Therefore, it becomes a scapegoat of the U.S. 
Government not to give us the full recognition of our benefits. 
Therefore, I think time is of the essence. We are running out 
of time. The old veterans will fade away.
    Therefore, Mr. Chairman, I would like to invoke for 
humanitarian reasons as equally relevant with our legal rights 
and provided by the U.S. Constitution, therefore, on behalf of 
the veterans, I would like to confide to you our unconditional 
trust and confidence for your leadership and your advocacy to 
help pass legislation of S. 57.
    I would like to offer three concerns for consideration. 
First, to honor the full recognition of the services of 
Filipino veterans. Second, to extend the full equity benefits 
that the veterans rightfully deserve. And, of course, the third 
is for Uncle Sam, I refer to His Excellency President George 
Bush to come to the succor of the dying veterans and to uplift 
their living standard.
    I think that is all, in a nutshell, for my testimony today, 
Mr. Chairman.
    [The prepared statement of Mr. Caleda follows:]

Prepared Statement of Art A. Caleda, President of WWII Fil-AM Veterans 
                  and Ladies Auxiliary Hawaii Chapter

    The Honorable Chairman, Distinguished Committee Members Aloha! 
Good Morning.
    This is the voice of my Comrades, of the more than 2,000 Filipino 
veterans of World War II and Ladies Auxiliary residing in the State of 
Hawaii.
    My name is Art Caleda. I am 83 years old, a naturalized American 
citizen residing in Honolulu, Hawaii. Currently, I am the President of 
the WWII Fil-Am Veterans and Ladies Auxiliary Hawaii Chapter. I am a 
retired Regional Director of Forestry in the Philippines and a retired 
Sales Associate in Hawaii.
    I'm honored to be here. I thank you all for this great opportunity 
with my special thanks to our very own Senate Veterans' Affairs 
Committee Chairman, Senator Daniel Akaka, for inviting me to appear and 
testify before this Committee hearing. I register my FULL support to 
pass legislation of the Senate bill S. 57, the Filipino Veterans Equity 
Act of 2007.
    My thanks also to our very own Senator Daniel Inouye for 
introducing in 1992 the original bill S. 68 with identical title and 
the same language adopted in the current Senate Bill S. 57 mandating 
the U.S. Government to confer full recognition and full benefits to 
World War II Filipino American veterans.
    However, the bill until today, failed to pass legislation and died 
a natural death at the closing of the U.S. Congress session every year.

                               BACKGROUND

    I was a Guerilla Intelligence Officer with the 11th Infantry 
Regiment, of the United States Armed Forces in the Philippines (USAFIP) 
Philippine Army assigned in the Northern Luzon. I took my oath of 
allegiance under the American flag in response to the call by the 
military order of President Franklin D. Roosevelt.
    I survived the war through blood and sacrificed with a shrapnel 
wound I suffered in my lower left chin during a mission to rescue a 
U.S. pilot officer, Lt. Paul Foster, of the 39th Brigade when we were 
exposed in the battlefront in the middle of heavy staffing and bombing 
by the Japanese troops. Many were wounded and some died during the 
rescue operation.
    After the Philippines was granted absolute independence on July 4, 
1945, the Rescission Act of 1946 created a new battle for injustice 
against the Filipino veterans of World War II when the U.S. Government 
unceremoniously stripped our well-earned honor and highly deserved 
benefits.

                              LEGAL BATTLE

    In 1992, fifteen years ago today, our very own U.S. Senator Daniel 
K. Inouye (D-Hawaii) introduced the original Senate bill S. 68 with 
identical title and the same language adopted in the current S. 57 as 
the Filipino Veterans Equity Act 2007 mandating the U.S. Government to 
confer full recognition of the military service and benefits of 
Filipino veterans who served with the Armed Forces of the United 
States. However, the bill died a natural death at the closing of the 
U.S. Congress session every year until to-date.
    The inability of the ``power-that-be'' to pass legislation of the 
bill apparently attributed to the failure to amend the Rescission Act 
of 1946 as a scapegoat of the U.S. Government to continue denying the 
Filipino veterans privilege and rights for benefits. Our long battle 
for justice with the U.S. Government had been unpopularly delayed and 
to think about it, justice delayed is justice denied, prejudicial to 
the welfare of the Filipino veterans.
    Consequently, records from the Department of Veterans Affairs, 
Office of the Veterans Services, Hawaii, revealed that between 15 and 
20 veterans died every year. In December 2006 and January 2007, eight 
veterans died in Honolulu, Hawaii, apparently attributed to a prolonged 
frustrations suffered by the veterans who are fast aging at their 80's 
of age and over, most of them are sickly, bedridden and poor, solely 
dependent on their SSI and Food Stamps provided by the U.S. Government.
    To supplement their SSI income they collect empty cans and bottles 
and sell to the recycle redemption center. They frequent food banks for 
free food and second hand clothing. Some do backyard gardening to raise 
vegetables. They save money for their families in the Philippines. Most 
of the veterans just confine themselves within the four walls of their 
one bedroom. The scenario when a veteran dies alone, he/she is noticed 
because of the stinky smell after three or more days. The veterans 
really live a very miserable life waiting and hoping against hope for 
their equity benefits to alleviate their living from poverty.

                                 FACTS

    ``On April 9, 1942--United States surrenders the Philippines 
leaving 75,000 USAFFE and regular soldiers to the Bataan Death March 
where close to 10,000 die along the trudge to POW camps. However, even 
after the American surrender, Philippine resistance to Japanese 
occupation continues.'' (Source: www.fullequity.com.)
    The infamous Fall of Bataan that marked the treacherous Bataan 
Death March, the surrender of Corrigidor including other military 
installations and the Prisoners of War (POW) concentration camps 
located all over the country will remain historical events to remember 
symbolizing the sacrifices, courage, and loyalty of Filipino veterans 
in defense of freedom and democracy.
    The organized guerilla resistance units in coordination with the 
reinforcement liberation forces exemplified their bravery and valor 
throughout the intensive mopping operations against the enemy and 
excelled over heavy battle until the surrender and capture of Gen. 
Yamashita ``The Tiger of Malaya'' in the Central Cordillera mountain 
ranges of the Mountain provinces and Baguio City.
    The war was the bloodiest battle we ever experienced considering 
the heavy toll of casualties. It is part of American history about the 
World War II in the Philippines when President Franklin D. Roosevelt 
issued the military order calling and ordering all organized military 
forces of the Philippine Commonwealth government to join the Armed 
Forces of the United States. Cognizant to the military order, we are 
entitled to full recognition and benefits provided by the U.S. 
Constitution.
    However, the U.S. Government persistently continues to ignore our 
military service since 1946 until to date and avoid to grant our 
benefits rightfully due to us. While soldiers from 61 other nations who 
fought under the American flag received their highly deserved benefits. 
We, the Filipino veterans were singled out for exclusion.
    It is unconceivable that Filipino veterans must be ``killed, 
disabled, wounded, paralyzed, deaf, half-blind, and POW to be honored 
and eligible to benefits, yet they were all confined in the hospitals 
and military camps, while Filipino veterans with limbs intact and 
normal who carried and sustained the battle and survived the 
``Holocaust'' of war were ignored of their military service and denied 
of benefits available by the U.S. Constitution. Both must be granted 
equal opportunity.
    Mr. Chairman and Members of this August Body, on behalf of my 
Comrades, I confide to you all our unconditional trust and confidence 
to your leadership and advocacy to support passage for legislation the 
much awaited Senate bill, S. 57, the Filipino Veterans Equity Act of 
2007.
    To capsulize my testimony, I profess for consideration, the 
following:
    1. The HUMANITARIAN aspect as equally, if not more relevant to the 
legal rights of the World War II Filipino American veterans benefits 
provided by the U.S. Constitution and promised by Uncle Sam.
    2. The U.S. Government to rectify the injustice committed since the 
Rescission Act of 1946 against the Filipino American veterans who 
served in the Armed Forces of the United States.
    3. To mandate the U.S. Government to confer FULL recognition of 
military service of Filipino veterans of World War II who served in the 
Armed Forces of the United States, under military order of President 
Franklin D. Roosevelt.
    4. The U.S. Government to grant FULL benefits to Filipino veterans 
of World War II for reason of their military service in the Armed 
Forces of the United States with equal benefits by the Americans 
available by law of the U.S. Congress.
    5. The U.S. Government to save the lives of the remaining living 
Filipino veterans who are fast aging at their 80's of age and over and 
most of the veterans are sickly and poor dependent solely on SSI and 
Food Stamps provided by the U.S. Government.
    6. To reward the Filipino veterans, much less not to be forgotten 
as heroes of freedom and democracy who bravely sacrificed through blood 
and life in defense of the people and nation.
    7. The U.S. Government to improve the quality of life of the 
Filipino veterans as naturalized American citizens to live decently 
from poverty.

    Chairman Akaka. Thank you very much.
    [Applause.]
    Chairman Akaka. Thank you very much, Art Caleda from 
Hawaii.
    I now would like to call on Mr. Avelino Asuncion for your 
testimony.

    STATEMENT OF PATRICK G. GANIO, SR., PRESIDENT, AMERICAN 
            COALITION FOR FILIPINO VETERANS, INC., 
         PRESENTED BY AVELINO ASUNCION, CHAIRMAN, SAN 
        DIEGO CHAPTER, AMERICAN COALITION FOR FILIPINO 
                         VETERANS, INC.

    Mr. Asuncion. Honorable Chairman Akaka and Members of the 
hearing Committee, my name is Avelino Asuncion, a Filipino 
World War II veteran, a prisoner of war, and retired school 
superintendent living now in San Diego, California. I am now 87 
years old. Allow me, therefore, to read the testimony of 
Patrick G. Ganio, Sr., a Filipino American defender in the epic 
Battles of Bataan and Corregidor. He is the President of the 
American Coalition for Filipino Veterans, whose membership I 
think is about 4,000. He is unable to be here today because of 
his wife's present illness.
    Mr. Chairman, first, I would like to introduce our lively 
Filipino World War II veterans here today. Will you please all 
stand, veterans?
    [Applause.]
    Mr. Asuncion. Thank you. All of these veterans, Mr. 
Chairman, came from very far places to be here to attend this 
hearing. I, for myself, Mr. Chairman, came from San Diego, 
traveling for 9 hours through the plane.
    We are greatly honored. I am glad to testify on behalf of 
my fellow war veterans and 4,000 members to remedy a historical 
injustice of the 1946 Rescission Act. We Filipino veterans 
deserve full benefits under the equity bill, S. 57 of Senator 
Inouye. We deeply thank you, Senator and the Chairman, for 
cosponsoring the equity bill.
    Over the past two decades, we lobbied for the full range of 
benefits under the GI Bill of Rights for all of us who served 
in the defense of America. We Filipino veterans see the unjust 
and unfairness of the 1946 Rescission Act that the U.S. 
Congress passed. This law excluded most Filipino World War II 
veterans from receiving full recognition of their U.S. military 
services and benefits.
    We do not need to rehash this complex and emotional issue. 
Simply put, our service in the U.S. Armed Forces cannot be 
considered as not active under the law. We Filipino veterans 
deserve to be treated as American veterans. The old reply of 
budget constraints to our request for equity is not acceptable 
to us.
    [Applause.]
    Mr. Asuncion. Mr. Chairman, for the few of us remaining 
survivors, we hope and believe you won't forsake us. We are 
Filipinos by birth, Americans by choice. We served loyally as 
U.S. soldiers. What is the difference that prevents us from 
getting benefits that our American comrades receive? Is it 
discrimination, as President Truman has said?
    Mr. Chairman, after a decade of our demonstration and 
lobbying on Capitol Hill and the arrests at the White House to 
call attention on our cause, we are at the last stage of our 
campaign for equity. We want equitable VA benefits for our poor 
and elderly veterans.
    The major difference between what a low-income American 
veteran receives in VA non-service disability pension and a 
U.S.-based Filipino veteran is about $400 per month. Our 
veterans survive on Supplemental Security Income of about $600 
to $700 per month. An additional $200 monthly benefit would 
bring our veterans to above the poverty level and to live in 
dignity and honor as a citizen of the United States. This $200 
monthly income for the Philippine-based Filipino World War II 
veteran would bring him above abject poverty there and pay for 
the much-needed food, shelter, and medicine. We conservatively 
estimate it would cost about $22 million yearly.
    President Truman said on February 20, 1946, when he 
objected to the Rescission Act, ``We have a moral obligation to 
care for the Filipino Army veterans.'' Today, Mr. Chairman and 
the honorable Members of this Committee, we ask for what is due 
us. Please give us the touch of your compassion and the 
kindness of your act of simple justice.
    Please pass our equity bill. Thank you.
    [Applause.]
    [The prepared statement of Mr. Ganio follows:]

    Prepared Statement of Patrick G. Ganio Sr., National President, 
             American Coalition for Filipino Veterans, Inc.

    Chairman Akaka, the Honorable Sen. Daniel Inouye, and Committee 
Members:
    I am Patrick G. Ganio Sr., a Filipino American defender in the epic 
Battles of Bataan and Corregidor in the United States territory of the 
Philippines during World War II.
    As the national president of the American Coalition for Filipino 
Veterans, I am greatly honored by your invitation. I am glad to testify 
on behalf of my fellow war veterans and 4,000 members to remedy a 
historical injustice of the 1946 Rescission Act. We, Filipino veterans, 
deserve full benefits under the Equity bill S. 57 of Senator Inouye. We 
deeply thank the Chairman for cosponsoring the Equity bill.
    Mr. Chairman, first, I would like to introduce our feisty Filipino 
American WWII veterans behind me today by having them stand up. They 
came very far to be here.
    Over the past two decades, we lobbied for the full range of 
benefits under the GI Bill of Rights for all of us who served and bore 
the battle in defense of America. We, Filipino veterans, see the unjust 
and unfairness of the 1946 Rescission Act that the U.S. Congress 
passed. This law excluded most Filipino WWII veterans from receiving 
full recognition of their U.S. military service and VA benefits.
    We do not need to rehash this complex and emotional issue. Simply 
put, our service in U.S. Army Forces CANNOT be considered as ``NOT 
ACTIVE'' under current law. We Filipino veterans deserve to be treated 
as American veterans. The old reply of ``budget constraints'' to our 
request for Equity is not acceptable to us.
    Let me recall some relevant facts:

    (1) The service we Filipino soldiers rendered in defense of the 
Philippines, then a U.S. territory, broke the Japanese 50-day timetable 
in 1942. We stood our ground in Bataan and Corregidor for a period of 
FIVE months and won America's admiration. General MacArthur noted the 
United States saved $15 billion dollars and thousands of American 
lives. During 3 years of Filipino resistance to Japanese occupation 
demonstrated our loyalty to our commander in chief, President Franklin 
D. Roosevelt and prevented enemy forces from reaching the United States 
mainland.
    (2) After the war, the Senate Appropriations Committee deliberated 
on the rehabilitation of the Philippines. General Bradley, the Veterans 
Administrator, stated compensation benefit to Filipino veterans would 
amount to $3.2 BILLION. But the committee only approved $200 million. 
Hence the savings of $3 BILLION. Over the past sixty years, additional 
savings were made due to increasing deaths of my comrades who never 
tasted the health and pension benefits that they should have received. 
Sadly, many have died without the simple fairness of getting a pension 
while they lived in poverty. The reason: budget constraints. SORRY NO 
MONEY.
    (3) During this current battle against global terrorism, the 
natural calamities around the world, billions and billions of dollars 
are foreign aid flowed. But none for poor and disabled Filipino 
veterans who loyally served America.

    Mr. Chairman, for the few of us remaining survivors, we hope and 
believe you won't forsake us. We are Filipinos by birth, Americans by 
choice. We served loyally as U.S. soldiers. What is the difference that 
prevents us from getting benefits that our American comrades receive? 
Is it discrimination as President Truman has said?
    We appreciate that U.S. Congress has restored U.S. citizenship 
rights, VA burial benefits, war related injury compensation, and much 
needed VA health care. Our Filipino veterans in the United States now 
have their VA identification cards. However, they are missing the last 
benefit.
    Mr. Chairman, after a decade of our demonstrations and lobbying on 
Capitol Hill and arrests at the White House to call attention on our 
cause, we are at the last stage of our campaign for Equity. We want 
equitable VA pensions for our poor and elderly veterans.
    The major difference between what a low-income disabled American 
veteran receives in VA NON-service disability pension and a U.S. based 
Filipino veteran is about $200 per MONTH.
    Our Filipino veteran subsists on Supplemental Security Income (SSI) 
of $600 and Food Stamps. An additional $200 monthly would bring our 
veteran to above the poverty level and live in dignity in the U.S.
    This $200 dollars monthly income for the Philippine-based Filipino 
WWII veteran would bring him above abject poverty there and pay for 
much needed food, shelter and medicines. The Philippine Government has 
shared in their responsibility for providing an ``old age pension'' of 
less than $100 per month. We estimate it would cost about $22 MILLION 
yearly to provide this last benefit to less than 10,000 Filipino 
veterans in the U.S. and in the Philippines.
    President Truman said on February 20, 1946, when he objected to the 
Rescission Act, `` We have a morale obligation to care for the 
Philippine Army veterans.''
    Today, Mr. Chairman and Honorable Members of this Committee, we ask 
for what is due us. Please give us a touch of your compassion and 
kindness: your act of simple justice. Pass our Equity bill.
    Thank you.
    We will be glad to answer your questions.

    Chairman Akaka. Thank you very much, Mr. Avelino Asuncion. 
As I understand it, you are representing Mr. Patrick Ganio, who 
is the President of the American Coalition for Filipino 
Veterans, and I thank you very much for your testimony.
    At this time, I would like to call on Benito Valdez from 
Seattle.

                  STATEMENT OF BENITO VALDEZ, 
                 FILIPINO WORLD WAR II VETERAN

    Mr. Valdez. Honorable legislators, my name is Benito 
Valdez. I am 83 years old and I am a World War II veteran.
    In my unit from the Philippines, I am one of the only three 
surviving members. Two of us live in Washington State.
    I come before you today to seek help and understanding. Let 
me begin by thanking you for allowing me this rare opportunity 
to be part of the voice of the more than 200,000 forgotten 
Filipino warriors of freedom.
    I am an old soldier who fought the World War II that was 
not ours, a war that devastated my homeland and killed 
countless young men and women of my generation. That war left a 
deep and bitter wound that up to this day has not been healed. 
If I express frustration as I testify before you, it merely 
echoes the betrayal of a soldier who has served well, but has 
suffered more than 60 years.
    When my unit of 100 Filipino soldiers and guerrillas helped 
American commandos to free 600 American and Canadian prisoners 
of war in the Philippines in Cabanatuan, in that daring raid in 
the garrison of Cabanatuan, Philippines, we served with honor 
and loyalty. Today, 63 years later, that loyalty and sense of 
duty has not faded away. Many of us aging Filipino war veterans 
believe that it is our American allies who have instead 
forgotten us.
    There are less than 100 of us living in Washington State. 
With an estimated 5,000 Filipino World War II veterans living 
in America and the 14,000 still in the Philippines, we are a 
fast-fading, marginalized population. Our cry for justice has 
gotten this far and we thank many advocates and supporters who 
continue to stand with us.
    A widower, I live alone in a small place near a chapel. My 
daughter, a doctor who cannot practice in America, is here on a 
temporary visa as a church worker and to take care of me. I 
have petitioned for my children and have been waiting for 14 
years. Meanwhile, a heart bypass has prolonged my life. I live 
on Social Security Income and pray that my life is extended 
some more. Each year, I am feeling weaker.
    Please, honorable legislators of the United States of 
America, pause a minute and think how difficult it has been for 
us forgotten soldiers and our families. Many of the original 
200,000 conscripted comrades of mine have passed away, angry, 
disappointed, defeated. I am one of the last 20,000 still 
around to carry on the final battle. Yes, we are angry, but we 
are too weak now to argue or raise our voice.
    Our one final appeal we make in our twilight years is to 
give us what we have rightfully earned. We are not begging. We 
need your help and understanding so that you will now pass laws 
that will give us full veterans' benefits. That means you would 
allow us to regain our dignity and to live a few remaining 
years in our lives in the company of our sons and daughters in 
this benevolent land of America.
    I salute you all and thank you on behalf of my fellow 
veterans. God bless us all.
    [Applause.]
    [The prepared statement of Mr. Valdez follows:]

   Prepared Statement of Benito Valdez, Filipino World War II Veteran

    Honorable Legislators, thank you for giving me the opportunity to 
speak before you today.
    My name is Benito Valdez. I am 83 years old and I am a World War II 
veteran. In my unit from the Philippines, I am one of only three 
surviving members. Two of us live in Washington State.
    I come before you today to seek help and understanding. Let me 
begin by thanking you for allowing me this rare opportunity to be part 
of the voice for more 200,000 forgotten Filipino warriors of freedom.
    I am an old soldier who fought a war that was not ours, a war that 
devastated my homeland, and killed countless young men and women of my 
generation. That war left a deep and bitter wound that up to this day 
has not healed. If I express frustration as I testify before you, it 
merely echoes the betrayal of a soldier who has served well but has 
suffered for more than sixty years.
    When my unit of 100 Filipino soldiers and guerillas helped American 
commandos to free 600 American and Canadian prisoners of war in that 
daring raid of the garrison in Cabanatuan, we served with honor and 
loyalty. Today--63 years later--that loyalty and sense of duty has not 
faded away. Many of us aging Filipino war veterans believe that it is 
our American allies who have instead forgotten us.
    There are less than 100 of us living in Washington State. With the 
estimated 7,000 Filipino World War II veterans living in America and 
the 13,000 still in the Philippines, we are a fast-fading, marginalized 
population. Our cry for justice has gotten this far and we thank many 
advocates and supporters who continue to stand with us. A widower, I 
live alone in a small place near a chapel. My daughter, a doctor who 
cannot practice in America, is here on a temporary visa as a church 
worker and to take care of me. I have petitioned for my children and I 
have been waiting for 14 years. Meanwhile, a heart by-pass has 
prolonged my life. I live on social security income and pray that my 
life is extended some more. Each year I feel weaker.
    Please, honorable legislators of the United States of America--
pause for a minute and think how dificult it has been for us old 
forgotten soldiers and our families. Many of the original 200,000 
conscripted comrades of mine have passed away angry, disappointed, 
defeated. I am one of the last 20,000 still around to carry on the 
final battle. Yes, we are angry but we are too weak now to argue or 
raise our voice.
    One final appeal we make in our twilight years is to give us what 
we have rightfully earned. We are not begging. We need your help and 
understanding so that you will now pass laws that will give us full 
veterans benefits. That means that you will allow us to regain our 
dignity and to live the few remaining years of our lives in the company 
of our sons and daughters in this benevolent land of America.
    I salute all of you and thank you on behalf of all my fellow 
veterans. God 
bless us all.

    Chairman Akaka. Thank you very much, Mr. Valdez from 
Seattle.
    And now, our final testimony will be from Lieutenant 
Colonel Edwin Ramsey, U.S. Army, Retired, and he will be 
testifying via video.

  STATEMENT OF LIEUTENANT COLONEL EDWIN PRICE RAMSEY (RET.), 
                      WORLD WAR II VETERAN

    Colonel Ramsey [via videoconference]. Thank you, Chairman 
Akaka and honorable Members of the Senate Veterans' Affairs. My 
name is Edwin Ramsey. I appeared before the House Veterans' 
Affairs Committee on the same subject on November 5, 1993, on 
July 7 in 1998, and again on February 15 of this year, where 
copies of my testimony appear in more detail in the 
Congressional records of those hearings.
    On May the 9th of this year, I turn 90, and I will never 
have another chance to contribute in some small way to 
correcting a longstanding gross injustice to the Filipino 
veterans of World War II. To do so, it is important that you be 
aware of why I was in a unique position during that time 
period.
    In 1941, I was a lieutenant in the 26th Cavalry Regiment, 
Philippine Scouts, a regular unit of the United States Army 
with whom I fought for the Japanese landing in Lingayen Gulf 
through the Battle of Bataan. After Bataan surrendered on April 
9, 1942, my troop commander, Captain Joseph R. Barker II, and I 
escaped and made our way to Pampanga Province in Central Luzon, 
where we met Colonel Claude Thorp, whom General MacArthur had 
sent out of Bataan in January to establish resistance forces 
behind enemy lines. We joined Colonel Thorp and began the 
guerrilla forces in Central Luzon, designated the East Central 
Luzon Guerilla Area, or ECLGA, under the Luzon Guerilla Army 
Forces of Colonel Thorp. After the capture of both Thorp and 
Barker and their later execution, in early January 1943, I 
became the commander of the ECLGA. By the time General 
MacArthur returned to Luzon, it had grown to approximately 
45,000 guerilla troops.
    With that background, I would like to address the question 
of the status of Filipino veterans and their treatment, 
especially in respect to the Rescission Acts of 1946.
    In July 1941, President Roosevelt authorized through the 
War Department the formation of the United States Army Forces 
in the Far East, or USAFFE, under the command of General 
MacArthur and ordered the induction of the military forces of 
the Commonwealth of the Philippines into and as part of the 
USAFFE. It is impossible to see how these Filipino troops could 
be Federalized into the USAFFE and not be part of the United 
States Army. Further, when we inducted the Filipinos into the 
guerilla forces, we required that they all swear an oath of 
allegiance to the United States of America and the Commonwealth 
of the Philippines.
    Therefore, all those guerrillas that were recognized after 
the liberation would have to have the same status. In that 
connection, I question why there was a difference in the 
treatment accorded to the 65,000 or so Commonwealth of Puerto 
Rico troops and those from Hawaii and elsewhere who served in 
the United States Army and were later treated the same as 
American veterans.
    The USAFFE forces fought courageously, delaying the 
Japanese time table for several months instead of the 6 weeks 
General Homma had been given by the Japanese High Command to 
conquer the Philippines. This probably saved Australia from the 
Japanese. Also, remember that only the Filipinos remained loyal 
to their former colonial masters, while the Indo-Chinese turned 
on the French, the Indonesians on the Dutch, and Malaya and 
Burma on the British. It was this unbelievable loyalty that 
provided the environment necessary to build the massive 
guerilla forces that made it impossible for the Japanese to 
defend in a serious way against the liberating Allied forces 
and ultimately saved thousands of American and Allied lives.
    General MacArthur confirmed this to me personally in a 
meeting I had with him in Tokyo in March 1947. At that time, he 
gave me an autographed photograph dedicated, ``To Ramsey with 
the admiration and affection of his old comrade-in-arms, 
Douglas MacArthur,'' my most prized possession.
    For the sake of brevity today, please see my testimony 
appearing in the Congressional records of the hearings of 1993 
and 1998 cited above. I would especially call your attention to 
President Roosevelt's request to Congress in a letter of 
October 6, 1943, wherein he said, ``to make provision for the 
physical and economic rehabilitation of the Philippines made 
necessary by the ravages of war which the invaders have 
inflicted upon them. All this is due the Filipino people in 
recognition of their heroic role in this war and the political 
ties which have bound us together in the past.'' It should be 
remembered by us all today that this plea was made in 1943, at 
a time when morale was very low worldwide, and particularly in 
Asia, and there was a great deal of uncertainty in our fortunes 
of war at the time.
    It is my belief that had President Roosevelt lived, he 
never would have sanctioned an agreement so demeaning to the 
Filipinos as has resulted in the Rescission Act of 1946.
    Thank you for your attention.
    [Applause.]
    [The prepared statement of Colonel Ramsey follows:]

  Prepared Statement of Lieutenant Colonel Edwin Price Ramsey (Ret.), 
                          World War II Veteran

    Chairman Akaka and Honorable Members of the Senate Committee on 
Veterans' Affairs:
    My name is Edwin Ramsey and I thank you for the opportunity to be 
heard by you today. I have appeared before the House Veterans' Affairs 
Committee on this same subject on November 5, 1993, on July 2, 1998, 
and again on February 15th of this year, wherein copies of my 
testimonies appear in more detail in the Congressional Records of those 
hearings.
    On May 9th of this year, I will turn 90 and I will never have 
another chance to contribute, in some small way, to correcting a 
longstanding gross injustice to the Filipino veterans of World War II. 
To do so, it is important that you be aware of why I was in a unique 
position during that time period.
    In 1941, I was a lieutenant in the 26th Cavalry Regiment, 
Philippine Scouts, a regular unit of the U.S. Army with whom I fought 
from the Japanese Landing in Lingayen Gulf through the Battle of 
Bataan. After Bataan surrendered on April 9, 1942, my troop commander, 
Capt. Joseph R. Barker II and I escaped and made our way to Pampanga 
Province in Central Luzon, where we met Col. Claude Thorp whom General 
MacArthur had sent out of Bataan in January to establish resistance 
behind the enemy lines.
    We joined Col. Thorp and began the Guerrilla forces in Central 
Luzon designated by Col. Thorp to be the ``East Central Luzon Guerrilla 
Area'' or ECLGA, under the ``Luzon Guerrilla Army Forces'' of Col. 
Thorp. After the capture of both Thorp and Barker, and later their 
execution, in early January 1943, I became the commander of the ECLGA. 
By the time Gen. MacArthur returned to Luzon, it had grown to 
approximately 45,000 guerrilla troops.
    With that background, I would like to address the question of the 
status of Filipino veterans and their treatment, especially with 
respect to the Rescission Act of 1946. In July 1941, President 
Roosevelt authorized, through the War Department, the formation of the 
``United States Army Forces in the Far East'' or USAFFE, under the 
command of General Douglas MacArthur and ordered the induction of the 
military forces of the Commonwealth of the Philippines into and as part 
of the USAFFE. It is impossible to see how these Philippine troops 
could be Federalized into the USAFFE and not be part of the United 
States Army.
    Further, when we inducted the Filipinos into the guerrilla forces, 
we required that they all swear an oath of allegiance to the United 
States of America and the Commonwealth of the Philippines. Therefore, 
all those guerrillas that were recognized after the liberation would 
have the same status. In that connection, I question why there was a 
difference in the treatment accorded to the 65,000 or so Commonwealth 
of Puerto Rico troops and those from Hawaii and elsewhere, who served 
in the U.S. Army and were later treated the same as American veterans.
    The USAFFE forces fought courageously, delaying the Japanese 
timetable for several months, instead of the 6 weeks General Homma had 
been given by the Japanese High Command to conquer the Philippines. 
This probably saved Australia from the Japanese. Also, remember that 
only the Filipinos remained loyal to their former colonial masters 
while the Indo-Chinese turned on the French, the Indonesians on the 
Dutch, and Malaya and Burma on the British.
    It was this unbelievable loyalty that provided the environment 
necessary to build the massive guerrilla forces that made it impossible 
for the Japanese to defend, in any serious way, against the liberating 
Allied Forces and ultimately saved thousands of American and Allied 
lives. General MacArthur confirmed this to me in a meeting I had with 
him at his headquarters in Tokyo in March 1947. At that time, he gave 
me an autographed photo signed, ``To Ramsey with the admiration and 
affection of his old comrade in arms, Douglas MacArthur.'' My most 
prized memento.
    For the sake of brevity here today, please see my testimony 
appearing in the Congressional Records of the hearings of 1993 and 1998 
cited above. I would especially call your attention to President 
Roosevelt's request to Congress in his letter of October 6, 1943, 
wherein he said, inter alia, ``to make provisions for the physical and 
economic rehabilitation of the Philippines made necessary by the 
ravages of war which the invaders have inflicted upon them. All this is 
due the Filipino people in recognition of their heroic role in this war 
and the political ties which have bound us together in the past.''
    It should be remembered by us all today, that this plea was made in 
1943, when morale was very low worldwide and particularly in Asia, and 
there was a great deal of uncertainty in our fortunes of war at the 
time. It is my belief that had President Roosevelt lived, he never 
would have sanctioned an agreement so demeaning to the Filipinos as 
resulted by the Rescission Act of 1946.
    Thank you for your kind attention.

    Chairman Akaka. I want to thank Colonel Ramsey very much 
for his testimony. We will include his written testimony in the 
record of this hearing.
    Again, I want to thank this panel for your testimony and I 
have one question that I would like to ask each one of you and 
that is about the question of obligation. While you served with 
U.S. Forces during World War II, what was your understanding of 
the obligation of the United States to you after your service? 
I will ask you in the order in which you spoke. Mr. Braga?
    Mr. Braga. During the guerilla, 1942, I was only almost 16 
and I was discharged from the guerilla in May 1945, and I 
didn't receive anything. I was not recognized because when I 
was called to be processed, I was already in Okinawa as a 
Philippine Scout. So I was not processed. I was recruited by 
the U.S. Army to be a Philippine Scout, and after training in 
Okinawa, I was in Okinawa for 2 years, and after 2 years, it 
was December 1948. I was transferred to Fort William McKinley 
in Manila. I was attached to the 63rd Military Police. We 
turned over the camp, it was Nichols Air Base and Fort William 
McKinley, to the Philippine Government. And after that, we were 
discharged.
    And it was--I have a long story. We were discharged in 
McKinley. That was May 4, 1949. After a month, I started 
looking for a job. Nobody hired me because I got TB. We don't 
have any physical examination when we were discharged and I got 
that TB until 1993. That was healed in Honolulu. It is hard to 
explain, and I don't know why the U.S. Government did these 
things to us.
    When we were recruited by the U.S. Army, we were promised 
the same salary as the U.S. Army, but when we were already in 
the service, they only gave us $25 a month. When we got our 
discharge, we were demoted one rank down. I don't know why.
    Now, about this pension in the Philippines, we call it old-
age pension, there were portions that were not given us, 
because according to them, those who were enlisted after July 
4, 1946, they are not qualified, because according to them, 
they did not help the Philippine Government. Actually, the 
truth is, we, Philippine Scouts, we did not serve the 
Philippine Government. We served the U.S. Government. Our work 
in Okinawa, reconstruction, and then working with this big 
construction company in California, constructing the roads 
there. I forgot the name of the construction company. We were 
working together in Okinawa for two years constructing bridges, 
roads, barracks, and everything and this is what happened to 
us.
    Chairman Akaka. Thank you very much, Mr. Braga, on your 
understanding of the obligation of the United States to you 
after the service.
    Let me call on Art Caleda.
    Mr. Caleda. Mr. Chairman, it is clearly provided in the 
Military Order of my Commander in Chief, then President 
Franklin D. Roosevelt, when we were ordered to join the Armed 
Forces of the United States. I took my oath of allegiance under 
the American flag when I joined the military of the U.S. Armed 
Forces, and fought side-by-side with the American troops. My 
understanding with that military order, it was a promise by no 
less than the President of the United States that the services 
of Filipino soldiers and now Filipino veterans are entitled for 
benefits and pension. That is my understanding of the 
obligation of the United States, of the U.S. Government. It was 
my sworn duty to serve during the war the Government of the 
United States.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you. Thank you very much, Art Caleda.
    And now, Mr. Asuncion.
    Mr. Asuncion. Thank you, Mr. Chairman. I, for one, I was 
recruited by virtue of the provision of the National Defense 
Act of the Philippines wherein it required that all college 
students attending regular classes in the universities and 
schools of the Philippines had to take the ROTC, this Reserve 
Officer Training Corps. Before we graduated, Mr. Chairman, from 
the ROTC--I was enrolled in one of the colleges in the 
Philippines--we were called to have what we called the summer 
cadre training. We understood, Mr. Chairman, that our being 
called to come to training during the month of April 1939, 
there seems to be a war coming. We don't know who will declare 
the war. So we got the training for two months.
    Before we graduated from the training, Mr. Chairman, we 
were already assigned our mobilization centers before we went 
home from the training course. So, Mr. Chairman, because I 
graduated second chair in the college, I started teaching in 
the Philippines as an elementary school teacher. I want to 
inform you, Mr. Chairman, that I was still 22 when I received 
my transportation order for war duty. To my delight, Mr. 
Chairman, I represented the spirit of young Filipinos, eager 
ever to hold a gun to fight in any battle. So, Mr. Chairman, 
when we were called to active duty, we never read or had known 
that the United States Army through the President would 
conscript us, but we were willing as young soldiers to fight.
    So whether they promised us payment or not, we understood 
that the U.S. Army will have to pay us because we have been 
conscripted under the United States Army. And so, Mr. Chairman, 
for that matter, I do not know of any time when I got any 
promise of the President of the United States to be paid or 
not, but just the same, the spirit of the Filipino young 
soldier to fight was the idea behind driving me to the army. I 
was still single when I was recruited in the army. Thank you, 
Mr. Chairman.
    Chairman Akaka. Thank you very much, Mr. Avelino Asuncion.
    And now, Mr. Benito Valdez, your understanding of the 
obligation of the United States----
    Mr. Valdez. Thank you, Mr. Chairman. The question is very 
good. What was your understanding of the obligation of the 
United States to you? That is what we are here for now, Mr. 
Chairman. I want to fully answer a few words, because I showed 
my love to the United States by rendering services in the armed 
forces. What I expect now is I also want the return of the love 
of the United States to me, to us, by giving us the full 
veterans' benefit. Thank you, sir.
    Chairman Akaka. Thank you. Let me ask you a final question. 
To each of you, please describe and talk about your interaction 
with American troops and commanders during the war. Mr. Braga?
    Mr. Braga. In Okinawa, ever since we were recruited, our 
officers are all Americans. There are only a few Filipino 
officers. All of them are Americans. When I was into the cadre 
school, there are about one-half Americans.
    We were about 120 and about one-half are Americans. After 
graduation from the cadre school, all those Americans are our 
commanders and we Filipinos are non-commissioned officers on 
active appointment. But it did not take long, especially when 
the trainees graduated. We got promoted actually. So when they 
sent me to Okinawa, I was--but from company commander, platoon 
leader, battalion commander, regimental commander, all 
Americans.
    Chairman Akaka. Thank you very much, Mr. Braga.
    Art Caleda?
    Mr. Caleda. Thank you, Mr. Chairman. After I took my oath 
of allegiance under the American flag, the order was so clear 
that I had to join the Armed Forces of the United States and 
fought side-by-side with the American troops. In one dangerous 
operation during the war, I remember on March 4, 1945, we had a 
very risky mission to rescue one U.S. Air Force pilot officer 
by the name of Lieutenant Paul Foster of the 39th Brigade. In 
that rescue operation, we were subjected to heavy bombing by 
the Japanese troops where I suffered a shrapnel wound on my 
left chin and I saved the life of my comrade American officer.
    And my relationship to our American troops, I was under the 
command of Colonel Russell Volckman, U.S. Army, and my area 
commander was U.S. Army Colonel Donald Blackburn. We were under 
the command of the American troops. We were so loyal with our 
comrades-in-arms. We fought during the war. We survived the 
``holocaust'' of the war in battle side-by-side with the 
American troops. And with the combined forces of the guerillas, 
I was a guerilla then, and the reinforcement liberation forces 
of General Douglas MacArthur at the time when we were 
conducting continuous mopping operation, led to the surrender 
and capture of General Yamashita and the liberation of Northern 
Luzon.
    And so it cannot be denied of our close camaradeie--it can 
be said that we have exemplified a very close relationship with 
the American troops with a unified sacrifice, courage and 
loyalty in defense of freedom and democracy. Thank you, Mr. 
Chairman.
    Chairman Akaka. Thank you very much, Mr. Caleda.
    Mr. Avelino Asuncion?
    Mr. Asuncion. My chance to interrelate with Americans for 
years during my life in the Army was during the time I was a 
prisoner of war. I remember that from the Baguio regions to 
Manila, prisoners of war were brought to Manila by Japanese 
boats. And in the Japanese vessel, they had to serve us food, 
and it happened, my dear Chairman, that we were a little bit 
treated better than the Americans by the Japanese. I was 
commissioned to distribute food to the prisoners of war, 
including the Americans who were with us in the boat, and 
naturally, I know that the Americans were my brothers-in-arms 
and so I had to give them more food. They were very thankful, 
and when we reached Manila, Mr. Chairman, we were imprisoned in 
the ``Bilibid Prison'' in Manila. I saw most American prisoners 
were there, they came from Corregidor. Just the same, I treated 
the Americans--because they were my brothers-in-arms--I used to 
give them more food than what I had given to others. So I was 
very thankful. In the concentration camp, in Camp O'Donnell, 
Mr. Chairman, we used to get food from the headquarters, and 
the same, I treated our American brothers better than what I 
treated others.
    Thank you, Mr. Chairman.
    Chairman Akaka. Thank you very much, Mr. Asuncion.
    Mr. Valdez?
    Mr. Valdez. Thank you, sir. During my enlistment, we served 
during the liberation. We have rendered services in the right 
flank of General Dalton Pass, the road going to the Northern 
Luzon. That is, sir, where our unit was assigned during the 
retreat of the Japanese. That was the time when we were at the 
right flank of General Dalton Pass, assigned in a Spanish trail 
in Carranglan, Nueva Ecija. That is during the liberation. And 
the greatest mission we have participated in is in the rescue 
of the 600 American and Canadian prisoners in Cabanatuan, 
Philippines. We were awarded the Bronze Star Medal in that 
retreat. That is the most important reaction I have performed, 
rendered, to the American forces.
    Chairman Akaka. Thank you very much, Mr. Valdez.
    This has been a great hearing. In closing, I again thank 
all of the witnesses for appearing today. I know that some of 
you have traveled a great distance to be here to testify and to 
witness this hearing. I want you to know that we truly 
appreciate you taking the time to give us all a better 
understanding of the issues surrounding the service of the 
Filipino World War II veterans, and you have done that. It is 
now in the record and we will proceed from here on S. 57 and 
look forward to working hard on that.
    So again, thank you very much.
    [Applause.]
    [Whereupon, at 12:08 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              

    Prepared Statement of Hon. Harry Reid, U.S. Senator from Nevada

    Mr. Chairman, I speak today in support of Senate Bill 57, the 
Filipino Veterans Equity Act of 2007. This important legislation would 
provide full restoration of veterans' benefits by the Department of 
Veterans Affairs (VA) to surviving World War II veterans of the 
Commonwealth Army of the Philippines, the Philippine Scouts, and those 
individuals from the Philippines who served in the United States Armed 
Forces organized resistance units.
    During the Second World War, President Franklin Roosevelt signed an 
executive order to draft Filipino troops into the United States Army. 
When the Japanese invaded the Philippines in 1941, it was the Filipinos 
who made up the majority of the troops there. Many of these men fought 
alongside American servicemembers, while others battled with organized 
resistance units until the liberation of these islands in 1944. 
Commander Francisco Cedula, who currently resides in Las Vegas, Nevada, 
was one of those individuals who fought in the southern front of Luzon. 
He led resistance fighters in cooperation with the United States Army 
in the liberation of a concentration camp in Manila on February 3, 
1945.
    When the war ended, these heroic Filipino fighters, including 
Commander Cedula, were stripped of their eligibility for full veterans' 
benefits and have only received minimal compensation for service-
related disabilities. In the years since, our Filipino veterans have 
been fighting another battle--a battle with the courts and Congress--to 
receive the full benefits they deserve and were promised by the United 
States Government. Current law denies many of them full VA benefits, 
including pensions for low-income veterans over 65 and survivors' death 
pension. Other denied benefits include veterans' health care, home 
loans, education assistance, job training, and handicap adjustments for 
a house or car.
    Last week, Commander Cedula presented me with his book entitled 
``The Endangered Species--Filipino WWII Veterans.'' This is the second 
book in which he has chronicled the bravery of World War II Filipino 
veterans and the subsequent struggles they faced after serving. After 
speaking to Commander Cedula and listening to his personal story, I 
believe that the title of his book makes a great deal of sense. These 
heroic men are an endangered species. The government must fulfill its 
obligations to all of our Nation's veterans and military retirees. For 
me, this is a matter of basic fairness and that is why I am a cosponsor 
of this legislation.
    The Filipino Veterans Equity Act would allow the 50 servicemembers 
in the State of Nevada and approximately 7,000 Filipino veterans 
nationwide to be eligible for all veterans' benefits programs 
administered by the Department of Veterans Affairs. Of the 250,000 
Filipino veterans who fought alongside the American forces, 
approximately 20,000 remain. We must fully restore the rights, 
privileges, and benefits guaranteed while many of these heroes are 
enjoying their twilight years.
    I would like to commend my dear friend and colleague, Senator 
Inouye, for more than 16 years of service to end this unfair policy. I 
would also like to thank Chairman Akaka, Ranking Member Craig, and 
other Members of the Senate Veterans' Affairs Committee. I look forward 
to working with you all on this 
important legislation.
                                 ______
                                 
    Prepared Statement of Hon. Sherrod Brown, U.S. Senator from Ohio

    Thank you Mr. Chairman.
    I am glad we are holding this hearing. In my home state of Ohio, 
there are approximately 13,000 Filipino Americans.
    That is a small portion of the approximately 2 million Filipino 
Americans nationwide. The percentage of Ohio Filipino veterans from 
World War II is even less. This small number doesn't mean Ohio is not 
indebted to their service.
    Whether it is the Veterans Memorial on Susanna Way in New Richmond 
or the Veterans Bridge spanning the Muskingum River in Zanesville, Ohio 
is home to numerous monuments celebrating the heroism of our Nation's 
veterans.
    The Filipino veterans served our Nation with distinction. Like 
other veterans, these veterans deserve our respect, our gratitude, and 
our commitment to provide the compensation they have earned with their 
service.
    The Filipino veterans were drafted into service by President 
Franklin D. Roosevelt and they answered the call of duty. They helped 
defeat tyranny at a time when America needed their help the most.
    After the war, many of these soldiers were denied veterans status 
and deprived of the same benefits their American counterparts received. 
They proudly and bravely served this Nation in war; it is our 
obligation to serve them in peace time.
    We have been negligent and are terribly late in providing for these 
veterans who fought for the Untied States. Today, we can make things 
right.
                                 ______
                                 
                Prepared Statement of Hon. Bob Filner, 
                  U.S. Representative from California

    Chairman Akaka, Ranking Member Craig and Committee Members, I thank 
you for holding this hearing on the ``Filipino Veterans Equity Act'' 
(S. 57), introduced by Senator Inouye.
    The story of the Filipino World War II Veterans is well-known in 
Congress: how, as residents of a territory of the United States, they 
were drafted into armed service under the command of the United States 
Army by President Franklin D. Roosevelt; how they fought bravely, side-
by-side with American soldiers, most notably during the epic battles of 
Bataan and Corregidor; how they suffered and died during the Bataan 
Death March and in prisoner-of-war camps; and how they successfully 
held off the enemy, allowing the United States precious time needed to 
disrupt the enemy's plan for conquest of the Pacific.
    Hundreds of Congressmembers and Senators have cosponsored 
legislation over the years to restore the benefits and the honor that 
were stripped from many of these brave and loyal men by the Rescission 
Acts passed by the 1946 Congress.
    Many were appalled by this act of Congress, viewing it as unjust at 
best but in truth, completely immoral. President Harry S. Truman stated 
on February 20, 1946, when the Rescission Acts were passed, 
``Philippine Army veterans . . . fought, as American nationals, under 
the American flag and under the direction of our military leaders . . . 
I consider it a moral obligation of the United States to look after the 
welfare of the Philippine Army veterans.''
    President William J. Clinton said, on October 17, 1996 as he signed 
a Presidential Proclamation on the anniversary of the 1944 return of 
the United States forces to liberate the Philippines, ``I urge all 
Americans to recall the courage, sacrifice, and loyalty of Filipino 
Veterans of World War II and honor them for their contributions to our 
freedom.''
    On July 26, 2001 in his greeting to the Filipino Veterans, 
President George W. Bush said, ``Filipinos fought with unwavering 
loyalty . . . under the command of General Douglas McArthur . . . and 
thousands gave their lives in the battles of Bataan and Corregidor . . 
. During the three long years following these battles, the Filipino 
people valiantly resisted a brutal Japanese occupation with an 
indomitable spirit and steadfast loyalty to America.''
    The issue of equity for Filipino World War II Veterans has always 
been a bipartisan battle. Over the years, I have been proud to join 
with Congressman Benjamin Gilman and Congressman Darrell Issa in the 
introduction of the ``Filipino Veterans Equity Act'' in the House of 
Representatives. Senator Inouye has carried the bill in the Senate for 
many years.
    We have made some progress by passing access to VA health care and 
improvements in benefits for many Veterans who live in the United 
States. Now, it is time for us to resolve, in bipartisan unity, to 
complete the job and, once and for all, pass the ``Filipino Veterans 
Equity Act.''
    This must be the year to pass the Equity Bill. Once there were at 
least 200,000 Filipino World War II Veterans. Now the estimate is that 
there are 20,000.
    We must, as a moral Nation, face this issue directly and pass 
legislation to restore the benefits that were promised and earned but 
then taken away. We must, as a moral Nation, face this issue directly 
and pass legislation to restore the status of veteran to these 
honorable men, a designation they so richly deserve.
    If not now, when?
                                 ______
                                 
            Prepared Statement of Hon. Michael Y. Magaoay, 
                    State Representative from Hawaii

    Chairman Akaka, Ranking Member Craig, and Members of the Committee, 
I am unable to be with you today, due to the critical time of the State 
Legislative process and so I offer my written testimony. I appreciate 
you holding this hearing concerning this very significant issue. The 
Filipino Veterans Equity Act of 2007 represents the solution to a 
problem that has gone unresolved since 1946. As a proud Filipino 
American, and as Chair of the Hawaii State Filipino Caucus I can assure 
you that the Filipino community is monitoring the progress of this 
measure, and are determined as ever to finally gain equity for these 
veterans.
    In 1941, on the order of President Franklin D. Roosevelt 120,000 
soldiers were drafted from the Philippine Commonwealth Army to fight 
alongside the U.S. Armed Forces in World War II. These soldiers served 
bravely with the promise of the same benefits as any other member of 
the U.S. Armed Forces. President Truman saw it as a ``moral 
obligation'' to take care of these Filipino Veterans. Unfortunately in 
1946, the U.S. Congress didn't feel the same way, as they rescinded 
President Truman's promise to the Filipino veterans by stripping them 
of their U.S. veteran status.
    The Filipino veterans of World War II are simply asking for what 
they are due. What they seek is recognition of the sacrifices they have 
made for this country. As I write this testimony we arrive at the 65th 
anniversary of The Bataan Death March, a famous example of the 
sacrifice made by the Filipino veterans on behalf of this country. 
While I realize that the benefits are the issue at hand here, what I 
believe to be the principal importance, is that our Nation recognizes 
and honors the sacrifice and service of these Filipino Veterans. This 
is a country that is built on honor and service, and so it is 
unacceptable for the brave military service of these men to go 
unrecognized for over 60 years.
    The U.S. Department of Veterans Affairs and the Government of the 
Philippines estimate that this year there will be less than 20,000 
Filipino Veterans living within the United States and in the 
Philippines. Most of them are well into their 80's and 90's and their 
numbers are dwindling. Many veterans have passed on with the memory of 
a promise unfulfilled. Let us take this opportunity to recognize and 
honor those who remain, and grant them what they were promised all 
those years ago.
    As part of the Filipino package, I have introduced House and 
concurrent resolutions in support of the Filipino Veterans Equity Act 
of 2007. We at the Filipino Caucus are urging our fellow Hawaii State 
Legislators to lend their support, so that Hawaii's voice is firmly 
behind the Filipino Veterans.
    Again, I would like to thank this Committee for holding this 
hearing. The work you are doing is invaluable in bringing awareness to 
this long standing injustice. It is my hope that this 110th Congress 
will see the passage of this measure so that the Filipino Veterans can 
receive what they are due: equal benefits and more importantly 
recognition and honor for serving this great country.
    Aloha Ke Akua.
                                 ______
                                 
    Prepared Statement of Amy Agbayani, Ph.D., Vice Chair, National 
 Federation of Filipino American Associations Region 12 (Hawaii, Guam, 
             and Commonwealth of Northern Marianas Islands)

    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, as Vice Chair of the National Federation of Filipino American 
Associations (NaFFAA) Region 12, I thank you for the opportunity to 
present this written testimony in unified support of the Filipino 
Veterans Equity Act.
    NaFFAA Region 12 represents the interests of Filipinos in Hawaii, 
Guam, and the Commonwealth of Northern Marianas Islands. NaFFAA Region 
12 is an affiliate of the National NaFFAA, which is recognized by 
Washington policymakers, private industry and national advocacy groups 
as the Voice of Filipinos and Filipino Americans throughout the United 
States. We are a non-partisan, non-profit national affiliation of more 
than five hundred Filipino American institutions and umbrella 
organizations that span twelve regions throughout the continental 
United States and U.S. Pacific territories.
    NaFFAA strongly supports S. 57 and H.R. 760 that would recognize 
the contributions of Filipino WWII veterans to the U.S. Armed Forces, 
and reinstate to them veterans' benefits that were dropped as a result 
of the 1946 Rescission Act. Your leadership is needed to bring social 
justice to our aging Filipino veterans. We are proud that Mr. Art 
Caleda, NaFFAA Region 12 leader, who is among the dwindling numbers of 
surviving Filipino veterans, is presenting testimony today. Please 
enact S. 57 and H.R. 760.
                                 ______
                                 
               Prepared Statement of Bryan Andaya, Esq., 
                United Filipino Community Council (UFCH)

    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, as President of the United Filipino Community Council (UFCH), 
I thank you for the opportunity to present this written testimony in 
emphatic support of the Filipino Veterans Equity Act.
    Founded in 1959 to help Filipinos play a larger role in the State 
of Hawaii, the mission of the Council is to promote a sense of unity, 
friendship, camaraderie and mutual assistance among Filipinos in Hawaii 
while promoting and perpetuating the Filipino heritage and culture. 
Today, the Council consists of six Island Councils with jurisdiction 
over 100+ Filipino organizations and a combined membership of about 
10,000 from every major island in the State.
    The Council had passed a resolution at our statewide annual 
convention in July 2006 to support local and national initiatives to 
restore parity and equity for Filipino WWII veterans' benefits that 
were rescinded by the U.S. Government in 1946.
    The yearlong Filipino Centennial Celebration Commission events in 
2006 have raised community awareness, support and outrage at the 
humiliating plight of our Filipino veterans. The surviving Filipino 
veterans deserve their due social justice and no less for their loyalty 
and service to the U.S. Armed Forces, in order to protect America's 
diverse people and U.S. Territories. Your help to enact S. 57 and H.R. 
769 is critical not only to the veterans' human dignity, but also to 
the international image of America's promise to allied troops 
yesterday, as well as today. Thank you for the opportunity to voice the 
views of our Filipino community in Hawaii. The Council thanks you for 
your public service to uphold social justice for all, 
not just a few.
                                 ______
                                 
          Prepared Statement of Jenny L. Batongmalaque, M.D., 
            Executive Director Filipino Veterans Foundation

    Mr. Chairman, Senator Akaka, and Members of the Committee, I am 
Jenny Batongmalaque, a geriatrician, friend and advocate of Filipino 
WWII Veterans and all Veterans and most importantly an enlightened 
daughter of a Bataan Defender.
    Before I validate my recommendations for policy in looking after 
the survivors and the ever-increasing number of widows, I am compelled 
to tell my story. I discovered a pocket diary of my father's war 
memoirs and his autobiography, a month after he died in 1995 at the age 
of 89. He had kept it so well during his lifetime, that when I 
discovered it, it struck me as a lightning bolt that changed the course 
of my life and kept my profession as a physician focused on the care of 
the elderly.
    When I immigrated to the United States in a tumultuous year in 
America, in 1966, I was given the opportunity to pursue my highest 
attainment that is to practice medicine in the United States. I was the 
recipient of my father's educational benefits on account of his being a 
USAFFE Veteran. These benefits came from the Philippine Veterans 
Administration and that is how I completed my Medical degree.
    When my father joined us in America, in 1975, he was jolted to find 
out that his services were not recognized by the USVA because of an 
existing law, unbeknownst to him and his comrades-in-arms. It is a law 
that still exists, the Rescission Act of 1946, which has denied them 
recognition of their services and therefore, their GI Bill of Rights. 
As a matter of fact he was not qualified to receive health services in 
the VA, because the attending clerk never heard of the USAFFE, the 
United States Army Forces in the Far East. My father never spoke of 
being a Veteran nor pursued any benefits in the twenty years he resided 
in America, since that initial rejection in 1975.
    Hence, the impact of my total ignorance of his plight as a Veteran 
drove me to conduct a 10-year longitudinal study on 300 of his cohorts 
in the Los Angeles County. That was in 1996. Last year, I had published 
the results of that study which had been submitted to the House 
Committee on Veterans' Affairs hearing last 
February 15.
    Seeing the rapid disappearance of the WWII Veterans, with only 10 
percent left in the cohort study group and that goes extraponentially 
to the population group in question in the Filipino Veterans Equity Act 
of 2007, I am urgently asking Congress to consider giving them the 
recognition they rightfully deserve, for the few remaining years left, 
for they have lived long enough, suffered long enough and deprived long 
enough as they approach their end of life.
    We have noted the significant rise in numbers of widows. These are 
the octogenarian women who live alone and are victims of the poverty of 
neglect and want even while tending to their frail beloved Veteran.
    If we go back in time to see how the wounded WWII GI soldiers were 
attended to when they returned home, since they found their mothers and 
sisters and wives not at home but working as Rosie the Riveters and 
some other employment to make a living, the wounded Veterans were 
provided a daily schedule rehabilitated in some Quonset hut at the base 
during the day, to return home at night in the safe and stable embrace 
of their families.
    Similarly, or along simplistic lines, the plan of the Filipino 
Veterans Foundation, of which I serve as its Executive Director is to 
gather those in need of attention and place them in some Quonset hut or 
equivalent thereof, during the day for an adult day health care 
program, and at night return them safely to a stable environment 
wherever they choose to live.
    We want to show our returning young, 19-year-old Veterans from the 
Iraqi war and all other wars that they are not to be abandoned as they 
return home and advance in years to face the challenges confronting 
their health, as all of them are victims of Post-Traumatic Stress 
Disorder, being exposed in harms way. Mr. Chairman, our Veterans ask 
for so little, in return for the sacrifice they had given so that we 
may all live in our own pursuits of happiness, giving us a chance to 
live in peace and democracy instead of war and terrorism.
    The sons and daughters of these Veterans are ready, willing and 
able to return the favor by taking care of the frail elderly in 
America, which will soon be a fifth of the total population in America, 
projected to be much sooner than in the middle of this Century. These 
sons and daughters are filled with love and gratitude of their beloved 
Veterans' contribution to our democracy, and that tribute includes all 
Veterans of all wars, not just Filipino WWII Veterans who are few and 
far between and soon will be extinct.
    So, find an empty lot for us, Mr. Chairman, whether in Central Los 
Angeles, East L.A., West L.A., South Bay or the Valleys and place one 
or two Quonset huts for us to demonstrate our program which will add 
quality to the lives of our Veterans and you will find that when you 
involve the family it will come out less expensive to our government 
because that tender love in the equation is priceless, which brings us 
closer to justice. And this is why I chose to be an American citizen, 
where impossible dreams can come true especially when the heart is in 
the right place, and in God we trust.
    God Bless America!
    Thank you, Mr. Chairman, for allowing me to express my views.
                                 ______
                                 
  Prepared Statement of Cynthia C. Cabot, Board Member, Guam Liaison, 
    National Federation of Filipino American Associations Region 12

    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, as Board member and Guam Liaison to the National Federation of 
Filipino American Associations (NaFFAA) Region 12, I thank you for the 
opportunity to present this written testimony in full support of the 
Filipino Veterans Equity Act.
    NaFFAA Region 12 represents the interests of Filipinos in Hawaii, 
Guam, and the Commonwealth of Northern Marianas Islands. NaFFAA Region 
12 is an affiliate of the National NaFFAA, which is recognized by 
Washington policymakers, private industry and national advocacy groups 
as the Voice of Filipinos and Filipino Americans throughout the United 
States. We are a non-partisan, non-profit national affiliation of more 
than five hundred Filipino American institutions and umbrella 
organizations that span twelve regions throughout the continental 
United States and U.S. Pacific territories.
    Social justice is long overdue for Filipino World War II veterans 
in Guam. As young men, they loyally responded to America's call to 
serve in the U.S. Armed Forces. Their bravery in guerilla warfare 
played a vital role in bringing World War II to an earlier end, 
avoiding further bloodshed and suffering. As they age, the impact of 
rescinded veterans' benefits is taking a toll on their quality of life, 
yet their patriotism to the United States is unwavering. Thus, your 
support of the Filipino Veterans Equity Act is also about retaining 
human dignity. We look to your leadership to do the right thing. Please 
enact S. 57 and H.R. 760. Your important work on the Senate Veterans' 
Affairs Committee is greatly appreciated.

  Prepared Statement of Arcadio Calabas, President, Illinois Veterans 
    Equity Center and the American Legion Filipino American Post 509

    Mr. Chairman and distinguished Members of the U.S. Senate Committee 
on Veterans' Affairs:
    My name is Arcadio V. Calabas. I speak on behalf of the Illinois 
Veterans Equity Center and the American Legion Filipino American Post 
509. The Illinois Veterans Equity Center is part of the newly formed 
National Alliance for Filipino Veterans Equity.
    I served as 3rd Lt. Field Artillery, 301st FA Regiment with ASN 
021326 of the Philippine Commonwealth under the command of the United 
States Armed Forces in the Far East from December 12, 1941 to June 21, 
1946. My service was pursuant to the Executive Order of the U.S. 
President Roosevelt dated July 26, 1941.

                              INTRODUCTION

    The world will long remember the epic struggle put up by the 75,000 
Filipino and 12,000 American soldiers in the blood-stained jungles and 
along the rugged coasts of Bataan for more than three (3) months in 
1942. They fought shoulder-to-shoulder against the superior force of 
the Japanese Imperial army in defense of freedom and democracy.

                           TESTED COMRADESHIP

    Our comradeship with the American soldiers was tested in many ways. 
During the last month's battle, as we fought side-by-side in the 
battlefields of Bataan on empty stomachs--many ridden with malaria and 
weakened by malaria--we still maintained our high morale. After the 
surrender of Bataan, we marched together during the Death March and we 
suffered together in the concentration camp in high spirits even in the 
most adverse condition of starvation and widespread disease.
    Despite the harrowing condition brought by the Fall of Bataan on 
April 9, 1942, the Filipino soldiers and the brave guerilla fighters 
under the command of U.S. officers had given the same undying loyalty 
to the American flag as the American soldiers did throughout World War 
II.

        ACCOMPLISHMENT OF THE DEFENDERS OF BATAAN AND CORREGIDOR

    With your indulgence, please allow me to state what could be 
considered the most important accomplishment of the defenders of Bataan 
and Corregidor--they disrupted the timetable of the Japanese forces in 
conquering the Philippines. This disruption prevented the Japanese 
forces from advancing to Australia where they could have built a strong 
military base and make use of the oil resources thereat. The war in the 
Far East could have been longer with tremendous loss of lives on the 
part of the U.S. Allied Forces.
    For this accomplishment, the whole world will long remember the 
gallantry of the Filipino and American troops who fought and stood 
together in the face of overwhelming odds in Bataan and Corregidor in 
1942.

                            SCARS OF THE WAR

    It is indeed very hurting and disappointing that in 1946, U.S. 
Congress passed the Rescission Act that cutoff the promised benefits to 
the Filipino WWII veterans. However, President Harry Truman admitted 
and said then, ``It is the moral obligation of the U.S. to look after 
the welfare of all Filipino WWII veterans.''
    For the past 61 years we had been suffering from injustice, unfair 
treatment and inequality because the U.S. Congress has failed to give 
us back the benefits that rightfully belongs to us. The gallant deeds 
of the Filipino WWII veterans have surely faded away in the minds of 
America's policymakers.

                               CONCLUSION

    U.S. has spent vast amounts of money for Germany, France, Russia 
and Iraq in building democracy throughout the world but failed to 
reward those who fought and risked their lives 65 years ago to ensure 
the freedom and democracy we are all enjoying.
    For the moment, we still have faith in America's goodness. With 
your enlightened consideration of holding a public hearing and taking 
on the issue plus the persistence of the Filipino American advocates, 
the last battle for FULL EQUITY may still be won--something all freedom 
loving Americans would like to see happen before the aging Filipino 
WWII veterans will all be gone.
    I would like to end my testimony by sharing to you what Her 
Excellency Kristie A. Kenney, U.S. Ambassador to the Philippines told 
me when I met her at the Shrine of Valor in Bataan last year, she said, 
`` Mr. Calabas, thank you for your sacrifices, our world is more 
peaceful and prosperous.''
    Thank you and may God bless us all!
                                 ______
                                 
               Prepared Statement of Charlene Cuaresma, 
              President, Filipino Coalition for Solidarity

    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, As President of the Filipino Coalition for Solidarity, I thank 
you for the opportunity to present this written testimony in urgent 
support of the Filipino Veterans Equity Act.
    Since its inception in 1990, the Coalition has represented more 
than 50 Filipino community leaders whose aim is to advocate for social 
justice issues, and to empower Filipinos to make socially responsible 
contributions to Hawaii and our global neighbors through community 
service, education, advocacy, and social action.
    Filipino WWII Veterans equity has been among the top social justice 
issues for Coalition advocates. Reinstatement of veterans' benefits is 
also a matter of human dignity. In Hawaii, for example, the issue of 
family reunification is paramount for our elderly Filipino veterans. In 
November 2006, a Filipino veteran died in destitute with no next of 
kin. Immigration and financial barriers prohibited his family from 
coming to Hawaii to transport his remains back to the Philippines for 
burial. Our Filipino veterans have earned this entitlement by their 
commitment to the U.S. Armed Services. Filipino veterans bravely put 
themselves in harm's way to protect the interests of the United States 
and its citizens.
    Your help to pass the Filipino Veterans Equity Act would go a long 
way to bring judicial closure and dignity to our Filipino WWII 
veterans. Please support the enactment of the Filipino Veterans Equity 
Act.
                                 ______
                                 
Prepared Statement of Susan Espiritu Dilkes, Member, National Alliance 
 for Filipino Veterans Equity and the American Coalition for Filipino 
                                Veterans

    This week, I personally attended the funerals of two Filipino 
American Veterans of World War II. Both died without receiving any of 
the benefits they were promised when they joined the American Armed 
Forces in 1941.
    My name is Susan Espiritu Dilkes. I am the daughter of a Filipino 
World War II veteran, member of the National Alliance for Filipino 
Veterans Equity and the American Coalition for Filipino Veterans. I am 
also the Executive Director of Filipino American Service Group Inc. 
(FASGI), a nonprofit community-based, social service agency in Los 
Angeles County, which was started in October 1981, when a homeless 
Filipino World War II veteran was found sleeping in the garage at the 
home of Mrs. Remedios Geaga, one of the founding members of our agency. 
Since then, FASGI has assisted thousands of Filipino American World War 
II veterans with temporary shelter, health and mental health issues, 
and food distribution. FASGI operates a transitional housing shelter 
for independent living for more than four hundred (400) World War II 
veterans.
    In 1996, with the help of the Filipino American WWII veteran's 
volunteers, FASGI launched FILVOTE, the Filipino American Voters 
Mobilization, and has registered more than 13,000 Filipino American 
voters in Los Angeles County.
    The first thing that I want to impress on you is the fact that most 
of the Filipino American World War II Veterans are in their 80's. Many 
are in poor health, and the time for helping any of them is rapidly 
slipping away.
    An example of the urgency of this matter arose from our own work 
program, during the last year.
    In early 2006, FASGI obtained a grant from the State of California 
to do outreach to Filipino American World War II Veterans who are still 
alive and living in Los Angeles. The goal of the outreach is to reduce 
the risks of poor health resulting from inadequate housing, and to 
refer homeless WWII Veterans to our shelter, and to enroll them in our 
Healthy Active Lifestyle Program (HALP). For the past twelve months, 
FASGI has worked at this outreach program, but has referred only six 
WWII veterans to our transitional housing shelter.
    The reason for our lack of success is that there are so few of the 
veterans left.
    If Congress does not act soon, there will be no one left upon whom 
to confer the benefits these men were promised over 60 years ago. This 
is your last chance to correct a wrong, which is now more than half a 
century old. I believe, you are men and women, of good intention, and 
now, it is time for those intentions to be converted into law.
    The second point worth noting is that there are benefits, beyond 
those that are visible on the face of this legislation. First, the 
passing of S. 57, granting full equity benefits for the Filipino 
American WWII veterans, provides the United States with an opportunity 
to rescue its reputation as a fair, honest and reputable country that 
honors its commitment by helping the remaining 7,000 Filipino American 
World War II veterans who are living in the United States. Our country 
can take a long step toward rescuing its own honor.
    Third, passing S. 57, improves the foreign relations between the 
Philippines and the United States. It reduces the political irritation 
of an unfulfilled commitment to the 13,000 Filipino American World War 
II veterans who are living in the Philippines, and to the extent 
payments are made, it will improve the flow of cash to the Philippines, 
a poor country in dire need of foreign support and liquidity.
    This is the last chance any of us will have to RESCUE, both the 
Filipino American World War II Veterans and the United States from a 
broken promise.
    Finally, I would like to thank the Veteran's Affairs Committee 
Chairman, Senator Akaka, Members of the Committee, and your staff for 
allowing me to submit this testimony today.
    Thank you, and please enact and promptly implement S. 57.
                                 ______
                                 
   Prepared Statement of Max C. Florentino, President, Filipino WWII 
                      Pensioners Association, Inc.

    Mr. Chairman and Members of the Committee:
    I am a Filipino American World War II veteran resident of the 
United States, because of my 100 percent service-connected disability 
condition and 86 years old with severe pain all over my body, I can't 
travel from Los Angeles, California to Washington, DC, but as a duty to 
our country, on behalf of my fellow Filipino WWII veterans I do hereby 
respectfully submitted my reports on our relentless campaign in support 
of the U.S. Congress approval of H.R. 760, and S. 57, the Filipino 
Veterans Equity Act of 2007.
    Since early 2004, when I attended the Filipino World War II 
veterans summit presided over by Congressman Bob Filner in San Diego, 
California in which the attendees were required to obtain 60 cosponsors 
of the H.R. 677, and while Congressman Filner pledge ``to obtain 120 
more than the current 41 sponsors.''
    I tried hard to find ways as to how successful we shall be able to 
get support for Congress approval of the Equity Act. At this critical 
juncture, I sent a letter for help to President George W. Bush in whom 
the executive power resides and I depend so much upon President Bush's 
premise and promise, of which it seems I can see all around me the 
President will not fail us Filipino World War II veterans.
    I just followed President Bush's appealed for ``patience in this 
hard tasks of securing America, which you have granted in good measure. 
Our Country has accepted obligations that are difficult to fulfill and 
would be dishonorable to abandon.'' We should not, then, rest our faith 
and optimism as we continue with our letters to the President, finally 
on the first week of January 2007, it has a very wonderful result. The 
President kept his promise and listened to us.
    I received a letter from the White House which said: ``We have sent 
your message to the appropriate Federal agency that can best address 
your concerns. After reviewing your correspondence the agency will 
respond directly to you as promptly as possible.'' The following week I 
received a letter from the VA which said: ``The Filipino Veterans 
Equity Act, if enacted, would amend title 38, United States Code, to 
deem certain service in the organized military forces of the Government 
of the Commonwealth of the Philippines and the Philippine Scouts to 
have been active service for purposes of benefits under programs 
administered by the Department of Veterans Affairs (VA). Accordingly, 
qualifying Filipino veterans would become eligible for all veterans' 
benefits in the same manner and at the same rates as United States 
veterans . . . President Bush and the VA have made the interests of 
Filipino veterans a priority. We are working hard to ensure they 
receive the benefits they deserve.'' This VA letter is a sure 
Republican support to the House and Senate Veterans' Affairs Committees 
for the priority approval of Filipino Veterans Equity Act in the 110th 
Congress.
    On behalf of my fellow veterans residents of the United States who 
are actually receiving disability compensation, I respectfully request 
you to include in the amendment of H.R. 760, our benefits. Here is the 
policy of the VA: While residing in the United States we are receiving 
full dollar rates, but if we go home to the Philippines and stay 
outside the United States for 61 days, our service-connected disability 
compensation will be reduced to 50 percent of every dollar authorized.
    I earnestly appeal to the Washington leadership--from the U.S. 
Congress to the White House to the Department of Veterans Affairs to 
consider my statement of facts that hopefully should lead to the 
Congress approval of H.R. 760, not for pity and mercy to the veterans 
of the Philippine Army and the Recognized Guerrilla Fighters, but it is 
an honorable act of Congress who has included the various Philippine 
military organizations into the service of the Armed Forces of the 
United States, during World War II.
    Members of the 110th Congress cannot afford to ignore the fact that 
from the very beginning the Philippine Independence Act was approved by 
the U.S. Congress on March 24, 1934, Pub. L. No. 73-127, Section 
2(a)(12), 48 Stat. 456, 457 all military forces organized by the 
Commonwealth Government of the Philippines in December 1935, became 
``reserves'' army of the United States.
    Evidence: In 1932, while the Philippine Islands was then a colony 
of the United States, Philippine leaders Sergio Osmena, Sr., and Manuel 
A. Roxas had secured the passage of Hare-Hawes-Cutting Act from the 
U.S. Congress, granting Philippine Independence.
    Manuel L. Quezon, however, objected to the provisions contained in 
H.H.C. Law, granting the U.S. to establish military and naval bases on 
several sites such as Fort McKinley (which is now Fort Bonifacio), 
Cavite Naval Yard (Cavite City), Infantry Quarters in Intramuros, 
Hospital at Arroceros (Manila), Clark Field in Pampanga, and John Hay 
at Baguio City.
     Mr. Quezon did not like such condition of the H.H.C. Law. What he 
wanted was an absolute independence without any U.S. military and navy 
bases to be established in the Philippines. In fact, during his feud 
with Governor General in Manila, Leonard Wood, he frankly commented, 
``I prefer a government run like hell by Filipinos to a government run 
like heaven by Americans, because no matter how bad Filipino government 
might be, it can be improved.''
    In 1934, Mr. Quezon went to Washington, DC and worked hard to get 
the approval of the Tydings-McDuffie Act. His primary mission in 
relation to the law, focused solely on a clear provisions of the 
Philippine Independence Act. He opposed the inclusion of military and 
other reservations in the provisions of the Philippine Independence 
Act. But this mission of Mr. Quezon was not acceptable to the United 
States.
    A known nationalist, Mr. Quezon was aware that the United States 
will not agree with him, because in the 1930s, Japan's expansionist 
ambitions in Asia, through its Imperial forces, threatened Asian 
countries; that the Philippines under the American rule was 
strategically located and thus vital to the defense of the United 
States, and to avert the Japanese taking over the control of the 
Western Pacific Region; and because of the most popular sentiment of 
Filipinos, which was eventual Philippine Independence, the sooner the 
better, he agreed to the United States, and further continue on the 
matter after the Philippines became a self-governing nation. But the 
whole matter died with him in 1944.
    After the two sides' agreement, the Philippine Independence Act was 
approved on March 24, 1934, Pub. L. No. 73-127, which contained two 
notable sections:
    Section 10(a), 48 Stat. 456, 463 the Philippines became self-
governing nation on July 4, 1946;
    Section 2(a)(12), 48 Stat. 456, 457 which clearly showed that 
instead of only U.S. military and naval bases to be established in the 
Philippines, the U.S. Congress included various Philippine military 
organizations to be incorporated into the service of the U.S. Armed 
Forces.
    The said section reads in relevant part:
    ``To maintain [United States] military and other reservations and 
armed forces in the Philippines and, upon order of the President to 
call into the service of the [United States] armed forces all military 
forces organized by the Philippine Government.''
    The phrase ``upon order of the President'' and the part of the 
provision that says ``to call into the service of the [United States] 
armed forces all military forces organized by the Philippine 
Government'' refer to the Philippine Army, already intended by the U.S. 
Congress to be a ``reserves'' army of the United States.
    On July 26, 1941, President Roosevelt issued a military order 
calling members of these forces into the service of the United States 
Army Forces in the Far East [USAFFE]. The President's order stated in 
relevant part:
    ``[A]s Commander-in-Chief of the Army and Navy of the United States 
I hereby call and order into the service of the armed forces of the 
United States for the purpose of the existing emergency, and place 
under the command of a General Officer United States Army . . . all of 
the organized military forces of the Government of the Philippines.''
    By President Roosevelt's July 26, 1941 Order, induction of the 
Philippine Army units into the United States Army Forces in the Far 
East was somewhat gradual, but was completed on December 8, 1941 and 
they were already formed parts of the U.S. Army during World War II 
until released therefrom on June 30, 1946, per military order of 
President Truman.
    Treating the Philippine Army veterans differently before President 
Roosevelt called said army into the service of the United States Army 
became irrelevant once they were called into the armed forces of the 
United States, de facto command and control passed to the United States 
Army personnel fighting the same terms as member of the Armed Forces of 
the United States during World War II.
    Therefore, at that point the original Philippine Army status was 
abrogated they were members of the Armed Forces of the United States. 
Under the fundamental law of the United States, all persons similarly 
circumstanced should be treated alike, or those similarly situated be 
treated similarly, and the Philippine Army, Recognized Guerrilla 
Fighters, and the New Philippine Scouts should receive the same rates 
of benefits as that received by American veterans.
    Less amount of dollars in benefits to be awarded to the Filipino 
veterans would be a continuously humiliating and degrading treatment 
prohibited by the U.S. Constitution Amendments which directed the 
government to protect the veterans' rights and for them to be treated 
on the same basis as others with whom a person is similarly situated.
    The foregoing statutory provisions and military order of President 
Roosevelt are the determinative issues here--repeat determinative--as 
supplied by rational basis for Congress approval of H.R. 760, the 
``Filipino Veterans Equity Act'' of 2007.
    May I add, with passionate emphasis and not afterthought, that the 
U.S. Army members on their return to civilian life were granted full 
benefits under the GI Bill of Rights. The Filipino veterans, on the 
other hand, returned home to a cruel punishment by an unjust first and 
second Supplemental Surplus Appropriation Rescission Acts of 1946.
    Because the Commander-in-Chief of the Philippine Army 1946 accepted 
U.S. $200,000 from the United States on the condition that Philippine 
Army World War II service to the United States is not considered to be 
of service into the U.S. Army. Were you the Commander-in-Chief of your 
country can you do the same?
    Thank you Mr. Chairman, this completes my statement.
                                 ______
                                 
           Prepared Statement of Lynne Gutierrez, President, 
                    Oahu Filipino Community Council

    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, as President of the Filipino Community Council (OFCC), I thank 
you for the opportunity to present this written testimony in 
overwhelming support of the Filipino Veterans Equity Act. OFCC is 
composed of 62 member organizations on the island of Oahu in Hawaii. 
The Council's mission is to improve the quality of life for Hawaii's 
Filipinos, in order for our communities to make positive contributions 
in local, national and global arenas. Last year marked the centennial 
anniversary of the first Filipinos who immigrated to Hawaii. We are 
grateful that Filipinos have had the privilege to live, work, prosper, 
raise our families, serve in the U.S. military, and vote.
    The Oahu Filipino Community Council strongly supports S. 57 and 
H.R. 760, as many Filipino World War II veterans and their family 
members are longtime Council members. OFCC passed a resolution to 
advocate for Filipino World War II veterans benefits at our statewide 
annual convention in June 2006. These proposed bills are integral to 
the social justice that has been kept from our aging Filipino WWII 
veterans, who have served in good faith alongside U.S. Armed Forces, 
yet had their veterans' benefits rescinded. We urge you to support 
passage of S. 57 and H.R. 760. Thank you for your service on the U.S. 
Senate Veterans' Affairs Committee.
                                 ______
                                 
  Prepared Statement of Ben de Guzman, National Campaign Coordinator, 
         National Alliance for Filipino Veterans Equity (NAFVE)

    Chairman Akaka, Ranking Member Craig, and Honorable Members of the 
Senate Veterans' Affairs Committee.
    I am the National Campaign Coordinator for the National Alliance 
for Filipino Veterans Equity (NAFVE). On behalf of NAFVE, I am honored 
to be able to submit this testimony to you today in strong support of 
S. 57, the Filipino Veterans Equity Act. NAFVE is a coalition of local, 
national and international organizations and individuals committed to 
securing justice for Filipino World War II Veterans through restoration 
of U.S. Veterans status for purposes of benefits. All the groups have 
been part of a 60-year campaign to restore to Filipino WW II veterans 
their rightful claim to U.S. veterans status and recognition for their 
bravery in defending the United States.
    Since the S. 57 has been introduced in the Senate along with its 
sister bill, H.R. 760 in the House of Representatives, NAFVE has been 
working tirelessly in partnership with its member organizations, allies 
and other leaders in the community to raise awareness of the plight of 
Filipino World War II Veterans in light of their ongoing exclusion from 
the benefits promised to them by the United States Government, then 
unceremoniously stripped from them by the 1946 Rescission Act.
    Working with countless individuals and organizations around the 
country, we have discovered several encouraging findings:

    (1) The Filipino American Community's Groundswell of Support: The 
approximately 2 million Filipino Americans in this country have rallied 
behind this issue as their key political issue for this year. We know 
that having waited 61 years for restoration of the honor and dignity of 
our veterans is far too long and the community has mobilized itself as 
never before.
    (2) April 9 and the Day of Valor: Attached for your review at the 
conclusion of this testimony, please find a list of events around the 
country that commemorate April 9 as Day of Valor. This year marks the 
65th anniversary of the fall of Bataan on that day and the subsequent 
infamous Bataan Death March. Day of Valor ceremonies around the country 
not only honor the brave service and commitment of ALL of our veterans 
who fought in World War II, but also give rise to the community's 
support of the Filipino Veterans Equity Act.
    (3) Support from our Friends: As we speak with more and more people 
who are not familiar with this issue, we gain more converts to our 
cause and more support for this bill. Attached for your review at the 
conclusion of this testimony, please find a letter that has been 
circulated around the country which includes support from an incredibly 
diverse cross-section of the community, Filipino, and non-Filipino 
alike. Their collective voices join ours in calling for passage of the 
Filipino Veterans Equity Act.

    We are excited about the increasing support for this issue and hope 
that your Committee follows this momentum and helps move this bill 
forward to final passage. Our veterans have waited too long.
    Information about our Alliance is also included below. Thank you 
again for allowing NAFVE the opportunity to play a role in your 
deliberations on this important bill.

    [Letter in support of the Filipino Veterans Equity bill follows:]

                                 ______
                                 
    Dear Members of Congress: We, the undersigned individuals and 
organizations, strongly urge you to support H.R. 760/S. 57, the 
Filipino Veterans Equity Act. During World War II, Filipino Veterans 
fought bravely for the United States in the Pacific theater, only to 
have their eligibility for full benefits revoked by Congress through 
the Rescission Act of 1946. For decades, Filipino Veterans have been 
fighting this injustice, and as they enter their twilight years, are 
now dying with dreams deferred and promises unfulfilled. The Filipino 
Veterans Equity Act will restore justice for these veterans, who fought 
and sacrificed for freedom and liberty.
    While the U.S. Government has taken steps to restore some health 
care benefits to the veterans in recent years, full equity has not yet 
been achieved. Many of the veterans are now in their 80's, and too many 
of their comrades have already died without receiving the benefits they 
deserve.
    H.R. 760/S. 57 will amend current law to consider the service of 
eligible Filipino Veterans who fought in World War II to be active 
service for purposes of benefits under programs administered by the 
Secretary of Veterans Affairs.
    H.R. 760/S. 57 will undo the injustice committed against the 
Filipino Veterans through the 1946 Rescission Act, which denied these 
brave soldiers appropriate recompense for their duty.
    H.R. 760/S. 57 will allow these veterans to spend their golden 
years enjoying the fruits of their sacrifices for freedom and liberty, 
instead of fighting the very government they fought for in World War 
II.
    We need your help now to provide justice to our Filipino Veterans 
who fought bravely under the U.S. flag as part of the ``Greatest 
Generation.'' We turn to you to help undo decades old injustice done to 
those who have served our country most bravely. Your support of H.R. 
760 will help close the book on a shameful chapter of our nation's 
history, and will honor the military service of veterans who have been 
waiting for over sixty years for this recognition. Please help us pass 
H.R. 760.
            Sincerely,
National Organizations
    National Council of Asian Pacific Americans, Washington, DC
    Asian American Institute, Chicago, IL
    Asian American Justice Center, Washington, DC
    Asian Pacific American Labor Alliance, AFL-CIO, Washington, DC
    Asian Pacific Islander American Health Forum, Washington, DC
    Hmong National Development, Washington, DC
    Japanese American Citizens League, Washington, DC
    Leadership Education for Asian Pacifics, Los Angeles, CA
    National Asian American Pacific Islander Mental Health Association, 
Denver, CO
    National Asian Pacific American Bar Association, Washington, DC
    National Asian Pacific American Women's Forum, Washington, DC
    National Coalition for Asian Pacific American Community 
Development,
      Washington, DC
    National Korean American Service & Education Consortium
    Southeast Asian Resource Action Center, Washington, DC
    National Assn of Sons & Daughters of FilAm World War II Veterans 
USA,
      Seattle, WA
    National Network for Veterans Equity (NNVE), San Francisco, CA
    National Federation of Filipino American Associations (NaFFAA),
      Washington, DC
Local Organizations
    Filipino World War II Veterans Federation of San Diego County, San 
Diego, CA
    Filipino American Support Group Inc. (FASGI), Los Angeles, CA
    Asian Pacific American Legal Center, Los Angeles, CA
    Veterans Equity Center (VEC), San Francisco, CA
    Erasto Batongmalaque Foundation, Inc. (ERBF), Los Angeles, CA
    Federation of Filipino American Associations, Inc. (FFAAI), Los 
Angeles, CA
    FilAm Community of Los Angeles (FACLA), Los Angeles, CA
    Filipino American Veterans & Families, Inc (FAFVI), San Francisco, 
CA
    Filipino Civil Rights Advocates (FilCRA), Oakland, CA
    National Federation of Filipino American Associations, Region 5, 
Broomfield, CO
    Asian Gold, Broomfield, CO
    Filipino-American Community of Colorado, Brighton, CO
    Philippine Nurses Association, Broomfield, CO
    Aurora Asian Partnership, Aurora, CO
    Philippine American Society of Colorado, Parker, CO
    Asian Gold, Westminster, CO
    Asian Roundtable of Colorado, Aurora, CO
    Uplift Internationale, Littleton, CO
    Aurora Asian Partnership, Aurora, CO
    University of the Philippines Alumni Association, Colorado Chapter, 
Aurora, CO
    ANCOP Foundation USA, Colorado Chapter, Aurora, CO
    Fil-Am Veterans Society, Inc. of Jacksonville, Florida (FASI), 
Jacksonville, FL
    Illinois Veterans Equity Center (IVEC), Chicago, IL
    Filipino American Democrats of South New Jersey, Cherry Hill, NJ
    Philippine Nurses Association of Pennsylvania and New Jersey, 
Cherry Hill, NJ
    AALDEF, New York, NY
    Filipino American Republicans of Virginia (FARV), Alexandria, VA
    Filipino American Veterans of Hampton Roads (FAVHR), Virginia 
Beach, VA
    Filipino Intercollegiate Networking Dialogue (FIND), Fairfax, VA
    Filipino War Veterans of Washington (FWVW), Seattle, WA
    Bataan & Corregidor Survivors Assn & their Families (BCSA&TF), 
Seattle, WA
    KAC-DC, Washington, DC
Individuals
    Ben Cayatano, Former Governor of Hawaii
    Mark Pulido, ABC School Board
    Armin Reyes, ABC School Board
    Chris Cabaldon, Mayor of West Sacramento
    Elito M. Santarina, City Councilman of Carson, CA, Mayor Pro 
Tempore
    Robert Bunda, Hawaii State Senator
    Will Espero, Hawaii State Senator
    Lorraine R. Inouye, Hawaii State Senator
    Ron Menor, Hawaii State Senator
    Kris Valderrama, Maryland House of Delegates
    Velma Veloria, Former Washington State Assembly Member
    Ferdinand Tolentino, Former Board Member Virginia Beach Public 
Schools
    John Amores, West Virginia House of Delegates
The Hawaii State House of Representatives Filipino Caucus
    Chair Rep. Michael Magaoay
    Rep. Della Au Belatt
    Rep. Lyla B. Berg Ph.D
    Rep. Rida T. R. Cabanilla
    Rep. Jerry L. Chang
    Rep. Corinne W. L. Chin
    Rep. Lynn Finnegan
    Rep. Robert N. Herkes
    Rep. Jon Riki Karamatsu
    Rep. Joey Manahan
    Rep. John Mizuno
    Rep. Kymberly Marcos Pine
    Rep. Karl Rhoads
    Rep. Roland D. Sagum III
    Rep. Alex M. Sonson
    Rep. James Kunane Tokioka
    Rep. Clift Tsuji
    Rep. Glenn Wakai


------------------------------------------------------------------------

------------------------------------------------------------------------
Lisa Mamangon...................  AZ................  85243
Salvador I. Lopez...............  AZ................  85009
Stacey Castor...................  AZ................  85281
Danielle Tejada.................  AZ................  85226
Alejandra Hernandez.............  AZ................  85041
Kristin Reynante................  AZ................  85224
Melanie Garcia..................  AZ................  85044
Angelie Meehan..................  AZ................  85041
Louie Depante...................  CA................  91326
Benjamin DeGuzman...............  CA................  90019
Benita Benavides................  CA................  94577
Evelyn Bernardo.................  CA................  92672
Meleilani Barnes................  CA................  92115
Ellen Y. Gomez..................  CA................  91381
Mayumi Santiago-Shupe...........  CA................  95835
Jose Angelo R. Benavides........  CA................  94577
Donna LaVigne...................  CO................  Broomfield
Romeo Magalong..................  CO................  Lakewood
Giselle Rushford................  CO................  Westminster
Edith Pasion....................  CO................  Aurora
Arthur & Joy Meyers.............  CO................  Denver
Elbert Eloriaga.................  CO................  Parker
Gloria Williams.................  CO................  Aurora
Jaime Yrastorza, DMD............  CO................  Littleton
Nestor & Elnora Mercado.........  CO................  Denver
Joseph Noli Lopez...............  CO................  Parker
Malou Mateo Stirman.............  CO................  Brighton
Felino Paran....................  CO................  Aurora
Bart & Marlene Perez............  CO................  Aurora
Raymond Teodoro.................  CT................  6450
Elizabeth Kim...................  DC................  20009
Toni Daya-Luetgers..............  GA................  30075
Marilyn Z. O. Doromal...........  GA................  31906
Sarah Hawk......................  GA................  30309
Onofre R. Paguio................  GA................  30604
S Beltran.......................  IL................  60618
Maricor Lacaya..................  IL................  60465
Angelito Santos.................  MA................  2375
Adelamar Alcantara..............  NM................  87105
Theodore S. Jojola..............  NM................  87109
Rey Antonio.....................  NV................  89110
Lilia Ledesma...................  NY................  10950
Mary Ann Pearson................  NY................  10022
Grace Rodriguez.................  TX................  77478
Derick Mendoza..................  TX................  77082
Belle Quisel-Sibug..............  TX................  77099
Bobby Reyes.....................  TX................  77536
Andrew B. Dompao................  TX................  77477
Florencio Guinhawa..............  TX................  77083
Cesar M. Naguit.................  TX................  77581
Arsenio R. Martin...............  TX................  77642
AJ Rosario, M.D., M.P.H.........  TX................  77584
Tess Tuazon.....................  TX................  77042
Norma Benzon....................  TX................  77479
Meredith Benzon.................  TX................  77479
Honesto.........................  TX................  77479
Gary Ilagan.....................  TX................  77056
Robert Pucio....................  TX................  77478
Lope G. Lindio..................  TX................  77036
Napoleon Ramirez................  TX................  76123
Jessie del Mundo................  TX................  77459
Bill Encarnacion................  TX................  77478
Celia Vasquez...................  TX................  77056
Cyril Maza......................  TX................  77082
Lina Umali......................  TX................  77055
Phoebe D. Catli.................  TX................  77071
Arlene Machetta.................  TX................  77068
Samuel Catli....................  TX................  77071
Mendel Cheng....................  TX................  77062
Ben Ongoco......................  TX................  77080
Wally C. Arias..................  TX................  77478
Travis Millard..................  TX................  77478
Paige Perez.....................  TX................  77478
Ave Basa........................  TX................  77489
Cornelia G. Emboy...............  TX................  77083
Carlo Rodriguez.................  TX................  77478
Luz Rodriguez...................  TX................  77478
Daniel Jones....................  TX................  77027
James ``Face'' Yu...............  TX................  78747
Victoria Ma.....................  TX................  77077
Rolando Ulanday.................  TX................  77082
Myrna Saludares.................  TX................  77075
Renato Famatigan................  TX................  79922
Mamta Accapadi..................  TX................  78727
Leo Dela Rosa...................  TX................  77478
Jerome Redor....................  TX................  77030
Marc Pedregosa..................  TX................  77584
Bobby Ilagan....................  TX................  77083
Kathleen Ulanday................  TX................  77478
Dan Diaz........................  TX................  77505
Ernie Azucena...................  TX................  77015
Irwin...........................  TX................  78759
Federico Villamayor.............  TX................  77003
Imelda Malapitan................  TX................  77055
Sam Barzilla....................  TX................  78713
Alex Estatis....................  TX................  77477
Nanette Lacsamana...............  TX................  77478
Munir Ibrahim...................  TX................  77024
Janella Gee.....................  TX................  77025
Patrick Nguyen..................  TX................  77075
Maria Theresa Mangahis..........  TX................  77478
Jason Redor.....................  TX................  77055
Ninfa Alcantara.................  TX................  77478
James A. Harris, Jr.............  TX................  78729
Angela L. Lee...................  TX................  77036
Daniel Mee......................  TX................  77098
Ellen L. Aguilar................  TX................  77546
James Yu........................  TX................  77008
Elsie Gaid......................  TX................  77584
Steven M DiMatteo...............  TX................  77027
Regine M Biscoe.................  VA................  Vienna
Sheena Black....................  VA................  Vienna
Andrew Lee......................  VA................  Vienna
Gem Daus........................  VA................  lexandria
Marietta Basnillo...............  WA................  99223
Annabel Garcia-Andresen.........  WA................  Seattle
Third Andresen..................  WA................  Seattle
------------------------------------------------------------------------


                       APRIL 9, THE DAY OF VALOR

    April 9, 2007 marks the 65th Anniversary of the Fall of Bataan in 
the Philippines during World War II. On April 9, 1946, Maj. Gen. Edward 
``Ned'' King formally surrendered to the Japanese army. Following the 
surrender, over 11,000 Americans and 66,000 Filipinos were relocated 
from Mariveles in Bataan to Camp O' Donnell in Tarlac. The brave 
soldiers who were forced to march suffered brutally over the course of 
the over 30 mile trek. This would go down in infamy as the ``Bataan 
Death March,'' and still stands as one of the historical milestones of 
the war.
    Today, April 9 is celebrated as a national holiday in the 
Philippines as Araw ng Kagitingan, or the ``Day of Valor.'' In the 
United States, Filipino American communities recognize the Day of Valor 
and take the opportunity not only to pay respect to the service and 
sacrifice of American and Filipino soldiers who fought, but to also 
raise awareness of the current plight of Filipino veterans, whose 
status as U.S. veterans was unceremoniously stripped from them by the 
1946 Rescission Act.
    Around the country, local communities are celebrating the Day of 
Valor this year by showing their support for the the Filipino Veterans 
Equity Act. This bill has been introduced in Congress to remedy the 
injustice of the Rescission Act and reaffirm America's commitment to 
all who fought for the United States in WWII as part of ``the Greatest 
Generation.''
    In Washington, DC, the National Alliance for Filipino Veterans 
Equity (NAFVE) will join this groundswell of support as it takes part 
in an historic hearing on this bill before the Senate Veterans Affairs 
Committee. Partnering with its members around the country, NAFVE will 
take the message of support and solidarity directly to Capitol Hill.

 list of nafve member sponsored events to commemorate the day of valor
    Current information for events as of April 6, 2007.
San Diego, CA
    Event: ``Remember Bataan Candlelight Vigil''; Time: April 9, 7 
p.m.; Location: 1243 National City Boulevard (In front of National 
City's City Hall); Contact: Joann Fields
Los Angeles, CA
    Event: 65th Anniversary of the Day of Valor: ``Remember Bataan and 
Corregidor''; Time: April 9, 10 a.m.; Location: Filipino American World 
War II Memorial, Lake Street Park, Los Angeles, CA; Sponsors: E.R. 
Batongmalaque Foundation Historical Society, Filipino Veterans 
Foundation, Veterans Center Association; Contact: Dr. Jenny 
Batongmalaque
San Frencisco, CA
    Event: Candlelight Vigil: ``Remember Bataan''; Time: April 9, 5:30 
p.m.; Location: City Hall San Francisco, CA; Sponsors: Veterans Equity 
Center, SAVE, others; Contact: Angelica, SAVE
Washington, DC
    Event: Wreath-Laying; Time: April 10, 5:30 p.m.; Location: World 
War II Memorial Washington, DC; Sponsors: Philippine Embassy, NAFVE, 
American Coalition for Filipino Veterans; Contact: Del Lorenzano
Atlanta, GA
    Event: Bataan Day Commemoration: Honoring Filipino Veterans, ``The 
Unforgotten Heroes''; Time: April 7, 3p.m.; Location: Morrow 
Presbyterian Church, Morrow, GA; Sponsors: NaFFAA-Southern Region, 
Philippine Consulate General Office, Atlanta, GA, others; Contact: 
Marilyn Doromal
Honolulu, HI
    Event: Balik-Tanaw: Remembering Bataan and Corregidor; Time: April 
15, 1 p.m.; Location: Filipino Community Center Waipahu, HI; Sponsors: 
Philippine Celebrations Coordinating Committee of Hawai'i, Consulate 
General of the Philippines; Contact: Nic Musico
Chicago, IL
    Event: 65th Commemoration of Bataan Day; Time: April 9, 9:30 a.m.; 
Location: Bataan-Corregidor Memorial Bridge (corner of State Street and 
Wacker Drive); Sponsors: Philippine Consulate General (Chicago, IL), 
Mayor's Office, Commission on Human Relations, Advisory Council on 
Veterans Affairs, Illinois Veterans Equity Center, others; Contact: 
Jerry Clarito
Cherry Hill, NJ
    Event: Commemoration of the 65th Anniversary of the Fall of Bataan; 
Time: April 9, 6:30 p.m.; Location: Bataan Death March Memorial/Rizal 
Monument Cooper Park, Cherry Hill, NJ; Sponsors: VFW Pvt. Tomas Post 
1063 and Ladies Auxiliary, Filipino Executive Council of Greater 
Philadelphia, American Legion Gen. Alejo Santos Post 717 and Ladies 
Auxiliary; Contacts: Senten Fontanilla/ Lambert Santos
Albuquerque, NM
    Event: Bataan Day Commemoration; Time: March 31; Location: 
Albuquerque, NM; Sponsors: NaFFAA-NM, others; Contact: Dely Alcantara
Houston, TX
    Event: Bataan Day Rally; Time: April 21, 2 p.m.; Location: Veterans 
Administration Auditorium, Houston, TX; Sponsors: NaFFAA, FACOST, 
others; Contact: Wally Arias
Virginia Beach, VA
    Event: Vigil for Day of Valor; Time: April 9, nightfall (7:30 
p.m.); Location: Veterans Memorial Garden, Philippine Cultural Center 
Virginia Beach, VA; Sponsors: Filipino American Veterans of Hampton 
Roads, Student Action for Veterans Equity (SAVE), NaFFAA-Capitol 
Region, others; Contact: Romy San Antonio, President

About the National Alliance for Filipino Veterans Equity
    The National Alliance for Filipino World War II Veterans Equity is 
a coalition of local, national and international organizations and 
individuals committed to securing justice for Filipino World War II 
Veterans through restoration of U.S. Veterans status for purposes of 
benefits. All the groups have been part of a 60-year campaign to 
restore to Filipino WW II veterans their rightful claim to U.S. 
veterans status and recognition for their bravery in defending the 
United States during WWII. The National Alliance's sole purpose is to 
pass the long overdue Filipino World War II Veterans Equity Act in the 
110th Congress.
    The National Alliance formed in December 2006 at a meeting of over 
60 participants including leaders from around the United States and the 
Philippines who have been working on issues of concern to the Filipino 
American and Filipino Veterans communities for decades. At the meeting, 
participants agreed that with champions of the Filipino Veterans in key 
positions of leadership in both houses of Congress, the time was right 
to secure final passage of the Filipino World War II Veterans Equity 
Act.
    The National Alliance is currently working to pass the Filipino 
World War II Veterans Equity Act in the 110th Congress. With a 
national, coordinated structure and a dedicated team of seasoned 
political professionals working in Washington, DC, the Alliance 
represents the most broad-based and well-funded effort to secure 
justice for Filipino World War II Veterans to date.
Current List of Alliance Members
    Asian Pacific American Labor Alliance (APALA)
    Bataan & Corregidor Survivors Assn & their Families (BCSA&TF), 
Seattle
    Embassy of the Philippines
    Erasto Batongmalaque Foundation, Inc. (ERBF), Los Angeles
    Federation of Filipino American Associations, Inc. (FFAAI)
    FilAm Community of Los Angeles (FACLA)
    Filipino American Democrats of South New Jersey Filipino American 
Republicans
      of Virginia (FARV)
    Fil-Am Veterans Society, Inc. of Jacksonville, Florida (FASI)
    Filipino American Support Group Inc. (FASGI), Los Angeles, CA
    Filipino American Veterans of Hampton Roads (FAVHR), VA
    Filipino American Veterans & Families, Inc (FAFVI), San Francisco, 
CA
    Filipino Civil Rights Advocates (FilCRA)
    Filipino Intercollegiate Networking Dialogue (FIND)
    Filipino War Veterans of Washington (FWVW),
    Seattle Filipino World War II Veterans Federation of San Diego 
County
    Illinois Veterans Equity Center (IVEC)
    National Assn of Sons & Daughters of FilAm World War II Veterans 
USA
    National Network for Veterans Equity (NNVE)
    National Federation of Filipino American Associations (NaFFAA)
    Philippine Nurses Association of Pennsylvania and New Jersey
    Veterans Equity Center (VEC), San Francisco
    Veterans Federation of the Philippines (VFP)
    Filipino American National Historical Society-East Bay
    National Association of Filipino American United Methodists 
(NAFAUM)

Alliance Leadership
Co-Chairs
    Jon Melegrito, NaFFAA
    Lilian Galedo, NNVE
Steering Committee
    Alma Kern, NaFFAA (National)
    Ernie Ramos, NaFFAA (NaFFAA Southwest Region)
    Rozita Lee, NaFFAA (Nevada Region)
    Perry Diaz, National Federation of Filipino American Republicans
    Lou Tancinco, NNVE
    Luisa Antonio, NNVE
    Jerry Clarito, Illinois Veterans Equity Center
    Romy Monteyro, San Diego Veterans
    Jenny Batongmalaque, Los Angeles Veterans
    Susan Dilkes, FASGI, Los Angeles
    Gloria Caoile, Treasurer
    Lisa Yuchengco, Fundraising Committee
Legislative Team
    Irene Bueno, Legislative Adviser
    Charmaine Manansala, Policy Adviser
    Ben de Guzman, National Campaign Coordinator
    Vida Benavides, Campaign Adviser
                                 ______
                                 
    Prepared Statement of Margarita Hopkins, President, and Serafin 
   Colmenares, Jr., Vice President, Congress of Visayan Organizations
    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, as President and Vice President of the Congress of Visayan 
Organizations (COVO), we thank you for the opportunity to present this 
written testimony in unanimous support of the Filipino Veterans' Equity 
Act 2007. COVO is a statewide umbrella organization representing 22 
unit organizations of Visayan ancestry 
in Hawaii.
    For years, COVO has been a staunch advocate of Filipino veterans' 
equity to make right a broken promise that was rescinded in 1946 by an 
act of Congress. Taken away or gravely limited were veterans' benefits 
that included family reunification, health care, veterans burial 
rights, and more that were afforded to all World War II allied troops 
except from the Philippines.
    COVO's commitment to advocacy for our Filipino veterans is rooted 
in the spirit of social justice set by Visayan native chief Lapu-Lapu, 
who is recognized as the first Filipino national hero for subduing the 
conquistador Ferdinand Magellan in the Battle of Mactan on April 27, 
1521.
    In 2007, one year after the Filipino centennial anniversary of the 
first arrival of Filipinos to Hawaii, the fate of Filipino veterans is 
awaiting another act of Congress. COVO looks to your leadership and 
moral values to pass the Filipino Veterans Equity Act, to recognize the 
sacrifice and contributions to Americans in a time of war, and to 
reinstate veterans' benefits. COVO extends our gratitude to your public 
service to the American people.
                                 ______
                                 
  Prepared Statement of Nic G. Musico, Adviser, WWII Fil-Am Veterans 
                  and Ladies Auxiliary, Hawaii Chapter

    Aloha, Mr. Chairman and Members of the Committee, my name is Nic 
Musico, a naturalized American citizen and resident of Honolulu, Hawaii 
for over 35 years. I am one of the advisers of the WWII Fil-Am Veterans 
and Ladies Auxiliary Hawaii Chapter.
    I testify in support of S. 57, also known as the Filipino Veterans 
Equity Act of 2007.
    When the Filipino veterans arrived en masse in 1992 to take 
advantage of the Immigration Act of 1990, I managed shelters to 
temporarily house them. We fed between 80 to 100 veterans every day for 
one year. The Hawaii community did an excellent job providing food, 
transportation, transitional housing, and monetary support. That year, 
the Honolulu Immigration and Naturalization office processed about 
6,000 veterans to become American citizens who made Hawaii, for 
majority of them, their new home.
    Now, fifteen years later, and many of them gone, I still see them 
with great need. Many are here alone, away from their family who are in 
the Philippines. It is a very sad situation, but they maintained this 
lifestyle hoping that someday they will be reunited with their family.
    Many veterans are on Supplemental Security Income (SSI). They are 
of course very grateful for this financial aid program, but when they 
are able to save some money to visit their family in the Philippines, 
they stay there for no more than 28 days because if they stayed longer, 
they would be required to reapply for SSI when they return to Hawaii. 
It does not seem to be a friendly program because when they reapply, 
they worry whether they would be disqualified from the SSI program or 
penalized. Mostly in their early or late eighties with no immediate or 
extended family members who can assist them, they find it very 
difficult to navigate the system of public assistance or deal with 
government red tape.
    Hawaii has one of the highest standards of living in the country. 
These veterans came here to avail of American citizenship but 
unknowingly placed themselves in a tough predicament. In 1992, their 
average age was 70. At this age, what chances would they have to buy a 
house or a car? What chances would they have to find a good job? The 
chances naturally are very little because at their age, they should be 
enjoying retirement. Who would hire a 70-year-old person with no 
experience?
    But these veterans are very resilient people. A few of them hold 
part time jobs as security guards. Some collect empty bottles and cans 
for redemption at recycling centers. Some do vegetable gardening. Some 
queue at various food bank locations. They are engaged in these 
activities to supplement their SSI. It is rather funny that they have 
to supplement their supplemental income.
    These veterans have learned to minimize their expenses. They buy 
monthly bus passes to use public transportation. They use ``handi-
vans'' to bring them to hospital, clinic, or doctor. They wake up early 
to go to ``flea market'' to buy discounted goods and fresh vegetables. 
They patronize discount stores and watch for sales.
    They have also learned to socially, psychologically, and 
financially support each other. When someone among them dies, they 
collect donations for burial services, attend funeral services, conduct 
group prayers, and comfort each other. They organize events to keep 
themselves busy and occupied. They share information, particularly 
those that directly affect them.
    Life for the aging Filipino WWII veterans in this country whose 
freedom they helped preserve for all Americans to enjoy is a mixed 
blessing. They have been given the opportunity to pledge allegiance to 
the United States flag under which they served during the war, but they 
have not been given the full rights and benefits accorded to other war 
veterans who served under it. There is something morally wrong about 
this. This is a grave injustice that the U.S. Congress must rectify 
NOW!
    I strongly urge this honorable Committee to pass S. 57, the 
Filipino Equity Act of 2007.
    Mahalo for this opportunity to testify.
                                 ______
                                 
        Prepared Statement of Emmanuel V. de Ocampo, President, 
                 Veterans Federation of the Philippines

    World War II in the Philippines started on December 8, 1941 and 
ended on September 3, 1945.
    The contributions of the Filipino soldiers to the war effort of the 
United Sates of America during World War II are documented in official 
records and have been adequately presented in newspapers, magazines, 
books and even in movies.
    The Veterans Federation of the Philippines seeks the full 
recognition by the United States Government of the military service 
rendered within the period from December 8, 1941 to September 3, 1945 
by persons, of any nationality, in the regular army units of the 
Commonwealth of the Philippines and in the Philippine guerrilla 
organizations recognized by the United States Army as military service 
to the United States of America for all intents and purposes.
    The Veterans Federation of the Philippines supports and thanks the 
proponents of any measure toward that end.
                                 ______
                                 
            Prepared Statement of Tessie Oculto, President, 
                  Philippine Nurses Association-Hawaii

    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, as President of the Philippine Nurses Association-Hawaii, I 
thank you for the opportunity to present this written testimony in 
undivided support of the Filipino Veterans Equity Act.
    Philippine Nurses Association-Hawaii represents over 70 registered 
nurses. As a national affiliate of the Philippine Nurses Association of 
America, our shared mission is to uphold and foster the positive image 
and welfare of our constituent members; to promote professional 
excellence, and to contribute to significant outcomes to healthcare and 
society.
    We strongly support S. 57 and H.R. 760 to reinstate veterans' 
benefits, which the U.S. Congress unfairly rescinded in 1946. As health 
care providers, we see that this policy resulted in the lack of access 
to health care and much more for our Filipino veterans. The 110th 
Congress has the opportunity to correct this unfortunate racist policy, 
which has no place in an America that is based on the premise of 
equality for all. We respectfully ask for your support to champion the 
passage of the Filipino Veterans Equity Act. Thank you for your 
commitment to social justice and for your dedication to public service.
                                 ______
                                 
         Prepared Statement of Beatrice Ramos-Razon President, 
                  Nursing Advocates and Mentors, Inc.

    Chairman Akaka, Ranking Member Craig, and distinguished Committee 
Members, as President of the Nursing Advocates and Mentors, Inc. 
(NAMI), I thank you for the opportunity to present this written 
testimony in strong support of the Filipino Veterans Equity Act. NAMI's 
membership is comprised of over 75 nurse, allied health care 
professionals, and Filipino leaders, who are dedicated to improve the 
health of Hawaii's people by addressing the global issues of a 
worldwide nursing shortage through the training and mentoring of 
foreign medical graduate nurses to pass Hawaii's nurses board exams.
    NAMI is in full support of S. 57 and H.R. 760 with all of its 
provisions. Our Filipino World War II veterans have endured and 
survived compounding life hardships, in spite of having their veterans' 
benefits rescinded by the U.S. Congress in 1946. As experienced 
gerontology practitioners and skilled nursing facilities or care home 
administrators, NAMI nurses are keenly aware of the predicament faced 
by our aging Filipino veterans. As young men, they put themselves in 
harm's way to defend Americans, but now in their twilight years, they 
cannot avail of veterans' benefits.
    NAMI urges you to please support the passage these important bills.
                                 ______
                                 
                       State of Hawaii, Executive Chambers,
                                      Honolulu, HI, April 10, 2007.
Hon. Daniel Akaka,
Chairman, Senate Committee on Veterans' Affairs
Prince Kuhio Federal Building,
Honolulu, HI.
    Dear Senator Akaka: I am asking for your support of S. 57, Filipino 
Veterans Equity Act of 2007. It is extremely important your Veterans 
Committee move the bill out so the full senate may vote on the measure. 
This bill will grant the children of Filipino World War II veterans a 
special immigration status. This status would reunite these children 
with naturalized Filipino WWII veterans already residing in the United 
States.
    In 1941, President Franklin Roosevelt drafted over 250,000 Filipino 
citizens into the United States Armed Forces. Under the command of 
General Douglas MacArthur, Filipino soldiers fought valiantly alongside 
American soldiers in defense of freedom.
    The 1990 Immigration Act allowed these Filipino veterans the 
opportunity to obtain U.S. citizenship. However, the legislation did 
not extend to their adult children, many who have been on immigration 
waiting lists for an extended number of years. Current estimates place 
over 47,000 of these WWII Filipino veterans residing in America, many 
of them here in Hawaii.
    The Filipino Veterans Equity Act of 2007 will expedite visa 
issuance for the children of these surviving veterans by excluding them 
from numerical categorial limits. This would allow the reunification of 
these families, especially with many Filipino veterans now in their 
eighties.
    It is my hope that passage of the Filipino Veterans Equity Act of 
2007 will continue America's tradition of recognizing the sacrifices 
made by our veterans so many years ago and reward them with the 
opportunity to bring their children to our great country.
            Sincerely,
                                              Linda Lingle,
                                                          Governor.
                                 ______
                                 
                               City of Los Angeles,
                               Thirteenth Council District,
                                                    April 11, 2007.
    This letter is to inform you of my support for the passage of 
Filipino WWII Veterans Equity Act. Today can be one of many steps to 
correct the wrong that was done in the past.
    I represent Los Angeles, the District with the highest 
concentration of Filipino American Veterans in the city. I can attest 
to the many Filipino Veterans who have called our office who need 
assistance in housing because they can no longer afford their rent with 
the small income they receive each month. These men need our help. They 
deserve our help.
    Last Veterans Day 2006, I joined the many Filipino American 
Veterans in the United States in unveiling a Filipino Veterans 
Memorial, the first of its kind in the nation. This is but a small 
token to the brave men that contributed to the war efforts of the 
United States during World War II and their struggle for veteran 
recognition, equity, and justice.
    Although the Federal Government has yet to fully recognize the 
Filipino Veterans, at least the city of Los Angeles did our part with 
this memorial. Likewise, just this month, I introduced a resolution 
that the City Council of Los Angeles unanimously passed in support of 
the passage of H.R. 760 and S. 57.
    For many years, these Veterans have staged hunger strikes, 
protested here in Los Angeles, at Sacramento, and at Washington DC, 
chained themselves to the White House, and lobbied their elected 
officials; all to regain what they deserve: Full Equity and Justice. 
The United States Government has the obligation to take care of those 
who defend the country. Please do not overlook the vital role Filipino 
soldiers played during WWII.
                                             Eric Garcetti,
                          Councilman, Thirteenth Council District, 
                                               City of Los Angeles.
                                 ______
                                 
    Dear Chairman Akaka and Members of the Committee: My name is 
Wilfreda Tungol, a resident of Hawaii and a retired U.S. Army Reserve 
Officer. I am submitting this testimony in support of S.B. 57 entitled 
Filipino Veterans Equity Act of 2007. I would have preferred to give 
this testimony in person, but given the circumstance of timing and 
distance, I respectfully submit it in writing for the record. If time 
permits, I request that one of your staff members read it aloud for the 
whole Committee.
    The Filipino Veterans Equity Act of 2007 will finally correct the 
miscarriage of justice suffered by thousands of Filipino veterans who 
risked their lives in fighting for our country in the Philippines 
during World War II. The bill will enable them to have their service in 
the organized military forces of the then Commonwealth of the 
Philippines and in the Philippine Scouts equally recognized as services 
rendered in the United States Army. Some of the surviving veterans are 
now into their 80's. More than two thousand live in Hawaii. Most of 
them live alone because they cannot bring their immediate relatives 
under the current immigration laws. Most of them suffer financial 
hardships because they are not eligible for service connected benefits 
as a result of their service during World War II in the regular 
Philippine Army or the Philippine Scouts. Each time I see one of these 
Filipino veterans, I am reminded of my two uncles who fought alongside 
the regular U.S. Army during the war and who both made the ultimate 
sacrifice fighting for our country.
    One of my two uncles (Jesus Tungol) was a member of the U.S. Armed 
Forces of the Far East (USAFFE), and the other (Manuel Tungol) was a 
member of the Philippine Scouts. According to my grandmother, Manuel 
died fighting the Japanese Army in Intramuros, Manila while Jesus 
during a battle in Bataan. My grandmother was one of the survivor 
beneficiaries of Jesus' death as a result of his service before the law 
was changed in 1947 whereby veterans who served in either organization 
was excluded from receiving benefits or their beneficiaries in the 
event that they were killed during the war. The Filipino veterans would 
have been entitled to receive service connected disability benefits as 
well as other benefits if the laws have not been changed. Their loved 
ones would have been entitled to survivors' benefits if they made the 
ultimate sacrifice. Instead, the surviving Filipino veterans have had 
to wait for over three generations before they can rightfully receive 
what they are entitled to.
    Each passing week, a Filipino veteran dies in our country, without 
having received what they were entitled to for serving their country. 
They die alone, in poverty, and in distraught becasue they were left 
behind. While they have been given partial benefits by allowing them to 
come to this country, and be buried in veterans' cemeteries, the more 
substantial benefits such as medical and monetary pensions have not 
been accorded to them.
    I urge the Members of this Committee to do the right and honorable 
thing and to do everything in its power for the passage of this bill in 
the soonest possible time given the urgency of the time that is left 
for the surviving Filipino veterans.
    Mahalo and Aloha.
                                      LTC Wilfredo Tungkol,
                                                U.S. Army, Retired.
                                 ______
                                 
                        Asian Pacific American Legal Center
                                    of Southern California,
                                           Los Angeles, California.
    Dear Chairman Akaka and Members of the Committee: On behalf of the 
Asian Pacific American Legal Center, we are writing to support the 
Filipino Veterans Equity Act, which would restore veteran status for 
Filipino WWII veterans, making them eligible for the veteran benefits 
they deserve and reversing an injustice they have suffered for over 60 
years.
    Founded in 1983, the Asian Pacific American Legal Center (APALC) is 
a nonprofit organization dedicated to advocating for civil rights, 
providing legal services and education, and building coalitions to 
positively influence and impact Asian Pacific Americans and to create a 
more equitable and harmonious society. APALC is affiliated with the 
Asian American Justice Center (formerly NAPALC) in Washington, DC.
    Filipino Americans are the second largest Asian American community, 
and California has the largest Filipino American population of any 
state in the country by far. Almost half of the nation's Filipino 
Americans live in California, home to approximately 1.1 million 
Filipino Americans. For over twenty years, APALC has worked with and 
advocated for the Filipino American community in Southern California, 
and we can assure you that the plight of the Filipino WWII veterans is 
very important to this sizable community.
    Filipino WWII veterans have waited for over 60 years for Congress 
to correct the historical injustice that took place in 1946. From 1941 
to 1945, over 200,000 Filipinos fought and died as American nationals 
under the American flag and under the direction of U.S. military 
leaders. Despite their service, the Rescission Act of 1946 stripped 
these veterans of both the ability to become U.S. citizens and the 
rights and benefits given to all other World War II veterans. Today, 
fewer than 20,000 Filipino WWII veterans remain, and they are dying at 
the rate of ten a day.
    The plight of these veterans is particularly acute here in 
California. In 1990, Filipino WWII veterans were finally given the 
opportunity to obtain U.S. citizenship, and thousands of them moved to 
California to spend their remaining years in the U.S. These veterans, 
however, soon found themselves separated from the daily interaction and 
support of family members due to quotas in issuing visas to adult 
children of U.S. citizens.
    Separated from family, many of these veterans experience financial 
difficulties, health problems, and loneliness. Some do not meet the 
income level required to petition to have their family join them in the 
U.S. A survey of 404 veterans in Northern and Southern California, 
conducted by the Filipino American Service Group, Inc.'s (FASGI) 
Filipino Veterans Health Project, found 84 percent of the veterans 
reporting health problems, 75 percent suffering from loneliness and 3 
percent contemplating suicide.
    The Filipino Veterans Equity Act would provide these remaining 
Filipino WWII veterans with the recognition and status they deserve and 
pensions they need. After 60 years, this bill is a measure of 
compassion for aging veterans, many of whom are approaching their last 
days.
    APALC strongly urges Congress to support the Filipino Veterans 
Equity Act, and we thank you for your consideration of this testimony.
            Respectfully yours,
                                              Stewart Kwoh,
                                  President and Executive Director.
                                              Daniel Huang,
              Policy Advocate, Immigration and Citizenship Project.

  

                                  <all>

</pre></body></html>
